USCA4 Appeal: 19-1394

Doe: 39

Filed: 09/15/2020

Pg: 1 of 31

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1394
KERRIN BARRETT,
Plaintiff - Appellant,
v.

PAE GOVERNMENT SERVICES, INC.; AREYAL HALL, Officer, Arlington
County Police Department; WILLIAM K. LIETZAU; SEAN HORNER;
SHANEDRIA WILBORN; BRIAN GALWAY; JOSHUA LUZIER, Officer,
Defendants - Appellees.
Appeal from the United States District Court for the Eastern District of Virginia at
Alexandria. Anthony John Trenga, District Judge. (l:18-cv-00980-AJT-TCB)
Decided: September 15, 2020

Argued: May 28, 2020

Before DIAZ and THACKER, Circuit Judges, and TRAXLER, Senior Circuit Judge.
Affirmed by published opinion. Senior Judge Traxler wrote the opinion, in which Judge
Diaz and Judge Thacker joined.
ARGUED: Peter Charles Cohen, CHARLSON BREDEHOFT COHEN & BROWN, P.C.,
Reston, Virginia, for Appellant. Ara Loris Tramblian, BANCROFT, MCGAVIN,
HORVATH & JUDKINS, P.C., Fairfax, Virginia; Charles McNeill Elmer, JACKSON
LEWIS P.C., Reston, Virginia, for Appellees. ON BRIEF: Hans H. Chen, CHARLSON
BREDEHOFT COHEN & BROWN, P.C., Reston, Virginia, for Appellant. Ryan Samuel,
COUNTY ATTORNEY’S OFFICE, Arlington, Virginia, for Appellees Areyal Hall, Brian
Galway, and Joshua Luzier. Crystal L. Tyler, Meredith F. Bergeson, JACKSON LEWIS
APPENDIX A
aVI-1

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg:2of31

P.C., Richmond, Virginia, for Appellees PAE Government Services, Inc., William Lietzau,
Sean Homer, and Shanedria Wilbom.

aVI-2

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg:3of31

TRAXLER, Senior Circuit Judge:
Plaintiff Kerrin Barrett brought this action under 42 U.S.C. § 1983 and Virginia
state law against Arlington County police officers Areyal Hall (“Hall”) and Joshua Luzier
(“Luzier”), and Arlington County mental health examiner Brian Galway (“Galway”)—
collectively the “Arlington County defendants.” Plaintiff alleges that the Arlington County
defendants unlawfully seized and detained her for a mental health evaluation in violation
of the Fourth Amendment and falsely imprisoned her in violation of Virginia state law.
Plaintiff also sued her employer, PAE Governmental Services, Inc. (“PAE”), and three of
PAE’s employees, Sean Homer (“Homer”), Shanedria Wilbom (“Wilbom”), and William
Lietzau (“Lietzau”)—collectively the “PAE defendants.”

She alleges that the PAE

defendants conspired with the Arlington County defendants to unlawfully seize her and
falsely imprison her, also in violation of 42 U.S.C. § 1983 and Virginia state law.
The district court granted the PAE defendants’ motion to dismiss the Complaint in
its entirety, and granted the Arlington County defendants’ motion to dismiss the state law
conspiracy claims. The district court later granted summary judgment to the Arlington
County defendants on the remaining federal and state law claims.1 We now affirm.
I.
Plaintiff lived and worked in the Middle East for six years—from 2010 to 2016.
From April 2012 to July 2013, she worked as a contractor for PAE in Kabul, Afghanistan,

1 The operative Complaint for purposes of this appeal is the Second Amended
Complaint filed on October 31,2018.

aVI-3

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg:4of31

on a U.S. State Department contract that was dedicated to improving the rule of law in that
country. In 2014, Plaintiff moved to Dubai in the United Arab Emirates. Plaintiff claims
that she became a victim of constant stalking and harassment by Pakistani, Bangladeshi,
and other Southeast Asian men while she was living in Dubai, and that the stalkers followed
her when she traveled into Oman and Thailand.
Plaintiff moved back to the United States in early 2016. In May of that year, she
began working for PAE on another U.S. State Department contract. Plaintiff worked out
of PAE’s Arlington, Virginia office, and “was responsible for gathering and reporting on
prison data, which included women and children incarcerated in the prisons, high value
targets, and members of ISIS, the terrorist group in the Middle East.” J.A. at 23. As
explained in more detail below, in July 2017, Plaintiff informed Defendants Homer and
Wilbom that she was being stalked and harassed by Southeast Asian men, who were
reporting back to the Dubai-based network on their cell phones, and that she had taken
steps to identify her stalkers and their location in the United States. After consulting with
PAE’s legal staff, Homer contacted the Arlington County Police Department for assistance.
Defendants Hall and Luzier responded to the call, and a decision was made to issue an
emergency custody order (“ECO”) for an involuntary mental health evaluation. The
evaluation was performed by Defendant Galway with the Virginia Department of Health
Services, who determined that there was probable cause to believe that Plaintiff was
suffering from Post-Traumatic Stress Disorder (“PTSD”), and possibly a delusional
disorder, and that she posed a genuine danger to herself and others. Galway filed a petition

aVI-4

USCA4 Appeal: 19-1394

Doc:39

Filed: 09/15/2020

Pg:5of31

for a temporary detention order (“TDO”) for further evaluation and treatment of Plaintiff,
which was granted by a state magistrate judge.
II.
For purposes of the appeal from the district court’s grant of summary judgment to
the Arlington County defendants, we relate the undisputed facts that the PAE defendants
and the Plaintiff reported to them during their investigations.
A. The PAE Defendants
The events that led the PAE defendants to contact the Arlington County police for
assistance began in July 2017, when Plaintiff reported the stalking and harassment to
Defendants Homer and Wilbom. Plaintiff reported that two incidents had occurred in or
near the PAE offices, and they were of particular concern to Homer and Wilbom. First,
Plaintiff claimed that a strange “man who fit the pattern of her stalkers came up to her while
she was sitting at her desk and said, ‘Hello, [long pause] Kerrin’ before leaving.” J.A. 28
(alteration in original). Second, Plaintiff claimed that she saw a Bangladeshi stalker in the
courtyard between the PAE office building and the adjacent Verizon building, and that the
man urgently grabbed his cell phone and began talking on it when he saw her. When she
returned through the courtyard, Plaintiff approached the security guard in the Verizon
building and asked him if he knew anyone who met the description of the man. The
security guard told her that there were “a bunch of them up on the 11th floor and that they
work for [the] FDIC.” J.A. 468.
Plaintiff had previously told her supervisor, Defendant Lietzau, that she believed
she was being stalked and harassed by Southeast Asian men. She also informed him about

aVI-5

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg:6of31

the courtyard incident and asked for his advice. According to Lietzau, Plaintiff also asked
him to “go with her to kind of confront these people.” J.A. 564. At Lietzau’s suggestion,
Plaintiff instead reported the stalking incident to Defendant Homer, who was PAE’s
Security Manager. Homer testified that Plaintiff also told him that she was being stalked
and harassed by:
a coordinated, sophisticated complex[] network of primarily Southeast Asian
males, always different men following her, different vehicles following her,
having the ability to follow her, track her phone to the extent where they
knew what floor in a building she was at, that her e-mails were compromised.
She thought her house was bugged.... They would do things like knocking
on her door in the middle of the night. They would whistle at her dogs to
make them bark. They would run into her car ... and then take off.
J.A. 163. Plaintiff also told Homer that she had discovered that the stalkers were
centralized on the 11th floor of the Verizon building. According to Homer, Plaintiff “was
convinced that that’s where the centralization^] or hive was the word she used . . ., were
located and she was hoping to figure out a name or something like that to be able to figure
out who they are, track them down, who they’re sending information to.” J.A. 137-38.
Homer testified that Plaintiff “was hoping that [he] could help her gain access to [the 11th
floor of the building] to help identify potentially one of the stalkers.” J.A. 136. Homer
advised Plaintiff that he could not do so, and that she should not either. According to
Homer, Plaintiff told him that she did not own a firearm, but was considering getting one.
Homer asked Plaintiff to document her concerns in a written report. However, in
an ensuing series of emails, Plaintiff accused Homer of being derisive and disrespectful,
and cut off their communication:

aVI-6

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg:7of31

To be clear, there is absolutely nothing that can be done about my situation
legally. These networks operate just inside the law, here and abroad. My
one hope was that I could get assistance identifying who they are reporting
back to - or at least the name of one of these “followers,” since I now finally
determined their location on [Floor] 11 in the adjacent building.
Once again, there is no point in taking any more of your valuable time, nor
anyone else’s. I will, however, restate that I now am fully aware of the
complexity and severity of the war we are fighting, because I live it every
day.
J.A. 208. In reply, Homer “strongly recommend[ed]” that Plaintiff not try to “identify the
perpetrators or conffont[] them.” J.A. 211. He also contacted Defendant Wilbom, a PAE
Human Resources manager, and asked Wilbom to speak to the Plaintiff.

Wilbom

documented her conversation with Plaintiff in an Arlington County police report:
[Plaintiff] stated that when she moved back to the [United States from
Dubai], a hive of Southeast Asian men followed her here. According to
[Plaintiff], these men have been to her home, knocking on her door at odd
hours, sitting outside of her home in black cars and following her every
move. I asked [Plaintiff] how these men knew where she lived and she
responded that her phone was hacked and they are tracking her through her
phone. She also mentioned that she has been followed to work, surrounded
in the garage and surveilled in the courtyard. She says that there is a nest of
them working for FDIC on the 11th floor of the Verizon building. [Plaintiff]
says that on more than one occasion, she has seen these men on phones in
the courtyard talking to someone in Dubai (the hub) about her. She said that
she needs the phone that the men are talking on. I asked her how she planned
to get the phone and she said that she just has to walk up to them and take it.
She mentioned that her Afghanistan friends advised that the only way to
minimize the threat is to kill them. “They are an uncivilized society and they
have to be killed.” I asked her what she meant by “them.” Her response was,
“all Pakistani men.” “They just have to be killed, like Trump said, we have
to turn the key, lock them out and drop a bomb on Pakistan.” She also said
that she wishes that when she was in Afghanistan, she should have told her
Afghanistan friends to kill “them.” She also mentioned that one of these men
came here to her desk at work and said “hello Kerrin.” She also said that she
followed one of them up to the 11th floor of the Verizon building, but she
couldn’t gain access beyond the floor level. She also says that she has a
Glock and that she goes to the range to fire it. She takes her phone with her

aVI-7

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg:8of31

so that the stalkers know that she is there because they are tracking her
through her phone.
J.A. 218-19.
Wilbom testified that the majority of PAE’s contracts involve State Department
support for the Iraq and Afghanistan embassies, and that anywhere from 10 to 15 percent
of PAE’s employees could fit the description of Plaintiff s alleged stalkers. Wilbom also
testified that it would have been difficult for a non-PAE employee to gain access to the
PAE offices and find Plaintiffs desk. Given the strong opinions that Plaintiff had voiced
about Middle Eastern Asian men, and her view that there was no legal way to solve her
problem, Wilbom was concerned for the safety of Plaintiff and the other PAE employees.
She worried that Plaintiff might mistakenly identify a PAE employee as a stalker, perceive
them as a threat, and harm herself or the “stalker” in “an effort... to defend herself in the
way that she described” to Wilbom. J.A. 235. After meeting with Plaintiff, Wilbom and
Homer met with PAE’s legal staff, and a decision was made to have Homer contact the
Arlington County Police Department for assistance.
B. The Arlington County Defendants
Officers Hall and Luzier were assigned to respond to the call for assistance at the
PAE offices. The dispatch referenced an “employee who has been becoming increasingly
dillusional [sic] and believes is being followed by people in an adjacent building.... [The
reporting person] advises that employee has mentioned recently about owning a firearm
and only way to get rid of people following her is to use the firearm.” J.A. 272.

aVI-8

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg:9of31

The officers met with Homer when they arrived, who reported the substance of the
conversations that he and Wilbom had with Plaintiff. Plaintiff, however, was not at work.
The officers suggested that Homer contact the Arlington County Department of Human
Services (“DHS”) directly for their guidance and suggestions, and to call the officers back
if they needed further assistance. Homer contacted DHS the same day and spoke with
Alexis Mapes, the Emergency Services Supervisor. Mapes documented her conversation
with Homer in an email to her staff, which included Defendant Galway:
[Homer] [rjeports an employee has been increasingly paranoid while at
work, citing being followed by Middle Eastern men - who are supposedly
following her at work, at home, and whistling at her dog; has described
following said men to nearby building to determine who they are and reports
that she “found the nest.” Employee reported to [Homer] that she did not
have a weapon, but made another report to HR that she did have a weapon
and the “only way to solve this is to kill them.”
.... [Homer] plans to consult with HR [and] ask the police to come out to
obtain stalking statement from employee when she arrives for the day, with
likelihood of employee exhibiting concerning behavior to warrant an
ECO/ assessment.
J.A. 276. Homer contacted the Arlington County Police Department the following day and
requested that Officers Hall and Luzier be dispatched to PAE’s offices.
When the officers arrived, they met with Homer again and also spoke directly to
Wilbom about her conversation with Plaintiff. The officers then talked to Plaintiff and
Wilbom in a conference room. Plaintiff was even-keeled and not disheveled in her
appearance. According to Plaintiff, she was initially under the impression that the officers
were there to help her investigate and identify her stalkers, but came to realize otherwise
when the questioning began.

She testified that Officer Luzier was hostile and

aVI-9

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 10 of 31

unprofessional in his behavior, and dismissive of her concerns. Nevertheless, Plaintiff
related the substance of the stalking and harassment to the officers, including that she was
being followed by different Asian men in black SUVs, and that they “report back on the
phones, and it seems to be a network of people doing it.” J.A. 489. She told them about
the man in the courtyard and that she had spoken to the security guard in the building. She
told them that she had taken steps to become a “hard target” by installing a dash cam in her
car and a camera in the front of her home, having dogs, and becoming more vigilant and
aware. Plaintiff confirmed to the officers that she owned a dock pistol, but said it was
stored in a closet in her home. She denied telling Wilbom that she would go to the range
to practice with her dock, but she admitted that she had taken an NRA self-defense course
in May 2017 to obtain a carry permit under Virginia law. She said she used an NRAprovided gun for the class and had not yet obtained the permit. With regard to Wilbom’s
report of her talking about “killing” the stalkers, she said that this was a misunderstanding;
she was only referring to the cultural differences between the Middle East and the United
States as to how such situations would be handled. She told the officers that she had no
intent to harm her stalkers, but that “[hjopefully if something happens, I’ll have the courage
to defend myself.” J.A. 271.
During the interview, Officer Luzier left the conference room on a couple of
occasions. He spoke with Wilbom about her concerns. He contacted the Fairfax County
Police Department for information about Plaintiffs reports, but received no response. And
he contacted DHS and was told they had no history of mental health encounters with
Plaintiff.

aVI-10

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 11 of 31

Under Virginia law, a police officer may take a person into custody without prior
judicial approval and transport that person involuntarily for a mental health evaluation
pursuant to an ECO if the officer:
has probable cause to believe that any person (i) has a mental illness and that
there exists a substantial likelihood that, as a result of mental illness, the
person will, in the near future, (a) cause serious physical harm to himself or
others as evidenced by recent behavior causing, attempting, or threatening
harm and other relevant information, if any, or (b) suffer serious harm due to
his lack of capacity to protect himself from harm or to provide for his basic
human needs, (ii) is in need of hospitalization or treatment, and (iii) is
unwilling to volunteer or incapable of volunteering for hospitalization or
treatment.
Va. Code Ann. § 37.2-808.A; see also id. § 37.2-808.G (“A law-enforcement officer who,
based upon his observation or the reliable reports of others, has probable cause to believe
that a person meets the criteria for emergency custody... may take that person into custody
and transport that person to an appropriate location to assess the need for hospitalization or
treatment without prior authorization” from a magistrate judge.). After considering all of
the information presented to them, the jpolice officers made the decision to issue an ECO,
and Plaintiff was transported to the Virginia Hospital Center for a mental health evaluation.
Once an individual is taken into custody by police officers pursuant to an ECO, the
individual must be evaluated by “a person designated by the community services board
who is skilled in the diagnosis and treatment of mental illness and who has completed a
certification program approved” by the Department of Behavioral Health and
Developmental Services.

Va. Code Ann. § 37.2-808.B.

The evaluation must “be

conducted immediately. The period of custody shall not exceed eight hours from the time
the law-enforcement officer takes the person into custody.” Id. § 37.2-808.G.

aVI-11

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 12 of 31

Defendant Galway was assigned to perform Plaintiffs evaluation.

Galway

reviewed the email that he received from Mapes, documenting her conversation with
Homer. He spoke with Wilbom, who confirmed the information that she had reported to
the police. He also spoke with Lietzau, who told him that he did not think Plaintiff would
r
hurt anyone and that he would not be concerned if Galway decided not to seek an order of
commitment. However, Lietzau testified that the statements Plaintiff had made to Homer
and Wilbom were “slightly more pointed and harsh sounding, more dangerous sounding,
than the verbal statements” that Plaintiff had made to him. J.A. 592. During the call,
another work colleague entered Lietzau’s office, who agreed that he did not think Plaintiff
posed a threat to others. Although there is no evidence that Galway heard the statement of
the other coworker, Lietzau testified that he would have given this information to Galway.
Galway also reviewed the medical records and spoke with Dr. Peter Liu, the
emergency room physician. Dr. Liu consulted with a psychiatrist, Dr. Peggy Lomax, and
concluded that Plaintiff was suffering from a chronic paranoia disorder, with an acute
episode. Dr. Liu concluded that “further investigation is necessary to either rule in
delusional paranoia [disorder] [versus] actually] being stalked by multiple middle eastern
men.” J.A. 386. Dr. Liu also advised Galway that he “felt, given that she was refusing
treatment... and based on what she had been saying, that he was concerned that she might
put herself or others at risk.” J.A. 351.
When Galway interviewed Plaintiff, she reiterated her claims that she was being
stalked and harassed by the Southeast Asian men. She denied that she was undergoing
mental health treatment, and repeatedly refused to voluntarily admit herself for an

aVI-12

USCA4 Appeal: 19-1394

Doc:39

Filed: 09/15/2020

Pg: 13 of 31

evaluation. She told Galway that she did own a gun, but that it was locked away. She also
told Galway that she was willing to surrender it. She agreed to seek outpatient care, but no
provider or timeframe was discussed. Galway testified that he did not get the impression
that Plaintiff would follow through. Plaintiff testified that it was her impression that she
and Galway were “horse trading” or “bargaining” over the gun and outpatient care, and she
“was hopeful that if [she] answered correctly, then [she] would be let go.” J.A. 503.
After completing his evaluation, Galway’s assessment was that Plaintiff was
suffering from PTSD and possibly from a delusional disorder. Galway returned to the DHS
office to discuss the case with Mapes. They discussed whether a less restrictive setting
would be appropriate under the circumstances, and whether Plaintiff was likely to seek
treatment voluntarily. They also discussed the conflicting information about Plaintiffs
possession of a gun and her prior use of the gun, as well as Plaintiffs reported statements
to Wilbom about killing others. They then took the case to a DHS team meeting with their
colleagues. The consensus decision was that the risk that Plaintiff might harm herself or
others was too high, and that she needed inpatient evaluation and treatment.
Mapes documented the meeting, and the basis for the decision, in her affidavit. She
concurred that Plaintiff appeared to suffer from PTSD and paranoia. She determined that:
there was a substantial likelihood that, due to her mental illness, she would
cause harm to one of the “stalkers” or to herself by confronting one of the
“stalkers” in the near future, given: a) Plaintiffs conflicting statements about
whether she had a gun; b) a stated need for the stalkers to be killed; and c)
Plaintiffs report that she had recently followed a “stalker” into a nearby
building and claimed a “stalker” had come to her desk at work.

aVI-13

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 14 of 31

J.A. 414. This “raised a substantial concern that Plaintiff would mistake an innocent person
for a ‘stalker’ and either commit an act of violence or take some action to cause one of the
men to defend themselves and harm her.” J.A. 414. Also,
Plaintiff did not appear to understand how her perceptions and paranoia were
impacting her life, safety, and livelihood. She followed a stranger, repeatedly
called the Fairfax police, and jeopardized her employment through her
actions. Plaintiff needed mental health treatment for these issues, refused to
seek such treatment, and told Mr. Galway she had never sought mental health
treatment. Because she told Mr. Galway she had never sought mental health
treatment, we had no way of contacting her mental health provider to obtain
collateral information about [her],
J.A. 415. Accordingly, Mapes “concluded Plaintiff clearly met the criteria to seek a [TDO]
from the magistrate and so advised Mr. Galway.” J.A. 414.
Under Virginia law, the magistrate judge, upon sworn petition by a mental health
examiner, will issue a TDO “if it appears from all evidence readily available, including any
recommendation from a physician, clinical psychologist, or clinical social worker treating
the person, that the person” satisfies the same criteria required for the issuance of an ECO.
Va. Code Ann. § 37.2-809.B. “The magistrate shall also consider, if available, (a)
information provided by the person who initiated emergency custody and (b) the
recommendations of any treating or examining physician licensed in Virginia either
verbally or in writing prior to rendering a decision.” Id. In this case, the magistrate judge
agreed that there was probable cause to issue a TDO, and Plaintiff was detained for further
evaluation and a commitment hearing. In accordance with the Virginia statutes, an
independent medical examiner was assigned to evaluate the Plaintiff. The examiner

aVI-14

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 15 of 31

concluded that Plaintiff did not meet the criteria for involuntary commitment, and the case
against Plaintiff was dismissed. See Va. Code Ann. §§ 37.2-813 through -817.2
C.
Plaintiff filed a complaint under 42 U.S.C. § 1983 against the Arlington County
defendants for unlawful seizure under the Fourth Amendment. Plaintiff also brought §
1983 claims against the individual PAE employees, alleging that they conspired with the
Arlington County defendants to violate her rights. Plaintiff also alleged that the Arlington
County defendants falsely imprisoned her, and that the Arlington County defendants and
the PAE defendants conspired to falsely imprison her and violate her civil rights, all in
violation of Virginia state law.
In its first order, the district court granted the PAE defendants’ motion to dismiss
the § 1983 counts against the individual PAE defendants and the state law conspiracy
counts against all of the PAE defendants. The district court also granted the Arlington
County defendants’ motion to dismiss the state law conspiracy counts. In its second order,
the district court granted summary judgment to the Arlington County defendants on the
remaining federal and state law claims. We affirm both decisions.3

2 Although it is not entirely clear whether the independent examiner or the
magistrate judge were made aware of it, Plaintiff had been seeing a psychologist who had
diagnosed her with PTSD—contrary to her denials of any such treatment to the Arlington
County defendants.
3 Plaintiff does not appeal the district court’s dismissal of the § 1983 claims against
Defendant Lietzau, the false imprisonment claim against Defendant Galway, or the claims
that Lietzau and PAE conspired with Galway to violate her constitutional rights and falsely
imprison her. To the extent Plaintiffs § 1983 claims alleged procedural due process claims

aVI-15

USCA4 Appeal: 19-1394

Filed: 09/15/2020

Doc: 39

Pg: 16 of 31

III.
We begin with the district court’s decision to grant summary judgment to the
Arlington County defendants on Plaintiffs § 1983 claims, and to Officers Hall and Luzier
on the false imprisonment claims. We review the decision to grant summary judgment de
novo. See Cybernet, LLC v. David, 954 F.3d 162, 167 (4th Cir. 2020). “A grant of
summary judgment is proper when no genuine dispute of material fact exists for trial. In
making this determination, we view the evidence in the light most favorable to the non­
moving party and draw all reasonable inferences in that party’s favor.” Id. at 168 (internal
citations omitted). “[T]he mere existence of some alleged factual dispute between the
parties will not defeat an otherwise properly supported motion for summary judgment; the
requirement is that there be no genuine issue of material fact.” Anderson v. Liberty Lobby,
Inc., 417 U.S. 242, 247-48 (1986).
A. Federal Claims Under § 1983
Qualified immunity bars § 1983 actions against government officials in their
individual capacities “unless (1) they violated a federal statutory or constitutional right,
and (2) the unlawfulness of their conduct was clearly established at the time.” District of
Columbia v. Wes by, 138 S. Ct. 577,589 (2018) (internal quotation marks omitted); see also
Raub v. Campbell, 785 F.3d 876, 881 (4th Cir. 2015). “Qualified immunity balances two

under the Fifth Amendment, Plaintiff has also abandoned these claims. In supplemental
briefing, Plaintiff agreed that the district court properly confined its analysis of her claims
strictly to the Fourth Amendment, and that the district court’s orders finally disposed of all
aspects of her claims against all defendants.

aVI-16

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 17 of 31

important interests—the need to hold public officials accountable when they exercise
power irresponsibly and the need to shield officials from harassment, distraction, and
liability when they perform their duties reasonably.” Pearson v. Callahan, 555 U.S. 223,
231 (2009).

It “gives government officials breathing room to make reasonable but

mistaken judgments, and protects all but the plainly incompetent or those who knowingly
violate the law.” Stanton v. Simms, 571 U.S 3, 5 (2013) (per curiam) (internal quotation
marks omitted). Accordingly, even if a court finds or assumes that a government official
violated an individual’s constitutional rights, the official is entitled to immunity so long as
the official did not violate clearly established law.4 “Clearly established means that, at the
time of the [official’s] conduct, the law was sufficiently clear that every reasonable official
would understand that what he is doing is unlawful. In other words, existing law must have
placed the constitutionality of the [official’s] conduct beyond debate.” Wesby, 138 S. Ct.
at 589 (internal quotation marks and citations omitted).
The Fourth Amendment protects the people “against unreasonable searches and
seizures.” U.S. Const, amend. IV. Determining whether a person’s Fourth Amendment
rights have been violated in the mental health context requires us to determine whether the
officials had probable cause to seize the person for an emergency mental evaluation. See
Bailey v. Kennedy, 349 F.3d 731, 739 (4th Cir. 2003). Such probable cause exists “when

4 See Pearson v. Callahan, 555 U.S. 112, 236 (2009) (“The judges of the district
courts and the courts of appeals [are] permitted to exercise their sound discretion in
deciding which of the two prongs of the qualified immunity analysis should be addressed
first in light of the circumstances in the particular case at hand.”).

aVI-17

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 18 of 31

the facts and circumstances within the defendant’s knowledge and of which the defendant
had reasonably trustworthy information were sufficient to warrant a prudent man to believe
that the person poses a danger to himself or others.” Goines v. Valley Cmty. Servs. Bd.,
822 F.3d 159,172 (4th Cir. 2016) (internal quotation marks omitted).
“Because probable cause deals with probabilities and depends on the totality of the
circumstances, it is a fluid concept that is not readily, or even usefully, reduced to a neat
set of legal rules.” Wesby, 138 S. Ct. at 586 (internal citations and quotation marks
omitted). It “is a practical, nontechnical conception that addresses the factual and practical
considerations of everyday life on which reasonable and prudent men, not legal
technicians, act.” Bailey, 349 F.3d at 739 (internal quotation marks omitted). This is
particularly true in the mental health context where police officers and mental health
professionals are called upon to make “a number of difficult judgment calls” in their efforts
to protect both the individual and the public from potential dangers, Goines, 822 F.3d at
170, and there is a “distinct lack of clarity in the law governing seizures for psychological
evaluations,” Raub, 785 F.3d at 882 (internal quotation marks omitted).
The question before us then is to determine whether, based upon the information
that was presented to them, Defendants Hall, Luzier, and Galway had probable cause as a
matter of law to detain Plaintiff for an emergency mental health evaluation or, if they did
not, whether established law was “sufficiently clear that every reasonable official would
understand that what he is doing is unlawful.” Wesby, 138 S. Ct. at 589 (internal quotation
marks omitted). The district court held that the officers and Galway were entitled to
qualified immunity from suit, and we agree.

aVI-18

USCA4 Appeal: 19-1394

Doe: 39

Filed: 09/15/2020

Pg: 19 of 31

The crux of Plaintiff s argument on appeal, as it was below, centers on her testimony
that she has been the victim of ongoing harassment and stalking by Southeast Asian men,
both overseas and in the United States. But instead of helping her investigate the stalking,
the Arlington County defendants disbelieved and dismissed her claims and took her into
custody for an emergency psychological evaluation without probable cause. In support,
Plaintiff relies upon the fact that she told the officers that she had no intention of harming
anyone; that she did not make some of the statements that Homer and Wilbom reported to
the Arlington County defendants; and that others were misunderstood or taken out of
context. For example, Plaintiff denies using the terms “hive” or “nest” to describe the
location of the stalkers on the 11th floor of the Verizon building; denies that she used the
term “hub” to describe the location of the Dubai-based network of stalkers; denies that she
told Homer that she did not own a gun; admits that she told Wilbom that she owned a gun,
but denies that she told her that she practiced at the range with it; and denies that she told
Wilbom that she had to take a stalker’s phone to find out who is behind the stalking. She
does not deny her comments about “killing” Middle Eastern persons, but contends that
these comments were taken out of context or misunderstood by Wilbom. According to
Plaintiff, she was only referring to the cultural differences between the Middle East and the
United States in how such matters would be handled.
As the district court properly concluded, however, Plaintiffs asserted disputes of
fact “relate to what Plaintiff said or did before her behavior was reported” to the Arlington
County defendants, and “whether Plaintiffs statements [to Homer and Wilbom] were
taken out of context.” J.A. 774. These are not material factual disputes because we must

aVI-19

USCA4 Appeal: 19-1394

Doc:39

Filed: 09/15/2020

Pg: 20 of 31

evaluate the officials’ conduct in light of the totality of the facts and circumstances that
were presented to them at the time. As the district com! explained, “there is no genuine
factual dispute as to what information Defendants Hall, Luzier, and Galway had before
making the decision to issue the ECO and petition for the TDO, including what Homer,
Wilbom, or Plaintiff said” to them. J.A. 774. Thus, the question of whether probable cause
existed is based upon the totality of the facts and circumstances presented to the Arlington
County defendants, including the reports of all of the persons involved when they made
the difficult judgment call to detain Plaintiff for the emergency mental health evaluation.5
1. Defendants Hall and Luzier
We hold that the facts and circumstances within the police officers’ “knowledge and
of which [they] had reasonably trustworthy information were sufficient to warrant a
prudent man to believe” that Plaintiff posed a danger to herself and others. Goines, 822
F.3d at 172.
First, it is undisputed that Plaintiff was calm and not disheveled in her appearance,
and that she denied any intent to harm her stalkers. But from the point of view of the
officers, Plaintiffs account to them was largely consistent with the most troubling

5

Plaintiff argues that the district court should not have relied upon Wilbom’s
written police statement because there is no evidence that the written statement was
provided to the police before they issued the ECO. However, even if it is true that Wilbom
wrote her statement after the ECO was issued, Defendants Homer and Wilbom testified
that the information contained therein (including Wilbom’s conversation with Plaintiff)
was provided to the police officers when they arrived at the PAE offices. Accordingly, we
hold that the district court properly relied upon the written statement, and that we may do
so as well.

aVI-20

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 21 of 31

information that Homer and Wilbom had reported to them. Plaintiff told the officers that,
while she might be paranoid, she believed that she was being stalked and harassed by
Southeast Asian men under the direction of the Dubai-based network. She told the officers
that she had taken steps to become a “hard target” for her stalkers, that she had approached
the security guard in the adjoining building in an effort to identify the stalker in the
courtyard and that, in doing so, she had determined where her Dubai-based stalkers were
centralized. Plaintiff told the officers that, despite at least four prior calls to the Fairfax
Police Department, nothing had been done to stop the harassment. Plaintiff also admitted
that she told the officers that she owned a firearm, that she had recently taken a firearms
course to obtain her concealed weapons permit, and that she hoped she would have the
courage to defend herself if necessary.
According to the reports of Lietzau and Homer, Plaintiff had sought their assistance
to gain access to the adjoining building in order to identify and confront her stalkers. And,
when Plaintiff suspected that Homer disbelieved her claims, she told him that she was
“fully aware of the complexity and severity of the war we are fighting because I live it
every day.” J.A. 208. Wilbom’s account of Plaintiff s statements to her were even more
troubling. Plaintiff told Wilbom that she owned a Glock pistol, went to the range to
practice with it, and took her cell phone (which was being tracked) with her so that her
stalkers would know she was there. Plaintiff also told her that there was no legal means to
deal with her stalkers and, although she made no direct threat to kill her stalkers, she made
several references to killing such “uncivilized” Middle Eastern men, and she told Wilbom
that she hoped she would be able to defend herself if necessary.

aVI-21

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 22 of 31

There is no evidence that the officers had reason to question the veracity of the
information that the PAE defendants reported to them. The reporting persons were
management officials—a PAE security manager and human resources manager. Nor did
the officers make a snap decision to detain Plaintiff without meaningful inquiry. The
officers met with the PAE employees prior to and during their interview of Plaintiff to
discuss the concerns that led them to call the police. Specifically, the PAE defendants
explained their concerns that Plaintiff might mistake one of their Middle Eastern
employees as a stalker—particularly in light of the fact that she believed that one of her
stalkers had successfully breached PAE’s offices and that another was watching her just
outside the PAE offices.
In the end, therefore, the statements of the PAE defendants and Plaintiff were
remarkably consistent. A decision had to be made, and the officers made the reasonable,
albeit difficult, judgment call that Plaintiff posed a danger to herself and others and should
be transported to the hospital for a mental health evaluation. Officers Hall and Luzier were
not required to “walk[] away from the situation” merely because Plaintiff denied making
some of the statements that her coworkers had reported to the officers, and denied that she
had any intent to harm herself or her stalkers. Gooden v. Howard Cnty., 954 F.2d 960, 967
(4th Cir. 1992) (en banc). Indeed, “had ‘the officers done nothing’”—and had Plaintiff
hurt herself or one of her perceived stalkers in a misguided attempt to defend herself—“the
consequences may have been irremediable.” Cloaninger v. McDevitt, 555 F.3d 324, 333
(4th Cir. 2009) (quoting Gooden, 954 F.3d at 967). As we have recognized in similar cases,
it would be “a misguided application of § 1983 to expose to liability those who by all

aVI-22

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 23 of 31

objective indicia were only trying to help.” Gooden, 954 F.3d at 967. Officers should not
“be faulted for taking action against what they reasonably perceived to be a genuine danger
to” the Plaintiff and others at the time. Id. at 966.
2: Defendant Galway
For similar reasons, we hold that Defendant Galway had probable cause to seek a
TDO from the magistrate judge. Plaintiff argues that Galway lacked probable cause for
two additional reasons: Lietzau told Galway that he did not believe Plaintiff would hurt
anyone, and Plaintiff told Galway that she would surrender her gun and seek outpatient
treatment. But, again, we must evaluate whether Galway had probable cause to detain
Plaintiff based upon the totality of the facts and circumstances known to him when he made
his decision, and not based upon a culling of the more favorable reports that he received.
Galway reviewed the reports and concerns of Homer and Wilbom, as well as the
medical reports. Galway believed, based upon his training and assessment, that Plaintiff
suffered from PTSD and possibly a delusional disorder, and he questioned whether she
would follow through with outpatient treatment. Dr. Liu’s view was consistent with
Galway’s evaluation, and he advised Galway that he also believed that Plaintiff posed a
danger to herself and others. Like the officers, Galway had no reason to question the
veracity of the reports that he received from the other PAE employees, or Dr. Liu’s opinion,
and there is nothing to suggest that he failed to perform a sufficient inquiry before making
his judgment call. On the contrary, his actions reflected great care and recognition of the
gravity of the decision that he was making. He consulted with his supervisor and the DHS

aVI-23

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 24 of 31

team regarding the proper course of action before making the judgment call to apply for
the TDO.
For these reasons, we hold that the totality of the facts and circumstances were
sufficient to warrant a prudent man in Galway’s position to believe that the Plaintiff posed
a danger to herself and others, and that an emergency mental health detention for further
evaluation and treatment was prudent.
3.

Because the undisputed evidence establishes that the Arlington County defendants
had probable cause to detain Plaintiff, qualified immunity bars her § 1983 claim under the
first prong of the qualified immunity test, and summary judgment was properly awarded.
But even if we were to assume that probable cause to detain Plaintiff was lacking, the
Arlington County defendants are also entitled to qualified immunity under the second
prong because “the unlawfulness of their conduct was [not] clearly established at the time”
the decision was made. Wesby, 138 S. Ct. at 589 (internal quotation marks omitted).
Relying principally on our decision in Bailey v. Kennedy, Plaintiff argues that it was
clearly established that the Arlington County defendants lacked probable cause to believe
that she posed a danger to herself or others. But, unlike in Bailey, the officials here did not
rely on a single piece of evidence or take Plaintiff into custody without any independent
basis for concluding that Plaintiff posed a genuine danger of harming herself and others.
See Bailey, 349 F.3d at 740 (holding that a single 911 report was an insufficient based to
seize the Plaintiff for a psychological evaluation). As explained above, the Arlington
County defendants relied upon numerous statements from Plaintiffs coworkers about her

aVI-24

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 25 of 31

frustrations with her stalkers and the actions she had taken to address them, as well as upon
Plaintiffs own statements about her inability to resolve the situation, her ownership of a
weapon, and her recent attendance at a firearms class.6
Accordingly, we reject Plaintiffs argument that the law at the time of the officials’
conduct “was sufficiently clear that every reasonable official would understand that what
he is doing is unlawful,” placing the unconstitutionality of the officials’ conduct “beyond
debate.” Wesby, 138 S. Ct. at 589 (internal quotation marks omitted). On the contrary,
“[reasonable [officials], relying upon our decisions] . . . would have concluded that
involuntarily detaining [Plaintiff] was not only reasonable, but prudent.” S.P. v. City of
Takoma Park, 134 F.3d 260, 267 (4th Cir. 1998).7
B. The State Law Claims
We also affirm the district court’s grant of summary judgment to Officers Hall and
Luzier on Plaintiffs state law claims for false imprisonment. Under Virginia law, “[f]alse
imprisonment is the restraint of one’s liberty without any sufficient legal excuse. If the

6 Plaintiffs reliance on our decision in Goines v. Valley Community Services Board
is also misplaced. See 822 F.3d 159 (4th Cir. 2016). In Goines, we reversed a district
court’s decision granting a motion to dismiss the complaint because the complaint
allegations were sufficient to demonstrate a lack of probable cause. As the district court
correctly noted, we have a “fully developed factual record” in this case, “which
demonstrates that the Officers acted on far more evidence and a lengthier investigation than
did the officers in Goines.'’'’ J.A. 782, n.2.
7 Because we conclude that the Arlington County defendants had probable cause to
detain Plaintiff for a mental health evaluation, and did not violate clearly established law
in doing so, we need not address the defendants’ alternative argument that the Virginia
magistrate’s ruling was an intervening act that insulated the defendants from liability.

aVI-25

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 26 of 31

plaintiffs arrest was lawful, the plaintiff cannot prevail on a claim of false imprisonment.”
Lewis v. Kei, 708 S.E.2d 884, 890 (Va. 2011) (internal citation omitted). The district court
granted summary judgment to the officers because, to state a claim for false imprisonment,
the “plaintiff must allege that the process leading to the arrest was unlawful,” and “the
facially valid ECO that Defendant Hall issued upon conclusion of the interview with
Plaintiff was a form of legal process.” J.A. 786 (internal quotation marks omitted).
Because Plaintiff did not challenge this basis for the district court’s grant of
summary judgment on the false imprisonment claims in her opening brief, she has waived
her appeal from it. See Grayson O Co. v. Agadir Int’l LLC, 856 F.3d 307, 316 (4th Cir.
2017) (“A party waives an argument by failing to present it in its opening brief or by failing
to develop its argument—even if its brief takes a passing shot at the issue.” (internal
quotation marks and alterations omitted)); Brown v. Nucor Corp., 785 F.3d 895, 918 (4th
Cir. 2015) (“Failure of a party in its opening brief to challenge an alternate ground for a
district court’s ruling waives that challenge.”) (alterations omitted)); Cavallo v. Star Enter.,
100 F.3d 1150, 1152 n.2 (4th Cir. 1996) (“[A]n issue first argued in a reply brief is not
properly before a court of appeals.”).
Moreover, even if Plaintiff had challenged the district court’s ruling on this point,
Plaintiff “failed as a matter of law to proffer evidence sufficient under Virginia law for a
jury to find that Defendants Luzier or Hall falsely imprisoned her.” J.A. 787. As explained
above, Officers Hall and Luzier spoke with the witnesses at length, interviewed Plaintiff
about her concerns, and had probable cause to believe that Plaintiff posed a threat to herself
and others. They lawfully detained her for an emergency mental health examination

aVI-26

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 27 of 31

pursuant to Virginia’s mental health statute. This decision was, in turn, validated by the
mental health examiner, in consultation with his supervisor, and by the issuance of the
TDO by the state magistrate judge. Accordingly, we hold that the officers had the requisite
legal justification to detain Plaintiff for the evaluation, and they followed the legal process
provided by Virginia law in doing so. Therefore, they are entitled to summary judgment
on the false imprisonment claims.
IV.
We now turn to the Plaintiffs claim that the district court erred in dismissing her §
1983 claims for unlawful seizure against Defendants Homer and Wilbom, and her state
law conspiracy claims against PAE and the individual PAE defendants.
“To survive a motion to dismiss, a complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).
“While a complaint attacked by a Rule 12(b)(6) motion to dismiss does not need detailed
factual allegations, a plaintiffs obligation to provide the grounds of his entitlement to relief
requires more than labels and conclusions, and a formulaic recitation of the elements of a
cause of action will not do.” Twombly, 550 U.S. at 555 (internal quotation marks,
alterations, and citations omitted). “Nor does a complaint suffice if it tenders naked
assertions devoid of further factual enhancement.” Iqbal, 556 U.S. at 678. “Factual
allegations must be enough to raise a right to relief above the speculative level.” Twombly,
550 U.S. at 555. “[Wjhere a conspiracy is alleged, the plaintiff must plead facts amounting
to more than ‘parallel conduct and a bare assertion of conspiracy. Without more, parallel

aVI-27

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 28 of 31

conduct does not suggest conspiracy, and a conclusory allegation of agreement at some
unidentified point does not supply facts adequate to show illegality.”’ A Society Without
A Name v. Virginia, 655 F.3d 342, 346 (4th Cir. 2011) (quoting Twombly, 550 U.S. at 55657). “The factual allegations must plausibly suggest agreement, rather than being merely
consistent with agreement.” Id.
A. The Federal Claims Under § 1983
Ordinarily, private actors are not liable under 42 U.S.C. § 1983, because the statute
only provides relief for deprivations of constitutional rights by state actors. Nevertheless,
“private persons who willfully participate in joint action with a state official act under color
of law within the meaning of § 1983.” Scott v. Greenville Cnty, 716 F.2d 1409, 1422 (4th
Cir. 1983) (internal quotation marks omitted). To establish a conspiracy under § 1983, the
plaintiff must show that the Defendants “acted jointly in concert and that some overt act
was done in furtherance of the conspiracy which resulted in [the] deprivation of a
constitutional right.” Hinkle v. City of Clarksburg, 81 F.3d 416, 421 (4th Cir. 1996). This
is a “weighty burden.” Id.
Plaintiffs complaint alleges that her seizure resulted from two separate
conspiracies. The first is that the PAE defendants “agreed on a plan to use [Plaintiffs]
reports of being stalked at the office to discredit her [by] falsely claiming that she was a
threat and danger to others that required her immediate removal from the office and
transportation to a hospital for examination.” J.A. 32. Their motive for doing so, Plaintiff
alleges, was to discredit her recent claims that PAE was fraudulently overstating its
performance on the State Department contract that she was working on, and had failed to

aVI-28

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 29 of 31

provide sufficient security against her alleged stalkers. However, Plaintiff does not allege
that Officers Hall and Luzier were a part of this alleged conspiracy; indeed, she
affirmatively acknowledges that they were not. Rather, Plaintiffs § 1983 conspiracy
claims rest upon her conclusory allegations that Officers Luzier and Hall entered into a
separate agreement with the PAE defendants to remove Plaintiff from the workplace—
regardless of her answers to their questions and regardless of whether they had probable
cause to do so.
Plaintiff, however, sets forth no factual allegations that might explain why the police
officers would enter into such an agreement with the PAE defendants to intentionally
violate Plaintiffs constitutional rights. There is no allegation that the police officers even
knew the PAE defendants, much less that they had any preexisting relationship with them.
There is no allegation that the police officers knew about the PAE defendants’ separate
conspiracy, nor any explanation as to why the police officers would agree to help them
cover up their alleged illegal activities and security failures. In sum, there are no factual
allegations that plausibly suggest that the officers agreed to go along with the PAE
defendants’ illegal plan to violate Plaintiffs rights. Even if an allegation of a specific
motive might not be required to state a claim for conspiracy, the Plaintiff was still required
to allege some facts that would plausibly suggest that the police officers entered into an
agreement with the PAE defendants to accomplish the same conspiratorial objective. She
has not. “Although in form a few stray statements [in her complaint] speak directly of
agreement, on fair reading these are merely legal conclusions resting on the prior
allegations.” Twombly, 550 U.S. at 564 (footnote omitted).

aVI-29

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 30 of 31

While Plaintiff claims that it was sufficient to allege that the officers met with
Homer and Wilbom prior to and during their interview of Plaintiff, this argument fails to
save her conspiracy claim. As explained above, the “factual allegations must plausibly
suggest agreement, rather than being merely consistent with agreement.” Society Without
a Name, 655 F.3d at 346 (emphasis added). The mere fact that the officers met with the
reporting persons when they were dispatched to the PAE offices does not plausibly suggest
that they shared a common plan or “conspiratorial objective” to violate Plaintiffs civil
rights. Hinkle, 81 F.3d at 421. On the contrary, the meetings were consistent with the
normal interaction between the police and citizenry when a complaint is investigated.
Because Plaintiffs allegations that Officers Hall and Luzier conspired with Homer and
Wilbom to illegally seize Plaintiff and remove her from the workplace for a psychological
evaluation is comprised of nothing more than conclusory assertions and rank speculation,
we affirm the district court’s dismissal of the claims under Rule 12(b)(6).
B. The State Law Claims
Plaintiffs claims that the PAE defendants and the Arlington County police officers
conspired to violate her civil rights and to falsely imprison her, in violation of Virginia
state law, fail for the same reasons. Under Virginia law, “[a] civil conspiracy is a
combination of two or more persons, by some concerted action, to accomplish some
criminal or unlawful purpose, or to accomplish some purpose, not itself criminal or
unlawful, by criminal or unlawful means.” Hechler Chevrolet, Inc. v. General Motors
Corp. 337 S.E.2d 744, 748 (Va. 1985).

aVI-30

USCA4 Appeal: 19-1394

Doc: 39

Filed: 09/15/2020

Pg: 31 of 31

Plaintiffs state law conspiracy claims rest upon the same conclusory and
speculative allegation that the PAE employees and the police officers conspired to violate
her civil rights and to falsely imprison her, regardless of how she acted or what she said to
the police. As explained above, Plaintiff does not allege that the Arlington County
defendants were a part of the alleged conspiracy to have Plaintiff involuntarily committed
because of her whistleblowing activities or PAE’s security failures, and the conclusory
allegations in the Complaint are insufficient to support a plausible inference that the
Arlington County police officers conspired with the PAE defendants to unlawfully seize
and detain her without probable cause, in violation of the Fourth Amendment, or to falsely
imprison her under state law.
V.

For the foregoing reasons, we affirm the district court’s order dismissing all of the
claims against the PAE defendants, as well as the state law conspiracy claims against the
Arlington County defendants. We also affirm the district court’s order granting summary
judgment to the Arlington County defendants. 8
AFFIRMED

8

In light of our conclusions, we need not address Plaintiffs appeal of the district
court’s dismissal of her claim for punitive damages.

aVI-31

Case 1:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 1 of 16 PagelD# 797

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VRIGNIA
Alexandria Division
KERRIN BARRETT,
Plaintiff,

)
)
)
)

) Civil Action No. l:18-cv-980 (AJT/TCB)

v.

PAE GOVERNMENT SERVICES,
etal.,
Defendants.

)
)
)
)
)
.)

ORDER
Pending before the Court are Defendants Galway’s, Hall’s, and Luzier’s Motion to
Dismiss Counts 6, 9, 12, 13, and 14 of the Second Amended Complaint and Plaintiff’s Request
for Punitive Damages [Doc. 41] and Defendants PAE Government Services, Inc., William
Lietzau, Sean Homer, and Shanedria Wilbom’s Motion to Dismiss Plaintiffs Second Amended
Complaint [Doc. 43] (collectively “the Motions”). The Court held a hearing on the Motions on
January 16, 2019, following which it took the Motions under advisement. Upon consideration of
the Motions, the memoranda in support thereof and in opposition thereto and the argument of
counsel at the hearing on January 16, 2019, the Motions are GRANTED; and this action will be
dismissed in its entirety against Defendants PAE Government Services, Inc., William Lietzau,
Sean Homer, and Shanedria Wilbom and dismissed against Defendants Brian Galway, Areyal
Hall and Joshua Luzier as to Counts 6, 9, 12, 13, and 14, together with her claim for punitive
damages.
I. BACKGROUND
Plaintiff alleges the following in her Second Amended Complaint [Doc. 38]:

APPENDIX B
aVI-32

Case 1:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 2 of 16 PagelD# 798

Plaintiff has a doctorate in Organizational Learning and Instructional Technology and an
Ed.M. in Technology in Education. She specializes in “the adaptation of technology in
development contexts” and has extensive experience as a government contractor and adviser to
foreign and international governments in integrating new technologies and on national security
matters.
Plaintiff worked for Defendant PAE Government Services, Inc. (“PAE”) from April 2012
to July 2013; at that time, her title was “Senior Monitoring and Evaluation Advisor (‘M&E’) for
the Justice Sector Support Program (‘JSSP’)—U.S. Department of State in Kabul, Afghanistan.”
The position involved monitoring and advising on technology use in Afghanistan’s justice
system. She again worked for PAE as a proposal writer from November to December 2015.
From 2014 to 2016, Plaintiff was living in Dubai and working as an “independent
consultant.” In June 2015, a Pakistani gang moved into her neighborhood and began stalking and
harassing women in the area. Plaintiff “took a stand against the stalking, along with some of her
other female neighbors, who were also experiencing this stalking.” When she did so, her name
was published in a local newspaper. Thereafter, PlaintifFs phone was hacked, and “[s]he was
then trailed as she traveled around the world, including into Oman and Thailand.” She returned
to the United States in 2016.
From March to April 2016, Plaintiff again did proposal writing as a contractor for PAE,
and then joined PAE as an employee in May 2016 as “Senior Monitoring and Evaluation
Advisor in the Corrections Sector Support Program (‘CSSP’), Afghanistan.” In that role, she
monitored program performance data for the Department of State and gathered prison statistics.
Plaintiff worked out of PAE’s Arlington, Virginia office. Defendant Lietzau was Plaintiffs
direct supervisor.

aVI-33

Case 1:18-CV-00980-AJT-TCB Document 72 Filed 01/25/19 Page 3 of 16 PagelD# 799

“During the course of her work [with PAE], Dr. Barrett discovered that PAE was
fraudulently overstating its performance under the CSSP contract by over counting the number
of Afghan individuals that it had mentored and/or trained under the contract.” In November or
December 2016, Plaintiff blew the whistle on PAE to Lietzau, and informed him again in July
2017, two weeks before the incident giving rise to Plaintiff’s suit. However, Lietzau, “[Rearing
that the fraud and its exposure would damage his professional reputation as head of the CSSP
contract,” did not act on this information from Plaintiff. Instead, Lietzau engaged in a conspiracy
with other PAE employees
to discredit Dr. Barrett through a plan that would claim (falsely) that she was a
danger and a threat to others, have the police come to PAE’s office to remove her
from the building and take her to a hospital, and once at the hospital, claim (again,
falsely) that she made a threat about ‘bombing Pakistan,’ which would ensure her
commitment to the psychiatric ward of the hospital, which would result in the
revocation of her security clearances, her termination from PAE, and the
elimination of a source of oversight over PAE’s reporting practices on the CSSP
contract.
This plot was made possible because Plaintiff had complained to Lietzau and others at
PAE of stalking of her that had continued after her return to the United States. According to
Plaintiff, “South Asian or Middle Eastern men, from countries such as Pakistan” had been
following her, driving or walking near her, making phone calls while watching her, following her
car in their cars, parking outside her house, harassing her by yelling “Hello!” or other
unintelligible words at her, vandalizing her car, and otherwise spying on her. In one instance, a
Middle Eastern man “came up to her while she was sitting at her desk and said, ‘Hello, [long
pause] Kerrin’ before leaving.” She made multiple reports of these incidents to the Fairfax
County Police Department. At one point, Lietzau had instructed Plaintiff to speak with
Defendant Homer, a Security Manager at PAE, about these incidents, and during their
conversation, Plaintiff had told Homer that she owned a gun (a registered firearm). Homer,

aVI-34

Case l:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 4 of 16 PagelD# 800

Lietzau, and Defendant Wilbom, PAE’s HR Manager, spoke with other co-workers of Plaintiff
who said they had no reason to discredit Plaintiff’s reports of stalking and did not feel she was a
threat to others.
Nevertheless, on July 10 or 11, 2017, Defendants Lietzau, Homer, and Wilbom “agreed
on a plan to use Dr. Barrett’s reports of being stalked at the office to discredit her in the manner
described earlier.” Thereafter, Homer contacted the Arlington County Police Department and
spoke with Defendants Hall and Luzier (both Arlington County Police Department officers)
about coming to PAE’s office to remove Plaintiff from the premises “on the pretense that she
was a threat and danger to others.” Someone from PAE also called the Arlington Department of
Human Services “to claim that Dr. Barrett was a threat and danger to others and to discuss
committing her to a psychiatric facility for a mental illness.” On July 12, 2017, Defendants Hall
and Luzier came to PAE’s office, met with Homer and possibly other PAE employees, and
“agreed to remove Dr. Barrett from the workplace, regardless of her answers to the police
officer’s questions, based on her ostensibly being a threat and danger to others.” They decided to
return to the office the next day to remove Plaintiff from the workplace and have her sent to a
hospital for a mental evaluation.
The next day, July 13, 2017, Wilbom approached Plaintiff in her office and asked her to
speak to the police, who were waiting in a conference room. Prior to meeting with Plaintiff, Hall
and Luzier had met with Defendants Lietzau, Homer, and Wilbom “for at least thirty minutes to
discuss the plan of removing Dr. Barrett from the workplace.” Believing this to be a meeting
about the stalking incidents she had reported, Plaintiff agreed to answer questions from the
officers. She then described the stalking incidents to them. After an initial round of questions,
Luzier again met with Wilbom, Homer, and Lietzau outside the room to discuss the plan of

aVI-35

Case l:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 5 of 16 PagelD# 801

removing Plaintiff from the office and sending her to a mental health facility, irrespective of her
conversations with the police that day. Eventually, Wilbom and Officer Luzier returned to the
conference room and resumed their questioning of Plaintiff. At one point, the officers questioned
Plaintiff about her gun and, after receiving her answer, Luzier left the room again to discuss the
plan to remove her with Lietzau, Homer, and Wilbom. They did this again several more times
during the course of their questioning of Plaintiff. At no point during this questioning did
Plaintiff state or suggest that she planned or would ever harm herself or others or use her gun.
Finally, Officer Luzier, who had been “hostile” throughout his questioning of Plaintiff,
“abruptly stood and said that he was going to take Dr. Barrett to ‘talk to the DHS folks who
know more about this ‘surveillance thing’ than I do.”’ Plaintiff assumed that Luzier meant the
U.S. Department of Homeland Security, but he evidently mean the Virginia Department of
Human Services. Plaintiff, frightened and confused, responded that she was “not going
anywhere.” Officer Luzier responded, “Then I’m making an ECO.” This was an Emergency
Custody Order, which allows an officer to involuntarily detain a person and send them for a
mental health evaluation. He then instructed her to come with them. Plaintiff complied with the
officers and was taken from the office to the Emergency Room as Virginia Hospital Center.
While Plaintiff was at the hospital, Defendant Galway, who performs mental health
assessments for the Virginia Department of Human Services, came to see Plaintiff. Galway
asked Plaintiff a series of questions, which Plaintiff answered cooperatively. The questioning
focused heavily on Plaintiffs gun. After extensive questioning, Galway asked Plaintiff who she
would most trust and whose opinion she would value most among her co-workers. She gave him
Lietzau’s name. Galway then called Lietzau to ask him about Plaintiff. According to Plaintiff,
“Mr. Lietzau should have told Mr. Galway the truth; that he did not believe that Dr. Barrett was

aVI-36

Case 1:18-CV-00980-AJT-TCB Document 72 Filed 01/25/19 Page 6 of 16 PagelD# 802

capable of hurting others, and that Dr. Barrett’s account of being stalked was credible given what
he knows of the intimidation phenomena involved here and in other similar circumstances.” But
he did not.
When Galway returned to the room, he stated that the person with whom he spoke at
PAE (presumably Lietzau) told him that Plaintiff said that the United States “should bomb
Pakistan.” Plaintiff had never stated anything like that. He repeatedly attempted to convince
Plaintiff to voluntarily sign herself in to the psychiatric ward at the hospital, but she refused.
Although two of Plaintiff s friends corroborated Plaintiffs account of the stalking and passed
this information on to Galway, he refused to change his mind and instead sought a Temporary
Detention Order pursuant to Virginia law to involuntarily commit Plaintiff to the psychiatric
ward. He filed a sworn petition on behalf of himself and the Virginia state agencies for whom he
worked in the Virginia General District Court in support of the Temporary Detention Order,
stating therein that he believed “there existed a substantial likelihood that in the near future, Dr.
Barrett would cause serious physical injury both to herself and to others, and that she would
suffer serious harm due to what he claimed was her lack of capacity to protect herself from harm
or to provide for her own basic human needs.” He did not, however, check the box indicating
that she had a mental illness. A General District Court Magistrate signed and issued the Order on
July 13, 2017, despite the fact that Galway had not yet submitted a required preadmission
screening report but had falsely represented that he had in the petition (he completed and
submitted the report later that day). Plaintiff was then committed to the psychiatric ward
temporarily until her commitment hearing.
On July 17, 2017, a Magistrate held a commitment hearing to assess whether she would
be committed indefinitely or released. After speaking with two assessors who met with Plaintiff,

aVI-37

Case 1:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 7 of 16 PagelD# 803

her co-workers, and her friends, the Magistrate determined that she was not a danger to herself or
others, dismissed the case, and “told Mr. Lietzau to ‘provide for her [Dr. Barrett’s] security.’”
The Magistrate further stated that the Virginia mental health system, in particular the process of
involuntarily committing people to psychiatric hospitalization, is “broken and in serious need of
significant reform,” as evidenced by Dr. Barrett’s case.
After her release, Plaintiff resigned from PAE. She lost her clearance due to the incident.
The Temporary Detention Order and Emergency Custody order are on her record and cannot be
expunged. This will impact her ability to get a clearance or hold sensitive jobs in the future. She
is also responsible for various medical costs billed to her, despite her not having a choice to
receive the treatment.
II. LEGAL STANDARD
A Rule 12(b)(6) motion tests the legal sufficiency of the complaint and does not resolve
contests surrounding the facts or merits of a claim. See Giarratano v. Johnson, 521 F.3d 298,
302 (4th Cir. 2008). In assessing a 12(b)(6) motion, the Court must “assume the truth of all facts
alleged in the complaint and the existence of any fact that can be proved, consistent with the
complaint’s allegations.” is. ShoreMkts., Inc. v. J.D. Assocs. Ltd. P’ship, 213 F.3d 175, 180 (4th
Cir. 2000). Fed. R. Civ. P. 8(a)(2) requires “only a short and plain statement of the claim
showing that the pleader is entitled to relief’; however, to survive a Rule 12(b)(6) motion, “a
complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant is liable
for the misconduct alleged.” Id.

aVI-38

Case l:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 8 of 16 PagelD# 804

III. ANALYSIS
A. Defendants Galway’s, Hall’s, and Luzier’s Motion to Dismiss Counts 6, 9,12,13, and 14
of the Second Amended Complaint and Plaintiffs Request for Punitive Damages [Doc. 41]
1. Counts 6. 9. 12. and 14 (§ 1983 Conspiracy and Civil Conspiracy-)
Plaintiff has alleged both a statutory conspiracy under Section 1983 and a common law
conspiracy under Virginia law. “To establish a conspiracy claim under § 1983, a plaintiff must
present evidence that the defendants acted jointly in concert and that some overt act was done in
furtherance of the conspiracy which resulted in the deprivation of a constitutional right.” Penley
v. McDowell Cty. Bd. ofEduc., 876 F.3d 646, 658 (4th Cir. 2017) (alterations omitted) (quoting
Massey v. Ojaniit, 759 F.3d 343, 357-58 (4th Cir. 2014)). This burden is “weighty.” Id. (internal
quotation marks omitted) (quoting Hinkle v. City of Clarksburg, 81 F.3d 416, 421 (4th Cir.
1996)). “While they need not produce direct evidence of a meeting of the minds, [plaintiffs] must
come forward with specific circumstantial evidence that each member of the alleged conspiracy
shared the same conspiratorial objective.” Hinkle, 81 F.3d at 421. The evidence “must, at least,
reasonably lead to the inference that [the defendants] positively or tacitly came to a mutual
understanding to try to accomplish a common and unlawful plan.” Id. “[R]ank speculation and
conjecture” are not enough. See id. at 422.
To establish a civil conspiracy claim in Virginia, a plaintiff must show “an unlawful
combination of two or more persons to do that which is contrary to law, or to do that which is
wrongful and harmful towards another person.” Werth v. Fire Companies’ Adjustment Bureau,
171 S.E. 255, 258 (Va. 1933).
Here, Plaintiff has failed to allege the requisite “unlawful combination of two or more
persons” as to Defendants Hall and Luzier because she has failed to allege facts that make
plausible the existence of any agreement by them with the other Defendants in the case. The

aVI-39

Case 1:18-CV-00980-AJT-TCB Document 72 Filed 01/25/19 Page 9 of 16 PagelD# 805

Second Amended Complaint does not allege that Defendants Hall or Luzier (the law
enforcement officers who removed her from the workplace and detained her) knew that she was
not a danger to others or that her employers and colleagues at PAE were covering up their own
misconduct or reporting false information about Plaintiff to Hall and Luzier. Nor does it allege
any motive that Hall and Luzier might have to engage with those PAE employees in such a
concerted effort to cover up the latter’s criminal conduct.
In support of her conspiracy claims, Plaintiff relies heavily on her allegations in
Paragraph 91, which states:
On or around July 12, 2017, at Mr. Homer’s request, Officer Hall and Officer
Luzier visited PAE’s headquarters and met with Mr. Homer and possibly others at
PAE. At that meeting, the officers agreed to remove Dr. Barrett from the workplace,
regardless of her answers to the police officer’s questions, based on her ostensibly
being a threat and danger to others.
[Doc. 38 at 21], Plaintiff also points to her allegation, repeated several times, that Officer Luzier
stepped out of the room during his meeting with Plaintiff at her workplace several times to talk
with Lietzau and reiterate their plan to remove her and send her for a mental health evaluation,
“regardless of her answers to the police officer’s questions,” based on her ostensibly being a
threat and danger to others. See, e.g.,id. at ^ 98, 109, 114, 261. But fatally missing from these
allegations, and the rest of the Second Amended Complaint, is that the officers knew that she was
not in fact a danger to others but nevertheless agreed to remove Plaintiff from the workplace and
detain her. Even liberally read, Plaintiff simply alleges that the officers, called to the scene,
decided to remove her after their discussions with Plaintiff’s employers and without regard to
what she might say to them during their discussion, not that they knew she was not a danger yet
still agreed to detain her. These allegations are therefore insufficient to make plausible Plaintiff s
claim of a conspiracy under § 1983 to unlawfully deprive her of her civil rights. At most,

aVI-40

Case 1:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 10 of 16 PagelD# 806

Plaintiff has alleged that Defendants Luzier and Hall detained her based upon inaccurate or false
information that Plaintiff was a danger to herself or others. Plaintiff has therefore failed to allege
as to Defendants Hall and Luzier facts sufficient to make plausible a claim for either civil
conspiracy (which requires an agreement to commit a tort) or a § 1983 conspiracy (which
requires an agreement to unlawfully deprive a person of their civil rights).
Similarly, Plaintiff has failed to allege facts that make plausible the claim that Defendant
Galway (the mental health examiner at the mental institution) engaged in any agreement to
deprive Plaintiff of her civil rights or to commit the tort of false imprisonment against her.
Indeed, the Second Amended Complaint fails to allege circumstances that even allowed for the
opportunity for Galway to conspire with PAE or any other Defendant before any involuntary
detention and effectively alleges that Lietzau withheld from Galway the truth about the Plaintiff
when the two spoke over the phone after Plaintiffs involuntary detention. See [Doc. 38 at

176]

(“Mr. Lietzau should have told Mr. Galway the truth; that he did not believe that [Plaintiff] was
capable of hurting others, and that [Plaintiffs account] of being stalked was credible given what
he knows of the intimidation phenomena involved here and in other similar kinds of
circumstances.”). Accordingly, Plaintiff has failed to state a plausible § 1983 or civil conspiracy
claim as to Defendant Galway.
2. Count 13 (False Imprisonment)
Count 13 alleges false imprisonment against Defendant Galway. In Virginia, false
imprisonment is “the direct restraint by one person of the physical liberty of another without
adequate legal justification.” W.T. Grant Co. v. Owens, 141 S.E. 860, 865 (Va. 1928). In order to
state a claim for false imprisonment, a plaintiff must allege that the process leading to the arrest
was unlawful. Cole v. Eckerd Corp., 54 Va. Cir. 269, 2000 WL 33595085, at *2 (Va. Cir. Ct.

aVI-41

Case l:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 11 of 16 PagelD# 807

2000); Montanile v. Botticelli, 2008 WL 5101775, at *4 (E.D. Va. Nov. 25, 2008). A defendant
need not directly restrain or “personally arrest” a plaintiff if the defendant requested that others
do so. Montanile, 2008 WL 5101775 at *4. A plaintiff must affirmatively “allege that the arrest
was made without a lawful warrant or other form of lawful process - that is, a warrant regular
and legal in form or regular on its face.” Id. at *5 (citations omitted). A warrant that is “regular
on its face-

:ven one procured without probable cause—does not create a cause of action for

false imprisonment.” Id. at *4 (emphasis added) (citing Cole v. Eckerd Corp., 54 Va. Cir. 269,
WL 33595085 at *2 (Va. Cir. Ct. 2000)). That an officer could have investigated further does not
invalidate an arrest pursuant to a facially valid warrant. Lewis v. Kei, 708 S.E.2d 884, 890 (Va.
2011).
Here, Defendant Galway, acting pursuant to Virginia law, submitted a petition to the
General District Court in support of a Temporary Detention Order, and the Magistrate
subsequently issued that Order. See [Doc. 38 at f 194]. Plaintiff did not attach a copy of the
Temporary Detention Order as an exhibit and does not challenge its facial validity. Thus, even if
the Temporary Detention Order was issued absent probable cause, its issuance and apparent
facial validity preclude a claim for false imprisonment. Moreover, Plaintiffs contention that the
Temporary Detention Order does not protect Defendant Galway from a false imprisonment claim
because he authored the allegedly false petition that gave rise to the Magistrate’s finding of cause
to detain Plaintiff ignores that under Virginia law a false imprisonment claim cannot be stated
where the “process leading to the arrest” was lawful. As alleged, Galway, upon receiving
Plaintiff into custody, sought and obtained a Temporary Detention Order pursuant to Virginia
law and thereafter proceeded to detain Plaintiff pursuant to the Order. See King v. Darden, 2018
WL 3651590, at *2, 4—5 (E.D. Va. Aug. 1, 2018) (dismissing a false imprisonment claim against

aVI-42

Case l:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 12 of 16 PagelD# 808

a Virginia State Police officer who conducted a cursory investigation of alleged election fraud
and swore out an arrest warrant on “scant facts,” because the Magistrate thereafter issued a
warrant on the basis of that investigation and the plaintiff was arrested pursuant to that warrant).
3. Punitive Damages
Under Virginia law, “[a] claim for punitive damages at common law in a personal injury
action must be supported by factual allegations sufficient to establish that the defendant’s
conduct was willful or wanton.” Woods v. Mendez, 265 Va. 68, 76 (2003). In § 1983 actions,
punitive damages may be awarded only “when the defendant’s conduct is shown to be motivated
by evil motive or intent, or when it involves reckless or callous indifference to the federally
protected rights of others.” Smith v. Wade, 461 U.S. 30, 56 (1983). Here, Plaintiff does not allege
any facts that make plausible that Defendants Hall, Luzier or Galway engaged in willful, wanton,
or reckless conduct or any callous indifference to Plaintiffs federally protected rights.
Accordingly, Plaintiffs request for punitive damages will be dismissed.
B. Defendants PAE Government Services, Inc., William Lietzau, Sean Horner, and
Shanedria Wilborn’s Motion to Dismiss Plaintiffs Second Amended Complaint [Doc. 43]
Defendant PAE and its employees named as Defendants (Lietzau, Homer, and Wilbom)
(collectively, “the PAE Defendants”) move for dismissal of all claims against them on the
following grounds:
•

Plaintiffs claims under 42 U.S.C. § 1983 against Defendants Lietzau, Homer, and
Wilbom (Counts 3, 4, 5 and 11) should be dismissed with prejudice because these
Defendants are private actors and because Plaintiff has failed to allege sufficient facts to
plausibly show that they engaged in joint action with any state actor or to allege any other
basis for holding them liable.

•

Plaintiffs claims of conspiracy under 42 U.S.C. § 1983 against Defendants Lietzau,
Homer, and Wilbom (Counts 6 and 12) should be dismissed with prejudice because
Plaintiff has failed to allege sufficient facts to plausibly show that they engaged in
concerted action pursuant to a mutual agreement, understanding or common plan or
objective. Plaintiffs claims of conspiracy under 42 U.S.C. § 1983 against Defendants

aVI-43

Case l:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 13 of 16 Page ID# 809

Lietzau, Homer, and Wilbom (Counts 6) should also be dismissed with prejudice because
these Defendants were employees of PAE acting within the scope of their employment
and could not conspire with one another as a matter of law.
•

Plaintiffs claims of conspiracy to falsely imprison her against Defendants PAE, Lietzau,
Homer, and Wilbom (Count 9) should be dismissed with prejudice because PAE and/or
its employees cannot conspire with one another as a matter of law and because Plaintiff
has failed to allege sufficient facts to plausibly show that they engaged in concerted
action pursuant to a mutual agreement, understanding or common plan or objective.

•

Plaintiffs claims of conspiracy to falsely imprison her against Defendants PAE and
Lietzau (Count 14) should be dismissed with prejudice because PAE and its employees
cannot conspire with one another as a matter of law, because Plaintiff has failed to allege
sufficient facts to plausibly show that they engaged in concerted action and because the
TDO pursuant to which Plaintiff is alleged to have been falsely imprisoned was facially
valid.
1. Counts 3. 4. 5. and 11 (§ 1983 claims)
“Like the state-action requirement of the Fourteenth Amendment, the under-color-of-

state-law element of § 1983 excludes from its reach “merely private conduct, no matter how
discriminatory or wrongful.” Adickes v. S.H. Kress & Co., 398 U.S. 144, 150 (1970) (internal
quotation marks omitted) (quoting American Mfgrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 50
(1999)). Nevertheless, a non-state actor can be held liable in a § 1983 claim when the actor was a
“willful participant in joint activity with the State or its agents.” Brentwood Acad. v. Tennessee
Secondary School Ass ’n, 531 U.S. 288, 296 (2001). However, “[f]or a private party to be held
liable under § 1983, the plaintiff must allege that the private party engaged in a conspiracy with
state actors to deprive him of his constitutional rights. Manship v. Trodden, 2007 WL 3143559,
at *3 (E.D. Va. Oct. 22, 2007), aff’d, 273 F. App’x 247 (4th Cir. 2008) (citing Dennis v. Sparks,
449 U.S. 24 (1980)). And “[t]o state a conspiracy, the complaint must include allegations of fact
indicating that there was a combination, agreement, or understanding among all or between any
of the defendants, and that the private actor was a willful participant in joint action with the state

aVI-44

Case 1:18-CV-00980-AJT-TCB Document 72 Filed 01/25/19 Page 14 of 16 PagelD# 810

or its agents.” Id. (citations and quotations omitted) (quoting Ammlung v. City of Chester, 494
F.2d 811, 814 (3d Cir. 1974); Dennis, 449 U.S. at 27-28).
Here, Plaintiff alleges in multiple counts that the PAE Defendants “acted jointly with” the
police in the issuance of the Emergency Custody Order. See, e.g., [Doc. 38 at ^ 260, 267, 274],
However, as discussed above, Plaintiff has failed to allege facts that make plausible any
conspiratorial agreement between any of the PAE Defendants and the governmental Defendants
or Defendant Galway (the mental health evaluator), because she does not allege that the
governmental Defendants or Galway had any knowledge of the PAE Defendants’ alleged
conspiracy to have Plaintiff involuntarily committed in order to cover up their alleged criminal
activity. The Plaintiff has therefore failed to adequately allege the “joint action” necessary to
have the PAE Defendants deemed state actors for purposes of a § 1983 claim.. Accordingly, for
the same reasons that Plaintiff has failed to state a claim for either civil conspiracy or § 1983
conspiracy against the governmental Defendants, she has also failed to state a § 1983 claim
against the PAE Defendants, who cannot be “state actors” without having formed some mutual
agreement with state actors to deprive Plaintiff of her constitutional rights. Counts 3, 4, 5, and 11
will therefore be dismissed.
2. Counts 6 and 12 (§ 1983 conspiracy claims)
Similarly, Counts 6 and 12, which raise § 1983 conspiracy claims against the PAE
Defendants, fail to state a claim for the same reasons as those discussed above. “To state a claim
against a private entity on a section 1983 conspiracy theory, the complaint must allege facts
demonstrating that the private entity acted in concert with the state actor to commit an
unconstitutional act.” Spear v. Town ofW. Hartford, 954 F.2d 63, 68 (2d Cir. 1992).
Accordingly, for the same reasons that Plaintiff has failed to state a claim for either civil

aVI-45

Case 1:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 15 of 16 PagelD# 811

conspiracy or § 1983 conspiracy against the governmental Defendants, she has also failed to
state a § 1983 conspiracy claim against the PAE Defendants, who cannot be “state actors”
without having formed some mutual agreement with state actors to deprive Plaintiff of her
constitutional rights. Counts 6 and 12 will therefore be dismissed.
3. Counts 9 and 14 (respectively, conspiracy to falsely imprison against PAE. Lietzau.
Homer, and Wilbom: and conspiracy to falsely imprison against Lietzau and PAE!
Counts 9 and 14 allege against the PAE Defendants a civil conspiracy to falsely imprison
the Plaintiff. Specifically, Count 9 alleges a conspiracy between PAE, Lietzau, Homer, and
Wilbom for their actions in having Plaintiff removed from the workplace, and Count 14 alleges a
conspiracy between PAE, Lietzau, and Galway for their actions in obtaining the Temporary
Detention Order after the police took her into custody.
Under Virginia law, “the elements of a common law civil conspiracy claim are (i) an
agreement between two or more persons (ii) to accomplish an unlawful purpose or to accomplish
a lawful purpose by unlawful means, which (iii) results in damage to plaintiff.” Glass v. Glass,
228 Va. 39, 47, 321 S.E.2d 69 (1984). Moreover, “in Virginia, a common law claim of civil
conspiracy generally requires proof that the underlying tort was committed.” Almy v. Grisham,
639 S.E.2d 182, 189 (Va. 2007). This is because “[t]he gist of the civil action of conspiracy is the
damage caused by the acts committed in pursuance of the formed conspiracy and not the mere
combination of two or more persons to accomplish an unlawful purpose or use unlawful means.”
Id. at 190. Hence, where “there is no actionable claim for the underlying alleged wrong, there
can be no action for civil conspiracy based on that wrong.” Citizens for Fauquier County v. SPR
Corp., 37 Va. Cir. 44, 50 (1995). As discussed above, Plaintiff has failed to state a claim for false
imprisonment and therefore has failed to adequately allege the required predicate for a civil
conspiracy claim to falsely imprison under Virginia law.

aVI-46

Case l:18-cv-00980-AJT-TCB Document 72 Filed 01/25/19 Page 16 of 16 PagelD# 812

IV. CONCLUSION
For the above reasons, it is hereby
ORDERED that Defendants Galway’s, Hall’s, and Luzier’s Motion to Dismiss Counts 6,
9,12, 13, and 14 of the Second Amended Complaint and Plaintiffs Request for Punitive
Damages [Doc. 41] be, and the same hereby is GRANTED; and Counts 6,9, 12, 13 and 14 and
Plaintiff’s claim for punitive damages are DISMISSED against Defendants Galway, Hall, and
Luzier; and it is further
ORDERED that Defendants PAE Government Services, Inc., William Lietzau, Sean
Homer, and Shanedria Wilbom’s Motion to Dismiss Plaintiffs Second Amended Complaint
[Doc. 43] be, and the same hereby is, GRANTED; and this action is DISMISSED as to
Defendants PAE Government Services, Inc., William Lietzau, Sean Homer, and Shanedria
Wilbom.
The Clerk is directed to forward copies of this Order to all counsel of record.

M

Anthony J. Trims a
United State»0i«fj)ct Judge
January 25,2019
Alexandria, Virginia

16
aVI-47

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 1 of 22 PagelD# 1532

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VRIGN1A
Alexandria Division
KERRIN BARRETT,
Plaintiff,

)
)
)
)

) Civil Action No. 1:18-cv-980 (AJT/TCB)

v.
PAE GOVERNMENT SERVICES,
et al.,
Defendants.

)
)
)
)
)
)

ORDER
In this action brought pursuant to 42 U.S.C. § 1983 and under Virginia tort law, Plaintiff
Kerrin Barrett alleges that Defendants Areyal Hall and Joshua Luzier, the police officers who
issued an Emergency Custody Order (“ECO”) and took her into custody to receive a mental
health evaluation pursuant to Virginia’s mental health law, Va. Code Ann. § 37.2-809, and
Defendant Brian Galway, an Arlington County employee who filed a Petition for Involuntary
Admission for Treatment to and obtained a temporary detention order (“TDO”) from a Virginia
magistrate pursuant to the same statute, violated her constitutional rights by detaining her
without authority of law and falsely imprisoned her. Defendants Galway, Hall, and Luzier have
filed a Motion for Summary Judgment (the “Motion”) pursuant to Federal Rule of Civil
Procedure 56. See [Doc. 79]. The Court held a hearing on the Motion on April 5, 2019, after
which it took the Motion under advisement.
For the reasons stated herein, there are no genuine issues of material fact and Defendants
are entitled judgment as a matter of law as to their qualified immunity defense and otherwise.
The Motion is therefore GRANTED.

aVI-48

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 2 of 22 PagelD# 1533

I. BACKGROUND
A. Factual Background
Unless otherwise noted, the facts set forth in this section are undisputed.
During the relevant time period, Plaintiff worked for PAE Government Services, Inc.
(“PAE”) as “Senior Monitoring and Evaluation Advisor in the Corrections Sector Support
Program fCSSP’), Afghanistan.” [Doc. 38 at H 38]. In that role, she monitored program
performance data for the Department of State and gathered prison statistics, Plaintiff worked out
of PAE’s Arlington, Virginia office. Id. at

38, 41. Defendant William Lietzau was Plaintiff s

direct supervisor. Id. at 42.
On July 10,2017, Plaintiff approached Sean Homer, PAE’s Security Manager, to express
concerns that a network of “Bangladeshi/Southeast Asian” men had been stalking and surveilling
her for the past two years both while she lived and traveled abroad and after she returned to the
United States. [Doc. 80 at 2]. She reported that the stalking had begun in 2015 while she was
living in Dubai. Id. She further stated that the stalking continued and in fact escalated after she
returned to the United States in 2016. Id. Mr. Homer kept notes of the meeting, which arc
included in the record on summary judgment. See [Doc. 80-2].
Plaintiff explained to Mr. Homer that she believed that the stalkers were tracking her
location through her phone and that her emails had been hacked. [Doc. 80 at 2]. She reported
that these individuals had knocked on her door in the middle of the night and whistled at her
dogs to agitate them. Id. at 2-3. She said that in early July 2017, she was walking through a
courtyard outside of PAE’s office when she saw a “Bangladeshi man” watching her while using
his cell phone. Id. at 3. Believing him to be one of the stalkers, she followed him as he entered a
commercial building in which the Federal Deposit Insurance Corporation had offices (“the FDIC

2
aVI-49

Case 1:18-CV-00980-AJT-TCB Document 86 Filed 04/09/19 Page 3 of 22 PagelD# 1534

building”). Id. The parties dispute whether she told Mr. Homer that she followed him to the
11 th floor of the building to learn that he worked there or simply learned that he went to the 11th
floor by remaining in the lobby and watching the floor indicator on the elevator, but in any event,
she learned that he went to the 11th floor. See, e.g., id at 3. Based on this, she told Mr. Homer
that she believed that the 11th floor of the FDIC building was the central headquarters of these
stalkers (the parties dispute whether she used the word “hive” to describe this center of
operations). Id.
As a follow up to this discussion, Mr. Homer sent Plaintiff an email asking her to
memorialize her concerns in a written report. [Doc. 80-4 at 1]. Plaintiff agreed to do so at first,
but then changed her mind because she believed that Mr. Homer’s description of her account as
“possible stalking” evinced disbelief on his part and that there was therefore no reason to pursue
the matter any further with him. See id. at 2,4. She stated that she believed that there is
absolutely nothing that can be done about my situation legally,” and that, based upon her belief
that she had discovered the stalker’s central location on the 11th floor of the FDIC building, had
become “fully aware of the complexity and severity of the war we are fighting, because I live it
every day.” Id. at 8.
Thereafter, Mr. Homer contacted Shanedria Wilbom (also known as “Shae” Wilbom),
PAE’s human resources manager, about his discussions with Plaintiff. [Doc. 80-1 at 12]. Ms.
Wilbom approached Plaintiff at her desk on July 11,2017 and asked if she could speak with her
about her concerns. [Doc. 80-6 at 6], Plaintiff agreed to do so. Id. She repeated essentially the
same narrative to Ms. Wilbom as she had told Mr. Homer but included additional details. See id.
at 7-12. For example, she told Ms. Wilbom that a Middle Eastern man had approached her at
her desk at PAE and said, “Hello, [long pause] Kerrin” before leaving. Id. at 13, [Docs. 80-5 at

3
aVI-50

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 4 of 22 PagelD# 1535

2,38 at ^ 61]. Additionally, she told Ms. Wilbom that she owned a Glock pistol. [Doc. 80-5 at
2]After speaking with Plaintiff, Ms. Wilbom spoke again with Mr. Homer and other PAE
employees, including its legal counsel. [Doc. 83 at 14]. Subsequently, on July 12,2017, Mr.
Homer called the Arlington County Police Department concerning Plaintiff. [Doc. 83-2 at 711 ]. Pursuant to Mr. Homer’s call, Defendants Hall and Luzier (collectively, “the Officers”)
were dispatched and arrived at PAE’s office to discuss the matter. [Doc. 83 at 14-15]. Mr.
Homer relayed Plaintiff’s account and his and Ms. Wilbom’s concerns to the Officers. See, e.g.,
id at 15. The Officers suggested that Mr. Homer should contact the Arlington County
Department of Human Services (“the Arlington DHS”) for assistance with the matter and,
because Plaintiff was not at work that day, should also call the Officers again when she was
present at work so they could speak with her. Id. at 16. That same day, Mr. Homer contacted
the Arlington DHS and spoke with Alexis Mapes, the agency’s Emergency Services Supervisor,
about Plaintiff. [Doc. 80 at 7]. Ms. Mapes then sent an email to her staff about the situation
which summarized Plaintiffs concerns about stalking, suggested that Plaintiff was paranoid, and
relayed concerns about Plaintiff having a gun. Id.
The next day, July 13,2017, Mr. Homer called the Officers again after confirming that
Plaintiff was present at work for a meeting. Id at 8. The Officers returned to PAE to speak with
Plaintiff. Id. Before doing so, they spoke with Ms. Wilbom. [Doc. 83 at 17], Ms. Wilbom told
them that Plaintiff reported that she was being followed by black SUVs, had seen a man in the
courtyard near PAE looking at her while talking on a cell phone, and had learned that he went to
the 11th floor of the FDIC building after following him into the entrance of the building and
observing where the elevator went. Id. She further told the Officers that Plaintiff owned a gun

4
aVI-51

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 5 of 22 PagelD# 1536

and stated that she hoped she would be willing to defend herself when the time came. Id. at 1718. She also told the Officers that Plaintiff had stated that her stalking would have been handled
differently had she been stalked overseas. Id. at 18.
After speaking with Ms. Wilbom, the Officers interviewed Plaintiff in a conference room
about her concerns and asked her extensive questions about her account and her gun ownership.
See, e.g., id. at 18-20. During the interview, Plaintiff repeated that she believed that she was
under constant surveillance and was being followed by multiple men in black SUVs, and
reported that, on the advice of a colleague, she had taken steps to become a “hard target” in order
to deter the stalking activity. Id. at 19-20. At the end of the interview, the Officers issued the
ECO pursuant to Va. Code § 37.2-808(G), took Plaintiff into custody, and transported her to
Virginia Hospital Center. Id. at 20. During this time, Ms. Wilbom memorialized her
conversation with Plaintiff in a written report she gave to the Officers. See [Doc. 80-5].
After she arrived at the hospital, Plaintiff was interviewed by Defendant Galway, a
designee of the Arlington County Community Services Board (“ACCSB”) pursuant to Va. Code
§ 37.2-808(A), which is responsible for handling civil commitment proceedings on behalf of the
County. [Doc. 80 at 9]. Prior to the interview, Defendant Galway reviewed the email from Ms.
Mapes, his supervisor, and Ms. Wilbom’s statement to the Officers and spoke with Ms. Wilbom
and Dr. Peter Liu, the emergency room physician who initially saw Plaintiff upon her arrival. Id.
at 10. During his interview with Plaintiff, he questioned her about her discussions with Ms.
Wilbom and her ownership of a gun. See, e.g., id. at 10-11. She was unwilling to voluntarily
sign herself into the hospital to begin mental health treatment but did state that she was willing to
see a psychologist voluntarily. Id. at 11. During his interview with Plaintiff, he also left the
room to speak by phone with Defendant Lietzau, Plaintiff’s supervisor at PAE, who opined that

5
aVI-52

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 6 of 22 PagelD# 1537

he did not believe Plaintiff was likely to hurt anyone. [Doc. 83 at 21]. After speaking with
Plaintiff, Defendant Galway spoke with Ms. Mapes and other coworkers in a team meeting.
[Doc. 80-15 at 34-35]. Thereafter, and based on the “general consensus” by him, Ms. Mapes,
and all of the other team members present at the meeting that Plaintiff should be involuntarily
committed, Defendant Galway decided to file a Petition for Involuntary Admission for
Treatment with a Virginia magistrate. [Doc. 80-15 at 42-43]. After reviewing the petition, the
magistrate found probable cause to issue a TDO and did so pursuant to Va. § 37.2-809. [Doc.
80-18].
Thereafter, Plaintiff was admitted into the hospital and assessed by a psychiatrist and two
Arlington County mental health assessors, who agreed that Plaintiff should not be released prior
to her civil commitment hearing. [Doc. 80 at 12-13]. The civil commitment hearing was held
on July 17,2017, and the Virginia special justice presiding over the hearing dismissed the case
and ordered Plaintiff released. Id. at 13.
B. Procedural History
Plaintiff filed this action on August 8, 2018. [Doc. 1]. She named PAE, Mr. Lietzau, Mr.
Homer, and Ms. Wilbom as Defendants in addition to the Officers and Mr. Galway. With
Defendants’ consent and the Court’s permission, she filed a Second Amended Complaint on
October 31,2018. [Doc. 38]. Defendants moved to partially dismiss the Second Amended
Complaint, and on January 25,2019, the Court granted those motions, dismissing the entirety of
the Second Amended Complaint as against Defendants PAE, Lietzau, Homer and Wilbom.
[Docs. 41,43, 72]. The Court also dismissed Counts 6, 9, 12, 13 and 14 and the claims for
punitive damages against the Officers and Defendant Galway. [Doc. 72]. Defendants did not

6
aVI-53

Case 1:18-CV-00980-AJT-TCB Document 86 Filed 04/09/19 Page 7 of 22 PagelD# 1538

move to dismiss the still-pending counts but have now moved for judgment in their favor as to
those counts on summary judgment. [Doc. 79].
Five Counts remain: (1) a § 1983 claim against Defendant Hall for unlawful seizure
(Count 1); (2) a § 1983 claim against Defendant Luzier for unlawful seizure (Count 2); (3) a
claim under Virginia law against Defendant Hall for false imprisonment (Count 7); (4) a claim
under Virginia law against Defendant Luzier for false imprisonment (Count 8); and (5) a § 1983
claim against Defendant Galway for unlawful seizure (Count 10). [Doc. 80 at 2].
II. LEGAL STANDARD
Summary judgment is appropriate only if the record shows that “there is no genuine issue
as to any material fact and that the moving party is entitled to a judgment as a matter of law.”
Fed. R. Civ. P. 56(c); see also Anderson v. Liberty Lobby, Inc., All U.S. 242, 247 (1986); Evans
v. Techs. Apps. & Serv. Co., 80 F.3d 954, 958 (4th Cir. 1996). The party seeking summary
judgment has the initial burden to show the absence of a genuine issue of material fact. Celotex
Corp. v. Catrett, All U.S. 317, 325 (1986). A genuine issue of material fact exists “if the
evidence is such that a reasonable jury could return a verdict for the nonmoving party.”
Anderson, All U.S. at 248. Once a motion for summary judgment is properly made and
supported, the opposing party has the burden of showing that a genuine dispute exists.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586-87 (1986). To defeat a
properly supported motion for summary judgment, the non-moving party “must set forth specific
facts showing that there is a genuine issue for trial.” Anderson, All U.S. at 247-48 (“[T]he mere
existence of some alleged factual dispute between the parties will not defeat an otherwise
properly supported motion for summary judgment; the requirement is that there be no genuine
issue of material fact.”). Whether a fact is considered “material” is determined by the

7
aVI-54

Case 1:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 8 of 22 PagelD# 1539

substantive law, and “[o]nly disputes over facts that might affect the outcome of the suit under
the governing law will properly preclude the entry of summary judgment.” Id. at 248. The facts
shall be viewed, and all reasonable inferences drawn, in the light most favorable to the non­
moving party. Id. at 255; see also Letlieri v. Equant Inc., 478 F.3d 640, 642 (4th Cir. 2007).
III. ANALYSIS
Defendants initially seek dismissal against Officer Luzier as a matter of law on Counts 2
and 8 on the ground that Plaintiff has failed to produce sufficient evidence of his participation in
the issuance of the ECO and taking Plaintiff into custody, as he was simply a backup officer to
Officer Hall. [Doc. 80 at 14]. However, Ms. Wilbom testified that Defendant Luzier
participated in the Officers’ questioning of Plaintiff, and Plaintiff testified that Defendant Luzier
was heavily involved in questioning her and was the one who told her that she was going with
the police. See [Docs. 83-3 at 51,83-5 at 19]. He also made phone calls to his supervisor in an
attempt to obtain records of Plaintiffs prior encounters with the Fairfax County Police and to the
Arlington DHS to investigate Plaintiff’s history of encounters, if any, with that agency, which
further involved him in the decisionmaking process. [Doc. 83-9 at 37-38, 39-40]. Based on the
present record, there is a genuine dispute of fact concerning whether Defendant Luzier was
merely a backup officer who assumed a passive role in the decisionmaking process leading to the
ECO and Plaintiffs resulting detention. Accordingly, after viewing the evidence in the light
most favorable to Plaintiff, summary judgment on Plaintiffs claims against Defendant Luzier is
not warranted on the grounds that he did not sufficiently participate in the decision to issue the
ECO. Accordingly, the Court will consider both Defendants Luzier’s and Hall’s qualified
immunity defense and the sufficiency of the evidence as to Plaintiffs state law claim against
both of these Defendants.

8
aVI-55

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 9 of 22 PagelD# 1540

A. Section 1983 Claims (Counts 1,2, and 10)
Counts 1,2, and 10 are federal claims alleging deprivation of Plaintiffs constitutional
rights. Because Plaintiffs claims are constitutional claims for money damages, asserted under
42 U.S.C. § 1983 against state actors, the Court must first consider whether qualified immunity
precludes her recovery before deciding whether her constitutional rights were violated.
“Qualified immunity protects ‘all but the plainly incompetent or those who knowingly
violate the law.’” Hope v. Pelzer, 536 U.S. 730, 752 (2002) (quoting Malley v. Briggs, 475 U.S.
335,341 (1986)). Thus, “mere mistakes in judgment, whether the mistake is one of fact or one
of law,” are protected. Id. (quoting Butz v. Economou, 438 U.S. 478, 507 (1978)). The Court
must therefore determine whether Plaintiffs constitutional claims, on the basis of which she
seeks damages, are “clearly established statutory or constitutional rights of which a reasonable
person would have known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
The parties dispute various aspects of the circumstances leading to Plaintiff s detention
and what Plaintiff told Mr. Homer, PAE’s security officer, and Ms. Wilbom, PAE’s human
resources manager.1 However, these disputes relate to what Plaintiff said or did before her
behavior was reported to the police and/or whether Plaintiffs statements were taken out of
context. These disputes are not material, however, since there is no genuine factual dispute as to
what information Defendants Hall, Luzier, and Galway had before making the decision to issue
the ECO and petition for the TDO, including what Homer, Wilbom or Plaintiff said to either
Defendants Hall or Luzier. Nor is there any evidence that the Officers had reason to believe that
Homer’s or Wilbom’s accounts were inaccurate. Accordingly, the case is ripe for resolution on

1 Examples include whether she ever used the word “hive” to describe the office on the 11th floor of the FD1C
building in which she believed her stalkers were congregating and whether she actually followed one of her
suspected stalkers to the 11th floor or simply traced him to that floor by watching the floor indicator stop there after
he got in the elevator. See [Doc. 83 at 3-10].

9
aVI-56

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 10 of 22 PagelD# 1541

summary judgment; and the liability of these Defendants turns on whether, based on the
information they had, their decisions were unreasonable under clearly established law. See
Gooden v. Howard Cty., Md., 954 F.2d 960, 966 (4th Cir. 1992) (en banc) (stating that officers
who acted on the basis of complaints by “an apartment resident whose veracity they had no
reason to doubt” could “hardly be faulted for attaching credence to such citizen complaints”
when those complaints later turned out to be inaccurate, because “the police cannot invariably be
held under § 1983 as guarantors of every such report”); Kelley v. Myler, 149 F.3d 641, 647 (7th
Cir. 1998) (“Probable cause does not depend on the witness turning out to have been right; it’s
what the police know, not whether they know the truth, that matters.” (quotation and alteration
omitted)).
1. The Officers
As to the Officers, Defendant Hall stated that she made her decision to detain Plaintiff on
the basis of statements given to her by Mr. Homer and Ms. Wilbom. There is no dispute of fact
as to what these individuals reported to the Officers. Ms. Wilbom reported to the police that
Plaintiff:
•

Expressed concerns about being followed by a Pakistani male;
Reported that a “hive” of southeastern Asian men had followed her for several months
while she was in Dubai and had followed her to the United States and continued to stalk
her for many months;

«

Reported that these men were “following her every move,” hacking her phone,
surv eilling her inside her house, spying on her at work and in the parking garage of her
work;

10
aVI-57

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 11 of 22 PagelD# 1542

•

Stated, when asked about how she planned to get the phone that these men were speaking
on, that she would walk up to them and take it from them;

•

Stated that the only way to deal with these men was to “kill them”;

•

Stated that “them” referred to all Pakistani men, that these men came from an
“uncivilized society,” and that a bomb needed to be dropped on Pakistan;

•

Reported that she had followed one of them up to the 11th floor of the FDIC building but
was unable to get beyond the area outside of the elevator doors;

•

Reported that she owned a Glock and that she went to the gun range to fire it while taking
her phone with her so that her stalkers knew she was going to the gun range;

•

Stated that she hoped she would have the courage to defend herself when the time came;
and

•

Stated that if she had been stalked overseas, her stalking would have been handled
differently than how she was dealing with it in the United States.

[Doc. 80-5 at 1-2]. Ms. Wilbom included all of these statements in her written statement to the
police, and she corroborated these in her deposition. See [Doc. 80-6 at 7-11].
Mr. Homer testified in his deposition that he discussed “all of the concerns that Dr.
Barrett had expressed” in his conversations with her, which included “[t]hose documented in my
notes as well as similar concerns expressed to Shae Wilbom, similar to what was—what’s
indicated in her handwritten police report.” [Doc. 80-1 at 17]. The information in Mr. Homer’s
notes is consistent with Ms. Wilbom’s written statement in most respects. See [Doc. 80-2]. As
reported to the Officers, the principal discrepancies between Mr. Homer’s account of his
conversations with Plaintiff and Ms. Wilbom’s account of hers were (1) Plaintiff told Mr. Homer
that she did not have a gun yet told Ms. Wilbom that she had a gun and (2) Plaintiff reported to

11
aVI-58

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 12 of 22 PagelD# 1543

Ms. Wilbom that she followed the man she believed to be one of her stalkers to the 11th floor of
the FD1C building and told Mr. Homer that she simply deduced that he went to the 11 th floor by
watching the floor indicator on the elevator (and, in fact, asked Mr. Homer for assistance in
getting to the 11th floor so she could confront them). Except for these discrepancies, the
accounts that Mr. Homer and Ms. Wilbom provided to the Officers were consistent.
Defendant Hall reported that Plaintiff exhibited a “calm” demeanor during her interview.
[Doc. 83-14 at 17]. Plaintiff told the Officers in the interview that she had been followed by
black SUVs and had people ringing her doorbell, that she had seen a man outside the PAE
offices using a cell phone while watching her, and that she either followed the man to the 11th
floor of the FDIC building or watched from the lobby as the elevator indicator stopped on the
11th floor (Defendants Hall’s and Luzier’s recollections differed as to this statement). She
reported that she had taken steps to become a “hard target” in order to deter her assailants,
including getting four dogs, installing a dash camera in her vehicle, installing surveillance
cameras in her home, owning a gun, and hopefully “having the courage to defend herself, if
necessary.” [Doc. 80-13 at 8-9]. She also told them that she owned a gun but did not have it at
work and would not bring it to work as doing so was prohibited by PAE’s policy. [Doc. 83-14 at
8]. She further told them that she did not intend to harm herself. [Doc. 83-14 at 16].
In deciding whether Plaintiff satisfied the standard for involuntary commitment set forth
in Va. Code Ann. § 37.2-809, the Officers had to consider the above accounts along with
Plaintiff's statements and demeanor. From the Officers’ point of view, Plaintiffs account and
the accounts of Mr. Homer and Ms. Wilbom were consistent in that both demonstrated that
Plaintiff believed that she was being followed and surveilled by a group of South Asian men, and
that she had taken steps to become a “hard target” in the belief that doing so was necessary to

12
aVI-59

Case 1:18-CV-00980-AJT-TCB Document 86 Filed 04/09/19 Page 13 of 22 PagelD# 1544

defend herself against this conduct or make her alleged stalkers’ jobs more difficult. The
Officers therefore had to make a judgment call in weighing Plaintiffs calm demeanor and her
answers against the more concerning accounts of Plaintiffs statements presented by Mr. Homer
and Ms. Wilbom. In reaching her conclusion, Defendant Hall stated that she reviewed all of this
information as a whole and ultimately decided that Plaintiff should be detained for the purpose of
a mental health evaluation, based primarily on what she believed to be evidence that Plaintiff
was suffering from paranoia and a corresponding risk that she might harm others in the belief
that she was defending herself:
So when she spoke in detail about feeling, by her own admission, paranoid by
people following her, men following her; feeling under constant surveillance;
feeling like she needed to be a hard target; having a weapon and saying, Hopefully,
if something happens, I’ll have the courage to defend myself; following men into
buildings because they had a phone in their hand and then looked at her all led me
to believe that there was a possibility that she may hurt others. ... So her telling
me that she believed that men who looked at their phone and then looked at her,
that she was constantly being surveillance [sic]—under surveillance, that men of
Pakistani descent were following her, that black SUVs were following her, led me
to believe that there was some level of paranoia going on here.
[Doc. 80-13 at 10-11].
This decision, which rested upon a weighing of the various accounts and an assessment
of Plaintiff s demeanor, did not violate clearly established law. As the Fourth Circuit has
acknowledged, there is limited case law on involuntary detentions for the purpose of conducting
mental health evaluations. In 2015, the Fourth Circuit observed that while its “previous
decisions concerning seizures for mental health evaluations have indeed emphasized a ’general
right to be free from seizure’ absent a finding of probable cause, it has not developed its case
law concerning application of that right to particular cases, especially when compared to “the
painstaking definition of probable cause in the criminal arrest context.” Raub v. Campbell, 785
F.3d 876,882 (4th Cir. 2015) (quotation and alteration omitted). This absence of precedential
13
aVI-60

Case 1:18-CV-00980-AJT-TCB Document 86 Filed 04/09/19 Page 14 of 22 PagelD# 1545

guidance is especially true, the Court observed, in the context of seizure of persons for a mental
health evaluation out of fear that they would harm others, as opposed to themselves. Id.
In cases involving involuntary detention of persons over concerns that they might harm
themselves, the Fourth Circuit has held that officers were entitled to qualified immunity under
circumstances similar to those in the case at bar in important respects. For example, in Gooden,
officers were twice called to an apartment complex after residents reported screams emanating
from one of the apartments. 954 F.2d at 962. During their second visit, the officers personally
heard “blood-chilling” screams and other strange noises coming from the apartment. Id.
Nevertheless, the woman who lived in the apartment denied hearing or making any such noises
(although she did admit to “yelping” once because she had burned herself with an iron). Id.
However, based upon their perception that the woman appeared to have been crying and out of
concern that she was “mentally disordered” and might harm herself, they took her to a nearby
hospital for an evaluation. Id. at 963-964. The Court, sitting en banc, held that the officers
conduct was reasonable because they acted on the basis of multiple complaints, personal
observations, and their own investigations. Id. at 966. The Court also found it relevant that the
officers acted pursuant to a Maryland law authorizing mental health seizures. Id.
Similarly, in S.P. v. City ofTakoma Park, Maryland, officers dispatched to the scene
found the plaintiff at her home crying and distraught. 134 F.3d 260, 264 (4th Cir. 1998). She
admitted that she had had a “painful argument” with her husband but denied having thoughts of
suicide or depression. Id. at 264, 267. However, she told the officers that, if not for her children,
“she would have considered committing suicide.” Id. at 267. Because of the woman’s demeanor
and the officers’ concern that she may harm herself, they took her to a hospital for evaluation.
Id. The Fourth Circuit affirmed the district court’s grant of qualified immunity because the

14
aVI-61

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 15 of 22 PagelD# 1546

officers “had ample opportunity to observe and interview” her, “did not decide to detain [her] in
haste,” and acted pursuant to state law authorizing mental health seizures. Id. at 267-68.
Moreover, the Court noted that, just as in Gooden, even though the plaintiff “exhibited no signs
of physical abuse and denied any psychiatric problems,” the officers acted reasonably in relying
on their perceptions of her as “evasive and uncooperative.” Id. at 268.
In contrast, in Bailey v. Kennedy, the only case in which the Fourth Circuit denied
qualified immunity at summary judgment for a seizure in the mental health context, officers
detained the plaintiff based solely on a 911 report that he was intoxicated, depressed, and
suicidal. 349 F.3d 731,734 (4th Cir. 2003). After receiving the report, the officers went to the
plaintiffs home, where they found him eating lunch in his dining room. He denied having
suicidal thoughts, declined to give the officers permission to search the house, and asked them to
leave. Id. The officers did not see weapons or other indicia of a potential suicide in the house.
After leaving, the officers decided they “ha[d] to do something” and returned to knock on the
door. Id. at 735. When the plaintiff told them the suicide report was “crazy” and that the
officers needed to leave, the officers instead entered his home and forcibly detained him. Id.
The Fourth Circuit denied qualified immunity and remanded the case because it concluded that
“the 911 report, viewed together with the events after the police officers arrived, was insufficient
to establish probable cause to detain [the plaintiff] for an emergency mental evaluation.” Id. at
741.
Subsequently, in Cloaninger ex rel. Estate of Cloaninger v. McDevitt, when confronted
with a similar situation to that in Bailey, the Court distinguished the case before it from Bailey on
the ground that the law enforcement officers had more information than the “mere 911 call in
Bailey.” 555 F.3d 324, 333 (4th Cir. 2009). There, police officers were summoned to the

15
aVI-62

Case 1:18-CV-00980-AJT-TCB Document 86 Filed 04/09/19 Page 16 of 22 PagelD# 1547

plaintiffs home after he called a VA hospital seeking medical help, and a police dispatcher
informed law enforcement officials that he had threatened suicide. Id. at 328. In addition, one of
the officers was aware that “Cloaninger had previously made suicide threats” and also believed
that he “had firearms in the house.” Id. at 332. When officers arrived at the plaintiff s home to
check on him, he reftised to respond “to their concerns for his well-being.” Id. The officers then
called a VA hospital nurse, who confirmed that Cloaninger “had a history of threatening suicide”
and recommended his emergency commitment. Id. at 332-33. The panel held that “the initial
VA call, coupled with knowledge of Cloaninger’s prior suicide threats and the belief that he
possessed firearms,” constituted probable cause that the plaintiff was a danger to himself. Id at
334.
Based on the summary judgment record, the Court finds and concludes that Defendant
Hall’s and Luzier’s detention of Plaintiff was reasonable for the purpose of establishing qualified
immunity as a matter of law. In that regard, their decision bears several hallmarks of
reas onableness that can be extracted from the Fourth Circuit’s precedent on mental health
seizures. First, rather than seizing her without observation solely on the basis of Mr. Homer’s
and Ms. Wilbom’s statements, the Officers spoke with Plaintiff at length and therefore had
ample time to observe her demeanor and hear her side of the story. See S.P., 134 F.3d at 267
(finding qualified immunity where the police officers “had ample opportunity to observe and
interview” her and “did not decide to detain [her] in haste”). Second, according to Defendant
Hall, whose testimony was uncontroverted, she detained Plaintiff based on her consideration of
Plaintiffs, Mr. Homer’s, and Ms. Wilbom’s accounts. Plaintiff s ownership of a gun, reports
that she followed her assailant into another building, and her efforts to become a hard target,
all of which cumulatively gave her the perception that Plaintiff was suffering from paranoia

16
aVI-63

Case 1:18-CV-00980-AJT-TCB Document 86 Filed 04/09/19 Page 17 of 22 PagelD# 1548

which could lead to her harming someone out of a truly held but delusional belief that she had to
defend herself against those she perceived to be her stalkers. Defendant Hall therefore “acted on
the basis of multiple complaints, personal observations, and [her and Defendant Luzier’s] own
investigations.” Raub, 785 F.3d at 882. Finally, the Officers acted pursuant to a Virginia law
authorizing mental health seizures. See, e.g., Gooden, 954 F.2d at 966.2
Based on this record, the applicable precedent and the nature of mental health seizures,
which are necessarily “idiosyncratic and heavily dependent on the facts,” Buchanan v. Maine,
469 F.3d 158,168 (1st Cir. 2006), Defendants Hall and Luzier did not violate clearly established
law in detaining Plaintiff. They are therefore entitled to qualified immunity.
2. Defendant Galway
Similarly, in deciding to file a petition for involuntary commitment, Defendant Galway
made a judgment call not unlike that made by the Officers. In his deposition testimony, which
was uncontroverted with regard to the information before him when he made his decision, he

2 Plaintiff argues that a more recent Fourth Circuit decision, Goines v. Valley Community Services Board, 822 F.3d
159 (4th Cir. 2016), “establishes the unlawfulness of Defendants’ conduct in this case.’ - [Doc. 83 at 25]. In Goines,
the Fourth Circuit denied officers’ motion to dismiss on the ground of qualified immunity because the allegations in
the complaint did not establish that the officers acted reasonably in detaining the plaintiff for a mental health
evaluation. Id. at 170. However, as courts are required to do on a motion to dismiss, the Fourth Circuit considered
only the allegations in the complaint and accepted those allegations as true (the district court had improperly
considered assertions made by the police in an incident report cited by the plaintiff but not attached to his complaint
as true). Id. at 168-69. The complaint alleged only that the plaintiff himself called the police because he believed
his neighbor had spliced his cable line and was causing a signal disruption and did not want the dispute to escalate,
had no mental illness, and did not intend to harm himself or others; and the officers refused to hear or investigate his
story and instead assumed that he had “mental health issues simply because he had physical and speech
impediments and claimed that the plaintiff reported hearing noises in the wall that the officers could not hear, even
though the officers actually did not hear the noises of which the plaintiff complained because they came from the
plaintiff’s television, which was turned off when the officers were present. Id. at 168-71. On those facts alone, the
Court “ha[d] little difficulty in concluding that Goines’ claims against the Officers should not have been dismissed.
Here, in analyzing Plaintiff’s claim on summary judgment, as opposed to on a motion to dismiss, there is a
fully developed factua'l record, which demonstrates that the Officers acted on far more evidence and a lengthier
investigation than did the officers in Goines. Indeed, whereas the Court in Gaines observed that the officers “simply
assumed a threat without exploring whether the situation reflected some misunderstanding, a bizarre but nondangerous incident, or something more problematic,” id. at 170, the Officers in the instant case met with Mr. Homer
and Ms. Wilbom and spoke with Plaintiff at length before taking her into custody.

17
aVI-64

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 18 of 22 PagelD# 1549

stated that in assessing Plaintiffs mental condition, he first received an email sent by Alexis
Mapes, his supervisor at the Arlington DHS, which summarized the case. [Doc. 80-15 at 15].
Next, he spoke with Ms. Wilbom. He stated that Ms. Wilbom
reviewed that Dr. Barrett had met with the security person and had talked about
these Muslim networks, about being followed by men from the Middle East, that
she had gone across the courtyard following someone into their—trying to follow
someone into their building, and that she had made statements about wanting
security to investigate these issues or else she would do something, including killing
them and herself.
Id. at 18-19. He further recalled that Mr. Wilbom reported a “pattern” of conversations Plaintiff
had with Ms. Wilbom and other co-workers “that was concerning to them,” including that “she
was talking about something needed to be done about [her stalkers]. Id. at 20.
Next, Defendant Galway spoke briefly with Dr. Liu, the emergency room physician who
initially spoke with Plaintiff upon her admission, who summarized the police reports and the
information he had gathered and stated that he was concerned that, based on that information,
Plaintiff might harm herself or others. Id. at 22-23. Thereafter, he spoke with Plaintiff. Id. at
28. Plaintiff repeated her accounts of the stalking to him but informed him that she believed that
some of her prior statements had been taken out of context. Id. Based upon his consultation
with Plaintiff and his weighing of the information available to him, he stated that he had a sense
that Plaintiff might be suffering from “a significant amount of what sounds like PTSD symptoms
and possibly delusional disorder, which [were] affecting how she[ wa]s thinking and how she[
wa]s behaving.” Id. at 30.
After speaking with Ms. Wilbom and Dr. Liu, and in the midst of his consultation with
Plaintiff, Defendant Galway spoke by phone with Defendant Lietzau, Plaintiffs supervisor at
PAE. Id. at 31. Mr. Lietzau reported that Plaintiff “was a good employee” and that while she

18
aVI-65

Case 1:18-CV-00980-AJT-TCB Document 86 Filed 04/09/19 Page 19 of 22 PagelD# 1550

“seems a bit off,” it had not affected her work and that he did not think that she would be likely
to hurt anyone. Id. at 32.
After gathering all of this information, Defendant Galway met with Ms. Mapes, and they
went into a team meeting to discuss the case and weigh the options. Id. at 34-35. He reported
the following regarding the team’s consensus in the case:
[I]t was generally felt that the risks were at the level where we needed to detain her
because she was not giving us sort of a sense that she was going to seek treatment,
that she was not willing to sign herself in, and that she had—and one of the big
issues was that she owned a gun, and we weren’t sure where that was.
Id. at 35. According to Defendant Galway’s uncontroverted testimony, Plaintiffs gun ownership
created the biggest concern for the team, in light of her comments:
And she’s talking about killing. She’s used the expression kill people to not only
that day, but the two days before, the day before. She’s also—the human resource
has been saying that this is a statement that she’s made. So it’s bad enough we talk
to people who say they’re going to kill somebody but don’t own a gun. It’s another
thing to have people say that who do own a gun.
Id. at 38-39. According to Defendant Galway, no team member voiced disagreement with his
and Ms. Mapes’s opinion that they should seek Plaintiff's involuntary commitment on that basis.
Id. at 42. Based on this consensus and his own investigation and evaluation, he elected to submit
the petition for a TDO. Id. at 44.
Like Defendant Hall, Defendant Galway made his decision based upon the totality of the
circumstances presented to him, which he derived from his conversations with and observations
of Plaintiff, the reports he received from Ms. Wilbom and Mr. Liu, the police reports, his
conversations with Ms. Mapes and his other team members at the Arlington DHS, and his
conversation with Mr. Lietzau, who presented a more favorable opinion as to Plaintiffs
likelihood of harming others or herself. Like the Officers, the undisputed evidence demonstrates
that he did not make the decision in haste, relied on his own perceptions of Plaintiff rather than
19
aVI-66

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 20 of 22 PagelD# 1551

on reports from others, and submitted a petition to temporarily detain Plaintiff pursuant to
Virginia’s mental health law.
Virginia’s civil commitment statute states that a TDO is appropriate when a person found
to present a harm to oneself or others “is unwilling to volunteer or incapable of volunteering for
hospitalization or treatment.” Va. Code Ann. § 37.2-809(B). Plaintiff argues that
notwithstanding his assessment of Plaintiffs mental health condition, Defendant Galway
violated clearly established law because Plaintiff volunteered to see a psychologist on her own.
According to Plaintiff, “[because Dr. Barrett volunteered for treatment, she no longer met the
statutory criteria for a TDO.” [Doc. 83 at 30 (citing Va. Code Ann. § 37.2-809(B)]. However,
although Plaintiff stated during her consultation with Defendant Galway that she would be
willing to see a psychologist, it is undisputed that she repeatedly refused to sign herself into the
hospital for mental health treatment. See [Docs. 38 at

181-82; 80-15 at 39-40, 44].

Defendant Galway explained that, based on his evaluation, he was concerned that Plaintiff could
harm herself or others in the four days prior to her civil commitment proceeding. [Doc. 80-15 at
39-40]. Thus, his decision to seek a TDO was based on a determination that Plaintiff presented
an acute risk of harm, and the treatment for which she “volunteered” would not address her
mental health in a timely enough fashion to allay those concerns. See id at 39-40 (“[W]e don’t
know if she’s going to get a psychologist next Wednesday or a week from Wednesday. We’ve
got Thursday, Friday, Saturday. The hearing would be Monday. We’ve got those four days in
between to be concerned about—that she owns a gun, has been talking about killing people. ).
In that regard, she refused voluntary hospitalization, the only treatment available that would
address this perceived acute risk.

20
aVI-67

Case 1:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 21 of 22 PagelD# 1552

For these reasons, Defendant Galway is entitled to qualified immunity because he did not
violate clearly established law in seeking a TDO.3
B. State Law Claims Against the Officers (Counts 7 and 8)
Counts 7 and 8 are state law false imprisonment claims against Defendants Hall and
Luzier, respectively. Under Virginia law, “[f]alse imprisonment is the restraint of one’s liberty
without any sufficient legal excuse.” Lewis v. Kei, 708 S.E.2d 884, 890 (Va. 2011). And in
order to state a claim for false imprisonment, a plaintiff must allege that the process leading to
the arrest was unlawful. Cole v. Eckercl Corp., 54 Va. Cir. 269, 2000 WL 33595085, at *2 (Va.
Cir. Ct. 2000); Montanile v. Botticelli, 2008 WL 5101775, at *4 (E.D. Va. Nov. 25, 2008).
A warrant that is “regular on its face—even one procured without probable cause—does
not create a cause of action for false imprisonment.” Id. at *4 (emphasis added) (citing Cole, 54
Va. Cir. 269). “Even a police officer who makes a misdemeanor arrest without a warrant and
one based upon mistakes of fact or law may not be subjected to civil liability for false
imprisonment, provided that the officer acted in good faith and had a reasonable belief in the
validity of the arrest.” Co/e, 54 Va. Cir. 269, at *3 (citing Yeatts v. Minton, 177 S.E.2d 646 (Va.
1970)). An officer’s failure to investigate further, even when he should have, does not invalidate
an arrest pursuant to a facially valid warrant. Kei, 708 S.E.2d at 890.
Here, although no warrant was involved, the facially valid ECO that Defendant Hall
issued upon conclusion of the interview with Plaintiff was a “form of lawful process.”

3 Plaintiff further alleges summary judgment cannot be granted because Defendant Galway made a “material
misrepresentation” in the TDO petition by failing to check a box certifying that he believed that Plaintiff met the
statutory criteria for commitment pursuant to Va. Code Ann. §§ 37.2-805 through 37.2-819. [Doc. 83 at 31 ].
Defendant Galway stated in his deposition that the unchecked box was a mistake that occurred “just because l forgot
to do it for some reason.” [Doc. 83-10 at 24]. More importantly, he checked a series of boxes in the same section of
the petition in which the unchecked box was contained, which would not be applicable if he believed that Plaintiff
did not meet the statutory criteria. See [Doc. 83-18 at 2], Nothing in the record indicates that Defendant Galway
acted intentionally or with any fraudulent intent in failing to check the box; and within the context of the entire
petition and TDO process, his failure to check the box is insufficient to preclude summary judgment.

21
aVI-68

Case l:18-cv-00980-AJT-TCB Document 86 Filed 04/09/19 Page 22 of 22 PagelD# 1553

Moreover, the Officers had jurisdiction to detain Plaintiff and did so under Va. Code Ann.
§ 37.2-809 after investigating and making a determination that Plaintiff was potentially a danger
to herself or others. Although in hindsight it may be open to debate whether the wrong
conclusion was reached concerning whether Plaintiff was a legitimate threat to the safety of
others or herself, there is no evidence in the record that the process leading to Plaintiffs seizure
was unlawful or that the Officers had any reason to disbelieve the accounts provided to them by
Mr. Horner and Ms. Wilborn. During the investigation they conducted, they spoke to multiple
witnesses and Plaintiff and analyzed her demeanor, and made their decision based on their
firsthand perceptions of Plaintiff s mental health and the accounts of Mr. Horner and Ms.
Wilborn. for all these reasons, based on the summary judgment record. Plaintiff has failed as a
matter of law to proffer evidence sufficient under Virginia law lor a jury to find that Defendants
Luzieror Hall falsely imprisoned her.
IV. CONCLUSION
For the foregoing reasons, it is hereby
ORDERED that Defendants Galway, Hall, and Luziefs Motion for Summary Judgment
|Doc. 79] be. and the same hereby is. GRANTED; and this action is DISMISSED.
The Clerk is directed to forward copies of this Order to all counsel of record and to enter
judgment in favor of the Defendants under Federal Rule of Civil Procedure 58.

Anthony J. Tyei^a,
rici Judge
United Stale:

April 9. 2019
Alexandria. Virginia

22
aVI-69

USCA4 Appeal: 19-1394

Filed: 06/04/2019

Doc: 15

Pg: 1 of 68

3n CElje

Qfnitch states (ttmtrt of Appeals
ifor Qlijr iFmtrttf (Hircutt

KERRIN BARRETT,
Plaintiff- Appellant,

v.

PAE GOVERNMENT SERVICES, INC.;
AREYAL HALL, Officer, Arlington County Police
Department; WILLIAM K. LIETZAU; SEAN HORNER;
SHANEDRIA WILBORN; BRIAN GALWAY;
JOSHUA LUZIER, Officer,
Defendants - Appellees.

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
AT ALEXANDRIA
BRIEF OF APPELLANT
Peter C. Cohen
Hans H. Chen
Charlson Bredehoft Cohen & Brown, P.C.
11260 Roger Bacon Drive, Suite 201
Reston, Virginia 20190
(703) 318-6800
Counselfor Appellant
APPENDIX C
aVI-70

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 2 of 68

CORPORATE DISCLOSURE STATEMENT
Plaintiff-Appellant Kerrin Barrett is a natural person, not a publicly held
corporation or other publicly held entity. She has no parent corporations. She
does not have 10% or more of its stock owned by a publicly held corporation or
other publicly held entity. There are no publicly held corporations or other
publicly held entities with a direct financial interest in the outcome of the
litigation. She is not a trade association.

aVI-71

USCA4 Appeal: 19-1394

Filed: 06/04/2019

Doc: 15

Pg: 3 of 68

TABLE OF CONTENTS
Page

CORPORATE DISCLOSURE STATEMENT

l

TABLE OF AUTHORITIES

v

STATEMENT OF SUBJECT MATTER
AND APPELLATE JURISDICTION....

1

STATEMENT OF THE ISSUES

2

STATEMENT OF CASE

3

I.

Introduction

3

II.

Relevant Law

5

III.

Factual background

7

A.

Dr. Barrett’s distinguished background

7

B.

Dr. Barrett experiences stalking in the United States

8

C.

On July 6, 2017, Dr. Barrett is stalked outside PAE’s
offices, and she informs Mr. Lietzau of the stalking..

9

On July 10, Dr. Barrett tells Mr. Homer she is being
stalked................................................. .......................

10

E.

On July 11, Dr. Barrett talks to Ms. Wilbom

10

F.

On July 12, 2017, Officers Hall and Luzier speak to Mr.
Homer and Ms. Wilbom..................................................

12

On July 12, Mr. Homer contacts the County Department
of Human Services.............................................................

15

D.

G.

aVI-72

USCA4 Appeal: 19-1394

H.
I.

Filed: 06/04/2019

Doc: 15

Pg: 4 of 68

On July 13, the police arrive again and interrogate Dr.
Barrett.......................................................................

15

Mr. Galway meets Dr. Barrett at the hospital

19

Procedural History

21

SUMMARY OF ARGUMENT

26

ARGUMENT

26

I.

Standard of review

26

II.

The District Court erred in dismissing the Joint Action and
Conspiracy claims............................................................

28

IV.

A.
B.

Law regarding conspiracy to violate Section 1983 and to
falsely imprison.............................................................

29

Dr. Barrett has alleged a plausible conspiracy between
PAE and Officers Hall and Luzier to violate Dr. Barrett’s
civil rights and to falsely imprison her............................

31

1.

2.

3.

V.

The Court should reverse the District Court’s
dismissal of Counts 6 and 9, alleging conspiracies
to violate Dr. Barrett’s constitutional rights and to
falsely imprison her.............................................

32

The Court should reverse the District Court’s
dismissal of Counts 3 and 4.................. .......

37

The Court should reverse the District Court’s
premature and erroneous dismissal of Dr. Barrett’s
claim for punitive damages...................................

38

The District Court erred in awarding summary judgment to
Officer Hall, Officer Luzier, and Mr. Galway................ .
A.

Standard for qualified immunity

aVI-73

40

41

USCA4 Appeal: 19-1394

B.

Doc: 15

43

Dr. Barrett told nothing to Mr. Homer or Ms.
Wilbom that indicated to Officer Hall or Officer
Luzier that she was a threat...............................

43

Dr. Barrett told nothing to Officer Hall or Officer
Luzier indicating that she was a threat................

47

Officers Hall and Luzier’s actions indicate that Dr.
Barrett was not a threat.........................................

49

Case law shows that Dr. Barrett’s seizure violated clearly
established law................................................................

50

The District Court erred in extending qualified immunity
to Mr. Galway................................................................

53

2.

3.

D.

Pg: 5 of 68

The County Defendants lacked probable cause to seize
and detain Dr. Barrett..................................................
1.

C.

Filed: 06/04/2019

55

CONCLUSION
CERTIFICATE OF COMPLIANCE
CERTIFICATE OF FILING AND SERVICE

aVI-74

USCA4 Appeal: 19-1394

Filed: 06/04/2019

Doc: 15

Pg: 6 of 68

TABLE OF AUTHORITIES
Page(s)
CASES
Addington v. Texas,
441 U.S. 418 (1979)

29

Advanced Health-Care Servs., Inc. v. Radford Cmty. Hosp.,
910 F.2d 139 (4th Cir. 1990)........................................

27

Anderson v. Creighton, .
483 U.S. 635(1987)

42

Ashcroft v. Iqbal,
556 U.S. 662 (2009)

27

Bailey v. Kennedy,
349 F.3d 731 (4th Cir. 2003)

.passim

Balbed v. Eden Park Guest House, LLC,
881 F.3d 285 (4th Cir. 2018).......

27

BellAtl. Corp. v. Twombly,
550 U.S. 544 (2007).

27

Bell v. City ofRoanoke Sheriff’s Office,
No. 7:09-cv-00214,
2009 U.S. Dist. LEXIS 120153 (W.D. Va. Dec. 23, 2009)

33

Charles v. Front Royal Vol. Fire & Rescue Dep’t, Inc.,
21 F. Supp. 3d 620 (W.D. Va. 2014)...................

38,39

Cloaninger v. McDevitt,
555 F.3d 324 (4th Cir. 2009)

51

Cooper v. Dyke,
814 F.2d 941 (4th Cir. 1987)

39

aVI-75

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 7 of 68

District of Columbia v. Heller,
554 U.S. 570 (2008)......

51

Douglas v. Miller,
864 F. Supp. 2d 1205 (W.D. Okla. 2012)

38

E. Shore Mkts., Inc. v. J.D. Assocs. Ltd. P’ship,
213 F.3d 175 (4th Cir. 2000)..................

26

Everette-Oates v. Chapman,
2017 U.S. Dist. LEXIS 180038 (E.D.N.C. Oct. 31, 2017)

35,36

Glass v. Glass,
228 Va. 39 (1984)

31,34

Goines v. Valley Community Services Board,
822 F.3d 159 (4th Cir. 2016)...............

52

Gooden v. Howard County,
954 F.2d 960 (4th Cir. 1992)

29,50

Hafner v. Brown,
983 F.2d 570 (4th Cir. 1992)

30, 34

Hampton v. Hanrahan,
600 F.2d 600 (7th Cir. 1979), rev’d in part,
446 U.S. 754(1980)................. ...................
Hinkle v. Clarksburg,
81 F.3d416 (4th Cir. 1996)

30

30,32

Illinois v. Gates,
462 U.S. 213 (1993)

41

Jacobs v. N.C. Admin. Office of the Courts,
780 F.3d 562 (4th Cir. 2015)............

28

John Hancock Mut. Life Ins. Co. v. Anderson,
No. 90-1749,
1991 U.S. App. LEXIS 11877 (4th Cir. June 12, 1991)

aVI-76

30,38

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 8 of 68

Jordan v. Shands,
255 Va. 492 (1998)

31

Lee v. Town of Seaboard,
863 F.3d 323 (4th Cir. 2017)

27

McDaniel v. Maryland,
No. RDB-10-00189,
2010 U.S. Dist. LEXIS 84784 (D. Md. Aug. 18, 2010)
McDonald v. City of Chicago,
561 U.S. 742 (2010).....

35, 36

51

Montgomery Ward & Co. v. Wickline,
188 Va. 485(1948)..................

31,34

North Carolina ex rel. Wellington v. Antonelli,
No. 1:01CV01088,
2002 U.S. Dist. LEXIS 24677 (M.D.N.C. Dec. 20, 2002)

40

Novell, Inc. v. Microsoft Corp.,
505 F.3d 302 (4th Cir. 2007)

26

Oppenheimer v. 5vv. Airlines Co.,
2013 U.S. Dist. LEXIS 85633,
2013 WL 3149483 (S.D. Cal. June 17, 2013)

38

Raub v. Campbell,
3 F. Supp. 3d 526 (E.D. Va. 2014)

29

Raub v. Campbell,
785 F.3d 876 (4th Cir. 2015)

50,51

Roberts v. Ballard,
No. 2:15-cv-15458,
2017 U.S. Dist. LEXIS 31858 (S.D.W. Va. Mar. 7, 2017)

30

S.P. v. City of Takoma Park,
134 F.3d 260 (4th Cir. 1998)

50

aVI-77

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Scott v. Greenville County,
716 F.2d 1409 (4th Cir. 1983)

Pg: 9 of 68

29, 34, 38

Sec. of State for Defence v. Trimble Navigation Ltd.,
484 F.3d 700 (4th Cir. 2007)...........................

27

Villanova v. Abrams,
972 F.2d 792 (7th Cir. 1992)

29

Wilson v. Layne,
526 U.S. 603 (1999)

42

Woods v. Mendez,
265 Va. 68 (2003)

39

CONSTITUTIONAL PROVISIONS
51

U.S. Const, amend. II

.passim

U.S. Const, amend. IV
STATUTES
28 U.S.C. § 1291

2

28 U.S.C. § 1331

1

28 U.S.C. § 1367

1

42 U.S.C. § 1983

.passim

42 U.S.C. § 1985

36

Va. Code Ann. § 37.2-808(A)

6,33

Va. Code Ann. § 37.2-808(G)

6

Va. Code Ann. § 37.2-809(A)

6

Va. Code Ann. § 37.2-809(B)

6, 54, 55

aVI-78

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 10 of 68

Va. Code Ann. § 37.2-809(H)

6

Va. Code Ann. §37.2-814

7

Va. Code Ann. §37.2-814(A)

6

Va. Code Ann. §37.2-817(C)

7

RULES
38,39

Fed. R. Civ. P. 8(a)

26,27,38, 39

Fed. R. Civ. P. 12(b)(6)

27

Fed. R. Civ. P. 56(a)

aVI-79

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 11 of 68

STATEMENT OF SUBJECT MATTER
AND APPELLATE JURISDICTION
This appeal arises from an action filed by Plaintiff-Appellant Dr. Kerrin
Barrett (“Dr. Barrett”) in the U.S. District Court for the Eastern District of Virginia
(the “District Court”) against Defendants-Appellees PAE Government Services,
Inc. (“PAE”), William Lietzau (“Mr. Lietzau”), Sean Homer (“Mr. Homer”),
Shanedria Wilbom (“Ms. Wilbom,” and with PAE, Mr. Lietzau, and Mr. Homer,
the “PAE Defendants”), Officer Areyal Hall (“Officer Hall”), Officer Joshua
Luzier (“Officer Luzier”), and Brian Galway (“Mr. Galway,” and with Officer Hall
and Officer Luzier, the “County Defendants”). The County Defendants with the
PAE Defendants are “Defendants.” The District Court exercised subject matter
jurisdiction over Counts 1-5 and 10-11 of Dr. Barrett’s Second Amended
Complaint (“Complaint”) pursuant to federal question jurisdiction under 28 U.S.C.
§ 1331 and over Counts 6-9 and 12-14 of the Complaint pursuant to supplemental
jurisdiction pursuant to 28 U.S.C. § 1367. JA18.1 On January 25, 2019, the
District Court entered an Order dismissing Counts 3-6, 9, 11-14, and Dr. Barrett’s
claim for punitive damages. JA112-27. On April 9, 2019, the District Court
issued an Order granting the remaining Defendants’ Motion for Summary
Judgment and dismissing the remaining claims in the action. JA766-787. The

i

References to JA in this Brief refer to the Joint Appendix.
aVI-80

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 12 of 68

Court entered Judgment on April 9, 2019. JA 788. On April 15, 2019, Dr. Barrett
timely filed a Notice of Appeal of the District Court’s January 25, 2019 Order and
of its April 9, 2019 Order. JA789.
This Court has appellate jurisdiction over Dr. Barrett’s appeal pursuant to 28
U.S.C. § 1291, which provides that courts of appeal “shall have jurisdiction of
appeals from all final decisions of the district courts of the United States.”
STATEMENT OF THE ISSUES
1.

Did the District Court commit reversible error in dismissing, for

failure to state a claim, Counts 3-4 of the Complaint, which allege that two private
individuals, Mr. Homer and Ms. Wilbom, conspired and acted jointly with state
actors and acted under color of state law to violate Dr. Barrett’s civil rights, in
violation of 42 U.S.C. § 1983?2
2.

Did the District Court commit reversible error in dismissing, for

failure to state a claim, Count 6 of the Complaint, which alleges that employees of
PAE committed civil conspiracy with Officer Hall and Officer Luzier to violate Dr.
Barrett’s civil rights?

2 As discussed and displayed in chart form below at page 24, Dr. Barrett does not
appeal the District Court’s dismissal of the counts related to Mr. Lietzau,
consisting of Count 5, Count 11, Count 12, and Count 14. Dr. Barrett also does not
appeal the District Court’s dismissal of Count 13 against Mr. Galway.
aVI-81

USCA4 Appeal: 19-1394

3.

Doc: 15

Filed: 06/04/2019

Pg: 13 of 68

Did the District Court commit reversible error in dismissing, for

failure to state a claim, Count 9 of the Complaint, which alleges that PAE and its
employees conspired with Officer Hall and Officer Luzier to falsely imprison Dr.
Barrett?
4.

Did the District Court commit reversible error in dismissing, for

failure to state a claim, Dr. Barrett’s claim for punitive damages?
5.

Did the District Court commit reversible error in granting qualified

immunity to Officer Hall, Officer Luzier, and Mr. Galway on Counts 1,2, and 10
of the Complaint, alleging unlawful seizure in violation of 42 U.S.C. § 1983, and
in granting summary judgment in their favor on those counts?
6.

Did the District Court commit reversible error in granting summary

judgment in favor of Office Hall and Officer Luzier on Counts 7 and 8 of the
Complaint, alleging false arrest, and did it err in finding that they had a legal
justification to seize Dr. Barrett?
STATEMENT OF CASE
I.

Introduction.
On July 13, 2017, Dr. Barrett was a 59-year-old, Harvard-educated

researcher with a Ph.D. who was working, as she had for much of her professional
life, on behalf of the United States on sensitive projects related to national security
and nation-building. JA19-21; JA458-59; JA731. As an employee of PAE, Dr.

aVI-82

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 14 of 68

Barrett had just completed a budget meeting relating to a U.S. State Department
contract when her co-workers lured her into a room with Officer Hall and Officer
Luzier, who seized Dr. Barrett, removed her from PAE’s offices in full view of her
co-workers, and delivered her to a locked psychiatric ward. JA123:6-20.
Following a petition by Mr. Galway, Dr. Barrett would spend five days in that
ward before impartial authorities finally reviewed her case and found no basis to
detain her at all. JA56-57.
Before seizing Dr. Barrett, Officer Hall and Officer Luzier met repeatedly
with employees of the company where Dr. Barrett worked, both the day before and
an hour immediately before. They agreed to detain Dr. Barrett and to take her to a
psychiatric hospital against her will regardless of whether probable cause existed to
do so, as required by law. JA36 98; JA37 Tj 106; JA38 1} 109. Dr. Barrett alleges
that by the time of her seizure, the officers knew that no probable cause existed to
seize Dr. Barrett. JAM ^ 1; JA59 ]f 249; JA60 ^ 255. She was not mentally ill,
threatened no danger to herself or others, and, having shown up at work to attend a
meeting on an international aid contract that she supervised, certainly showed no
signs of being unable to care for herself. JA15 3. As alleged in the Complaint,
Dr. Barrett’s employers nevertheless intended for her involuntary commitment to
defame and discredit her and to cast doubts on recent charges she had made
regarding her employer’s contract reporting irregularities and security failings.

aVI-83

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 15 of 68

JA64 f 281. But Officer Luzier, Officer Hall, and Mr. Galway need not have
shared that same motive as Dr. Barrett’s employer to engage in the actual
conspiracy alleged in the challenged causes of action: the agreements between Dr.
Barrett’s employers and Officer Luzier, Officer Hall, and later, Mr. Galway, to
seize and involuntarily commit Dr. Barrett to a psychiatric facility without
probable cause to do so. Dr. Barrett has alleged sufficient facts of that conspiracy
to violate her civil rights and to subject her to false imprisonment.
The evidence also shows that the police and Mr. Galway had no reasonable
basis to detain Dr. Barrett. By nevertheless doing so, they violated clearly
established law. The District Court, therefore, erred by granting them qualified
immunity.
II.

Relevant Law.
Under Virginia law, the police may take a person into custody and transport

that person involuntarily for a mental health evaluation pursuant to an “emergency
custody order” (“ECO”) only if there is probable cause to believe the following:
that [the] person (i) has a mental illness and that there
exists a substantial likelihood that, as a result of mental
illness, the person will, in the near future, (a) cause serious
physical harm to himself or others as evidenced by recent
behavior causing, attempting, or threatening harm and
other relevant information, if any, or (b) suffer serious
harm due to his lack of capacity to protect himself from
harm or to provide for his basic human needs, (ii) is in

aVI-84

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 16 of 68

need of hospitalization or treatment, and (iii) is unwilling
to volunteer or incapable of volunteering for
hospitalization or treatment.
Va. Code Ann. § 37.2-808(A). A law enforcement officer may seize a person
without prior judicial authorization if he has probable cause to believe that a person
meets the criteria stated above. Id. § 37.2-808(G).
After an individual has been seized pursuant to an ECO, he must be
examined by an employee or designee of a county community services board
(“CSB”) who meets certain statutory criteria. Va. Code Ann. §§ 37.2-809(A), (B).
Following that examination, and upon a sworn petition typically provided by the
CSB examiner, a magistrate may issue a temporary detention order (“TDO”) that
permits the continued involuntary detention of an individual who meets same
criteria for the issuance of an ECO, discussed above. Id. § 37.2-809(B). Detention
under a TDO generally may last up to 72 hours, but if that 72-hour period ends on
a weekend, as it did for Dr. Barrett, the TDO detention may continue until the next
business day. Id. §§ 37.2-809(H), 37.2-814(A).
Following the TDO detention, an individual is entitled to a commitment
hearing before a district court judge or special justice. At that hearing, if the
district court judge or special justice finds, by clear and convincing evidence, that
the individual meets the criteria discussed above for the issuance of an ECO, the

aVI-85

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 17 of 68

district court judge or special justice can order the person detained for another 30
days. Va. Code Ann. §§ 37.2-814, 37.2-817(C).
III.

Factual background.
A.

Dr. Barrett’s distinguished background.

Dr. Barrett has a long and distinguished career at the highest levels of
government and the private sector in the areas of international development,
education, and rule of law. She earned her bachelor’s degree in economics from
the University of California San Diego and earned a master’s degree from Harvard
University. JA458-59. Dr. Barrett earned a Ph.D. at the University of New
Mexico in organizational learning and instructional technology. JA459.
From April 2012 to July 2013, Dr. Barrett worked as a contractor for PAE in
Kabul, Afghanistan, on a U.S. State Department contract dedicated to improving
the rule of law in that country. JA21 f 30; JA671-72. From 2014 to 2016, Dr.
Barrett lived in Dubai. JA457:14-19. In June 2015, while Dr. Barrett was living in
Dubai, men began stalking and harassing Dr. Barrett and other women in the
neighborhood where she lived. JA453:12-15; JA475:14-22; JA506:19-507:7.
Dr. Barrett returned to the United States in March 2016. JA548. On May 2,
2016, Dr. Barrett began working as a PAE employee on a U.S. State Department
contract for which she was responsible for gathering and reporting on prison data,
which included women and children incarcerated in the prisons, high value targets,

aVI-86

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 18 of 68

and members of ISIS, the terrorist group in the Middle East. JA454:10-13, 498:38, 557:15-559:13. During that time, Dr. Barrett worked in PAE’s Arlington,
Virginia, office. JA498:9-12.
B.

Dr. Barrett experiences stalking in the United States.

After returning to the United States, Dr. Barrett observed that she was being
stalked in a manner similar to the stalking she had experienced in the Middle East.
JA684-88. In discussing her stalking with an expert in law enforcement, Dr.
Barrett was advised to become a “hard target,” which she understood to mean
taking defensive measures that made herself appear less vulnerable and that
discouraged stalking. JA510:1 -22.
Beginning in July 2016, Dr. Barrett filed non-emergency reports with the
Fairfax County Police Department regarding being followed and stalked. JA684.
Dr. Barrett did so because she believed that to respond to her stalking, she needed
to follow the rule of law, and she wanted the police to document her experience of
being stalked. JA477:l-7.
Then, in August 2016, while Dr. Barrett was working at PAE’s office, a man
who fit the pattern of her stalkers came up to her while she was sitting at her desk
and slowly said “Hello Kerrin” before leaving. She had never seen him before.
JA41812.

aVI-87

USCA4 Appeal: 19-1394

C.

Doc: 15

Filed: 06/04/2019

Pg: 19 of 68

On July 6,2017, Dr. Barrett is stalked outside PAE’s offices, and
she informs Mr. Lietzau of the stalking.

On July 6, 2017, Dr. Barrett left PAE’s Arlington offices and began walking
to a nearby Starbucks coffee shop. As she did so, she passed through the courtyard
outside of her building, which an adjacent building shared. There, Dr. Barrett
noticed a South Asian man look at her and then urgently take out his cell phone
and make a call. JA122:3-21; JA512. Dr. Barrett continued to Starbucks and
purchased her coffee. JA472:22-473:2. Upon returning to the courtyard outside of
her office building approximately 30 to 45 minutes later, Dr. Barrett went into the
office building adjacent to hers and asked the security guard in that building’s
lobby if anyone who worked there matched the description of the man Dr. Barrett
had seen in the courtyard. JA473:2-10; JA419 f 4. The security guard told her
that a number of South Asian men worked on the eleventh floor of that building.
JA473:2-10; JA419 f 4.
Since working with Mr. Lietzau in May of 2016, Dr. Barrett had told him
about stalking she had experienced in Dubai and then in the United States.
JA555:16-556:10; JA560:2-7; JA565:2-7. On July 10, 2017, Dr. Barrett told Mr.
Lietzau about the incident from July 6, 2017, and she also told him that she
believed her cellphone was being tapped. JA455:8-13; JA456:11-17; JA56L8562:8; JA566:12-19. She asked him what she should do. JA456:13-15. Mr.

aVI-88

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 20 of 68

Lietzau suggested that Dr. Barrett speak to Mr. Homer, a security manager at PAE.
JA566:12-567:17.
D.

On July 10, Dr. Barrett tells Mr. Horner she is being stalked.

Later in the day on July 10, 2017, Dr. Barrett met with Mr. Homer and told
him about the incident from July 6, 2017, involving a man in the building adjacent
to PAE’s offices and the background of the stalking she had been experiencing.
JA423:5-12; JA425:14-426:4; JA494:13-495:14. The notes that Mr. Homer took
of his conversation with Dr. Barrett on July 10 indicate that he believed that Dr.
Barrett had not traveled up to the eleventh floor of the building adjacent to PAE’s
headquarters where she believed her possible stalker to be located. JA445:13447:12. Dr. Barrett never intended to go by herself to confront any individuals on
the eleventh floor of the building adjacent to PAE’s headquarters where she
believed her stalker to be located. JA424:16-18; JA445:22-446:5.
E.

On July 11, Dr. Barrett talks to Ms. Wilborn.

In the early evening of July 11, 2017, Ms. Wilborn, a human resources
manager at PAE, met with Dr. Barrett. JA522:1-8; JA523:18-524:8. In her
conversations with Ms. Wilborn, Dr. Barrett did not act violently, threaten anyone
or indicate that she intended or planned to undertake any violent act towards
herself or others. JA531:19-532:14; JA533:21-534:3; JA540:17-542:26. Dr.
Barrett described to Ms. Wilborn the man in the courtyard outside her office

aVI-89

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 21 of 68

building who looked at her and then urgently used his cell phone, but Dr. Barrett
did not tell Ms. Wilbom that she needed to walk up to the man and take the phone
from him. JA4198. Ms. Wilbom testified at deposition that Dr. Barrett never
said that she, herself, intended to take the phone away from the man herself.
JA529:18-530:4. Dr. Barrett also discussed the advice she had received to become
a “hard target.” In explaining to Ms. Wilbom what that entailed, Dr. Barrett
mentioned installing security cameras and taking different routes to work.
JA536:12-21.
To the extent that Dr. Barrett discussed Pakistani men with Ms. Wilbom,
Ms. Wilbom testified at deposition that Dr. Barrett never said that Dr. Barrett
intended to harm any Pakistani men. Ms. Wilbom also testified at deposition that
Dr. Barrett never said she wanted to kill stalkers, but that Dr. Barrett was merely
recounting some advice that Afghan acquaintances had given her about how
Afghans, but not Dr. Barrett, would deal with stalking. JA37:12-17; JA527:9-18;
JA541:16-542:20. Ms. Wilbom testified at deposition that when Dr. Barrett
discussed the comments that President Trump had made about dropping bombs on
Pakistan, she understood Dr. Barrett to be merely commenting on a political
statement and that Dr. Barrett’s comment did not lead Ms. Wilbom to conclude
that Dr. Barrett intended to hurt other people. JA525:13-526:22.

aVI-90

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 22 of 68

After speaking to Dr. Barrett on July 11, 2017, Ms. Wilbom emailed Mr.
Homer about the conversation she had had earlier that evening with Dr. Barrett.
JA534:4-9. On July 12, 2017, Ms. Wilbom discussed with Mr. Homer and others,
including PAE’s in-house legal staff, the conversation she had had the day before
with Dr. Barrett. JA535:1-19.
F.

On July 12,2017, Officers Hall and Luzier speak to Mr. Horner
and Ms. Wilborn.

On July 12, 2017, Mr. Homer telephoned the non-emergency line for the
Arlington County Police Department and asked to speak to a police officer about
Dr. Barrett. JA427:2-7; JA428:4-14; JA429:22-430:3. Mr. Homer testified he did
not do so to alert the police that Dr. Barrett posed a danger to herself or others but
to inquire whether they would be able to help her, including help her investigate
her stalking claims. JA435:4-436:5. Dr. Barrett similarly believed that she would
be meeting with the Arlington County Police so they could investigate her stalking
claims. JA483:15-484:2.
On July 12, 2017, Officer Hall and Officer Luzier were dispatched to
respond to Mr. Homer’s non-emergency call. JA601:12-14; JA694:20-695:2. The
police dispatcher did not indicate that the call from Mr. Homer was an emergency.
JA603:2-11. Neither Officer Hall nor Officer Luzier traveled to PAE’s offices
with their emergency lights or sirens activated in their police cars. JA602:17603:1; JA696:4-7.

aVI-91

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 23 of 68

Upon arriving at PAE’s offices on July 12, 2017, Mr. Homer told Officer
Hall and Officer Luzier about what Dr. Barrett had told him and what Dr. Barrett
had told Ms. Wilbom the day before. JA430:14-431:13. Specifically, Mr. Homer
told Officer Hall and Officer Luzier that Dr. Barrett had told Ms. Wilbom that Dr.
Barrett was being followed by black SUVs and Pakistani men. JA606:7-16;
JA697:13-18. Mr. Homer also told Officer Hall and Officer Luzier that Dr. Barrett
had told him that several days earlier, Dr. Barrett had seen a South Asian man in
the courtyard outside her office building look at her and urgently use his phone and
that because Dr. Barrett believed that man was one of her stalkers, she entered the
building where she believed the man worked. JA698:1 -13.
Mr. Homer told Officers Hall and Luzier that Dr. Barrett said that she owned
a gun but that she knew she was not permitted to bring it inside PAE’s offices.
JA699:l-7. Officer Hall does not recall Mr. Homer telling her anything else about
Dr. Barrett’s gun. JA699:8-10. At that time, Dr. Barrett owned one Glock
handgun, which she had purchased in 2006 while living in Albuquerque.
JA468:19-469:2; JA516; JA 158:3-10. Dr. Barrett purchased that gun on the
advice of a co-worker at Sandia National Laboratories in 2006, who noted that Dr.
Barrett was newly widowed and that Albuquerque had been experiencing a spate
of home invasions. JA470:7-21. Dr. Barrett would not, therefore, have told Mr.
Homer that she was considering purchasing a gun, because she already owned one.

aVI-92

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 24 of 68

Mr. Homer also told Officers Hall and Luzier that Dr. Barrett had contacted
another police department to report that she was being stalked. JA607:14-608:4.
In an ordinary case, Officer Luzier would have taken information about Dr.
Barrett’s police reports filed with the Fairfax County Police Department to develop
more investigatory leads as to what Dr. Barrett’s case pertained to and what it
encompassed. JA609:5-13. Officer Luzier did not take those steps because
Officer Hall was the primary officer called to PAE. JA609:14-610:6. Officer
Luzier and Officer Hall never spoke to anyone at the Fairfax County Police
Department regarding Dr. Barrett’s police reports despite having the information to
do so. JA701:22-702:5; JA703:19-704:8.
Mr. Homer did not say to Officer Luzier and Officer Hall on July 12, 2017
that he was concerned that Dr. Barrett would harm herself or others. JA607:6-9.
Mr. Homer hoped that Officers Hall and Luzier would speak to Dr. Barrett
on July 12, 2017. JA436:7-10. But because Dr. Barrett was not in PAE’s offices
on July 12, 2017, Mr. Homer agreed with Officer Hall and Officer Luzier to
contact the police when Dr. Barrett was in PAE’s offices and able to speak to the
police. Mr. Homer also agreed, in the meantime, to contact the Arlington County
Department of Human Services (“DHS”). JA433:6-21.
After she left PAE’s offices on July 12, 2017, Officer Hall did not have
enough information to determine if Dr. Barrett was being stalked, JA700:4-12, and

aVI-93

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 25 of 68

Officer Hall admitted that she had no basis to know whether or not individuals
were following Dr. Barrett, as Dr. Barrett described. JA709:5-8. Nevertheless,
after Officer Hall and Officer Luzier left PAE’s offices on July 12,2017, Officer
Hall took no further actions regarding Dr. Barrett that day. JA701:22-702:5.
G.

On July 12, Mr. Horner contacts the County Department of
Human Services.

Later on July 12, 2017, after Officer Hall and Officer Luzier had left PAE’s
offices, Mr. Homer telephoned Alexis Mapes, a supervisor at DHS’s Emergency
Services, and described what Dr. Barrett had told Mr. Homer and what Dr. Barrett
had told Ms. Wilbom as Ms. Wilbom then described Mr. Homer. JA152:2-153:1.
H.

On July 13, the police arrive again and interrogate Dr. Barrett.

On the morning of July 13, 2017, after Mr. Homer learned from Dr.
Barrett’s manager, Allison Eastridge, that Dr. Barrett was at PAE’s offices, he
called the Arlington County Police Department non-emergency telephone number
to request that the officers he had spoken to the day before return to PAE’s offices
to speak to Dr. Barrett. JA439:18-440:10; JA44L6-9; JA441:19-442:4; JA443:520. When he telephoned the police on July 13, 2017, Mr. Homer did not believe
that Dr. Barrett posed any emergency. JA439:12-16.
Officer Hall and Officer Luzier were dispatched to PAE’s offices again on
July 13, 2017. JA611:7-9; JA704:16-705:4. The radio dispatch call did not
indicate that the call was high priority. JA612:7-20. As Officer Hall and Officer

aVI-94

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 26 of 68

Luzier drove to PAE’s offices, they did not turn on their emergency lights or
sirens. JA612:21-613:2; JA706:16-22.
When Officer Hall and Officer Luzier arrived at PAE’s offices on July 13,
2017, they spoke with Ms. Wilbom. Ms. Wilbom told them that Dr. Barrett had
told Ms. Wilbom about being followed by black SUVs, about being followed
home, and about an incident in which Dr. Barrett had seen a man in the courtyard
outside of PAE’s office building looking at her and holding a cell phone.
JA614:12-615:4. Ms. Wilbom told the officers that Dr. Barrett had told Ms.
Wilbom that Dr. Barrett had followed that man into the building adjacent to PAE’s
building and watched him get on an elevator and observed what floors the elevator
stopped on. JA615:5-20. In her meeting with Officer Hall and Officer Luzier that
morning, Ms. Wilbom also said Dr. Barrett had said she owned a gun. JA616:3-6.
Ms. Wilbom also said that Dr. Barrett had said that she hoped she would be willing
to defend herself if the time came. JA616:15-20. Finally, Ms. Wilbom said that
Dr. Barrett had said that if she had been stalked overseas, her stalking would have
handled differently there than how she was dealing with it in the United States.
JA616:21-617:12.
Dr. Barrett was then lured into a PAE conference room where she met
Officer Hall and Officer Luzier. JA618:15-20. Dr. Barrett was dressed in business
attire at that time, appeared even-keeled and not disheveled. JA618:5-14. Ms.

aVI-95

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 27 of 68

Wilbom then sat next to Dr. Barrett around a conference table, either in the chair
next to her or one chair away. JA618:21-619:12.
Officer Hall or Officer Luzier asked Dr. Barrett to describe her concerns or
situations that she had experienced in the past few days. JA623:2:6. Dr. Barrett
described being followed by black SUVs and having people ringing her doorbell.
JA624:3-17. She also said that she had contacted the police about those incidents
and they were investigating her claims. JA624:17-19; JA635:1-5.
While Officer Hall remained in the PAE conference room with Dr. Barrett,
Officer Luzier claims he called his supervisor and asked if he would contact the
Fairfax County Police Department via teletype message for information about Dr.
Barrett’s reports. The Fairfax County Police Department did not respond to the
teletype. JA635:11-636:10.
On July 13, 2017, while Officer Hall remained in the PAE conference room
with Dr. Barrett, Officer Luzier also telephoned the Arlington County DHS and
learned that they had no history of mental health encounters with Dr. Barrett.
JA637:16-638:9.
Dr. Barrett also told Officer Hall and Officer Luzier that she had seen a man
outside of PAE’s offices watching her while using his phone. JA625:7-13. Dr.
Barrett described to Officer Luzier and Officer Hall how she had asked the security

aVI-96

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 28 of 68

guard in the lobby of the building adjacent to PAE’s offices about the man who
had been watching her. JA5 37:10-15.
Dr. Barrett told Officers Hall and Luzier that she owned a gun, did not have
a concealed carry permit, had no experience with that firearm, did not have it at
work, and would never bring it to work because she knew PAE did not allow guns
in its office. JA626:16-627:19. Dr. Barrett also told Officers Hall and Luzier that
she hoped that if she had to, she would have the courage defend herself, but
nothing Dr. Barrett said made Officer Luzier think that she was referring to using
her gun when she referred to defending herself. JA628:9-22.
In a police report that Officer Hall wrote on July 13, 2017, after meeting Dr.
Barrett, she noted that Dr. Barrett “told me that she has spoken to various law
enforcement officers and that they told her to become a hard target. She said that
they meant for her to be more vigilant and aware.” JA720. At deposition, Officer
Hall said that “As I understand, her becoming a hard target involved her
purchasing or owning four large dogs, installing a dash cam in her car, as well as a
camera at the front door of her home.” JA713:14-17.
While speaking to Officer Hall and Officer Luzier, Dr. Barrett remained
calm, did not exhibit any violent actions, never threatened herself or others, and
never said that she wanted to hurt others. When asked by Officer Hall or Officer
Luzier whether she intended to harm herself or others, Dr. Barrett said she did not.

aVI-97

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 29 of 68

JA629:9-630:16; JA707:5-10; JA708:17-19. Nevertheless, a paperless ECO was
issued against Dr. Barrett, ostensibly because Dr. Barrett posed a risk both to
herself and to others. JA634:5-18. Officer Hall then drove Dr, Barrett to the
Virginia Hospital Center (“VHC”) emergency room. JA714:8-20; JA720. There is
no evidence in the record - and none in this case - of Dr. Barrett ever confronting
anyone about her stalking, nor of any reports by her co-workers that she was acting
in a threatening manner.
At some point on July 13, 2017, Ms. Wilbom prepared a statement to the
police, at the request of Officer Luzier, purporting to relate what Dr. Barrett had
told Ms. Wilbom on July 11, 2017. JA539:l-6. There is no evidence, however,
that Ms. Wilbom gave her statement to either Officer Luzier or Officer Wilbom
before they issued the ECO.
I.

Mr. Galway meets Dr. Barrett at the hospital.

At the VHC, Mr. Galway was designated by the Arlington County CSB to
examine Dr. Barrett. JA644:7-10. In evaluating Dr. Barrett, Mr. Galway spoke to
Ms. Wilbom. JA645:13-646:21. As part of his examination of Dr. Barrett, Mr.
Galway also telephoned Mr. Lietzau. JA647:6:9; JA653:20-654:13. During his
telephone call with Mr. Lietzau, Mr. Galway said that he did not see much reason
to keep her and was thinking of releasing her. JA581:2-21. Mr. Galway asked Mr.
Lietzau if that concerned him. Mr. Lietzau said that it did not. JA582:1-13.

aVI-98

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 30 of 68

Mr. Lietzau’s answer reflected the fact that before he spoke to Mr. Galway
on July 13, 2017, Mr. Homer and Ms. Wilbom had told Mr. Lietzau what Dr.
Barrett had said to them, but he still believed Dr. Barrett was unlikely to hurt
anyone. JA568:13-572:13; JA573:10-574:16; JA575:11-21; JA583:7-11; JA102:817. Mr. Lietzau testified that he had worked with Dr. Barrett for more than a year,
beginning in May 2016, JA555:18-556:11, and that during that time, he spoke to or
saw Dr. Barrett either daily or several times per week. JAM-17.
While Mr. Lietzau was speaking to Mr. Galway, a work colleague of Dr.
Barrett, Nick Zyznieuski, entered Mr. Lietzau’s office. JA585:1-14. Mr.
Zyznieuski said out loud that he had zero concern that Dr. Barrett would pose a
threat to anyone at PAE. JA585:15-586:2. After Mr. Zyznieuski spoke, Mr.
Lietzau asked Mr. Galway if he heard Mr. Zyznieuski. Mr. Galway gave no
indication that he had not heard Mr. Zyznieuski. JA586:3-14.
Mr. Galway asked Dr. Barrett if she would be willing to surrender her gun,
and Dr. Barrett said she would. JA657:12-15. When asked by Mr. Galway, Dr.
Barrett also agreed to see a psychologist. JA658:11-16. Mr. Galway never asked
Dr. Barrett to commit to a specific person or timeframe for doing so. JA420 If 11.
On the afternoon of July 13, 2017, Mr. Galway signed a Petition for
Involuntary Admission for Treatment to keep Dr. Barrett confined in VHC’s

aVI-99

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 31 of 68

psychiatric ward. JA661:19-662:5; JA725-26. Later on July 13, 2017, a
magistrate judge issued a Temporary Detention Order. JA728-29.
On the morning of July 17, 2017, an independent mental health evaluator
examined Dr. Barrett and concluded that she did not meet the criteria for mental
health involuntary commitment. JA666:13-668:21; JA731-33. Dr. Barrett
remained in VHC’s psychiatric ward until later on July 17, 2017, following a
commitment hearing before a special justice, who dismissed Dr. Barrett’s case. JA
56-57 H 230; JA57-581f237.
IV.

Procedural History.
On August 8, 2018, Dr. Barrett filed her initial complaint in this action. JA3

(ECF No. 1). On October 31, 2018, she filed her Second Amended Complaint.
JA14-74. The Complaint alleges that on or around July 10 or 11, 2017, employees
at PAE, including Mr. Homer (a security manager at PAE) and Ms. Wilbom (an
HR manager at PAE), agreed on a plan to use Dr. Barrett’s reports of being stalked
at the office to claim falsely that she was a threat and danger to others that required
her immediate removal from the office and transportation to a hospital for
examination. They did so to discredit Dr. Barrett and her claims that PAE was
filing false reports on a State Department contract and that PAE had failed to
maintain security in its offices by allowing intruders to enter and harass Dr.
Barrett. Such breaches might jeopardize its business, both current and future.

aVI-100

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 32 of 68

JA32 79. As such, in addition to allegations against Officers Luzier and Hall and
Mr. Galway for violating Dr. Barrett’s constitutional rights and for false arrest, the
Complaint alleged that PAE employees had also violated Dr. Barrett’s rights by
acting jointly with state actors and conspiring with Officers Luzier and Hall and
Mr. Galway. The Complaint contained the following 14 causes of action:
Count 1

Unlawful Seizure under the Constitution Color of State Law; 42 U.S.C. § 1983

Against Officer Areyal
Hall

Count 2

Unlawful Seizure under the Constitution Color of State Law; 42 U.S.C. § 1983

Against Officer Joshua
Luzier

Count 3

Unlawful Seizure under the Constitution Color of State Law; 42 U.S.C. § 1983

Against Sean Homer

Count 4

Unlawful Seizure under the Constitution Color of State Law; 42 U.S.C. § 1983

Against Shanedria
Wilbom

Count 5

Unlawful Seizure under the Constitution Color of State Law; 42 U.S.C. § 1983

Against William Lietzau

Count 6

Civil Conspiracy to Violate Constitutional
Rights

Against Officer Hall,
Officer Luzier, Sean
Homer, Shanedria
Wilbom, and William
Lietzau

Count 7

False Imprisonment

Against Officer Hall

Count 8

False Imprisonment

Against Officer Luzier

Count 9

Civil Conspiracy to Falsely Imprison

Against Officer Hall,
Officer Luzier, Sean
Homer, Shanedria
Wilbom, William Lietzau,
and PAE

aVI-101

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 33 of 68

Count
10

Unlawful Seizure under the Constitution Color of State Law; 42 U.S.C. § 1983

Against Brian Galway

Count
11

Unlawful Seizure under the Constitution Color of State Law; 42 U.S.C. § 1983

Against William Lietzau

Count
12

Civil Conspiracy to Violate Constitutional
Rights

Against Brian Galway
and William Lietzau

Count
13

False Imprisonment

Against Brian Galway

Count
14

Civil Conspiracy to Falsely Imprison

Against Brian Galway,
William Lietzau, and PAE

JA16-17. The damages sought in the Complaint include punitive damages. JA71.
On November 21, 2018, the County Defendants filed a motion to dismiss
Counts 6, 9, and 12-14 and the claim for punitive damages pending against them.
JA75-77. On November 21, 2018, the PAE Defendants also filed a motion to
dismiss, seeking to dismiss all of the claims against them, consisting of Counts 3 -6,
9, 11-12, and 14. JA78-82.
On January 25, 2019, the District Court granted the County Defendants’
Motion to Dismiss. JA119-23. The District Court also granted the PAE
Defendants’ Motion to Dismiss all of the counts against them. JA123-26.
On March 6, 2019, the County Defendants filed their Motion for Summary
Judgment on the remaining claims in the action: Counts 1, 2, and 10 (for Unlawful
Seizure under the Constitution - Color of State Law, in violation of 42 U.S.C.

aVI-102

USCA4 Appeal: 19-1394

Doe: 15

Filed: 06/04/2019

Pg: 34 of 68

§ 1983, against Officer Hall, Officer Luzier, and Mr. Galway, respectively); and
Counts 7 and 8 (for False Imprisonment, against Officer Hall and Officer Luzier,
respectively). JA128-29.
Following a hearing, JA734-65, the District Court on April 9, 2019, issued
an order on the Defendants’ Motion for Summary Judgment. The District Court
declined to dismiss Counts 2 and 8 against Officer Luzier after finding sufficient
evidence to indicate that he had participated in the issuance and enforcement of the
paperless ECO against Dr. Barrett. JA773. The District Court, however, granted
summary judgment for the County Defendants on all the remaining counts in the
Complaint. JA766-785.
On April 15, 2019, Dr. Barrett filed her Notice of Appeal. JA789. This
appeal challenges the District Court’s following rulings:
COUNT DESCRIPTION
COUNT
NUMBER

DEFENDANT

DISTRICT
COURT
DISPOSITION

Count 1

Unlawful Seizure under the
Constitution - Color of State
Law; 42 U.S.C. § 1983

Officer Areyal
Hall

Summary
Judgment
granted to
Officer Hall

Count 2

Unlawful Seizure under the
Constitution - Color of State
Law; 42 U.S.C. § 1983

Officer Joshua
Luzier

Summary
Judgment
granted to
Officer Luzier

aVI-103

USCA4 Appeal: 19-1394

Doe: 15

Filed: 06/04/2019

Pg: 35 of 68

Count 3

Unlawful Seizure under the
Constitution - Color of State
Law; 42 U.S.C. § 1983

Sean Homer

Dismissed for
failure to state a
claim

Count 4

Unlawful Seizure under the
Constitution - Color of State
Law; 42 U.S.C. § 1983

Shanedria Wilbom

Dismissed for
failure to state a
claim

Count 6

Civil Conspiracy to Violate
Constitutional Rights

Officer Hall,
Officer Luzier,
Sean Homer,
Shanedria
Wilbom, and
William Lietzau

Dismissed for
failure to state a
claim

Count 7

False Imprisonment

Officer Hall

Summary
Judgment
granted to
Officer Hall

Count 8

False Imprisonment

Officer Luzier

Summary
Judgment
granted to
Officer Luzier

Count 9

Civil Conspiracy to Falsely
Imprison

Officer Hall,
Officer Luzier,
Sean Homer,
Shanedria
Wilbom, William
Lietzau, and PAE

Dismissed for
failure to state a
claim

Count 10

Unlawful Seizure under the
Constitution - Color of State
Law; 42 U.S.C. § 1983

Brian Galway

Summary
Judgment
granted to Mr.
Galway

aVI-104

USCA4 Appeal: 19-1394

Filed: 06/04/2019

Doc: 15

Pg: 36 of 68

SUMMARY OF ARGUMENT
The Court should reverse the District Court’s dismissal of the counts
alleging conspiracy and joint action between the PAE Defendants and Officers
Hall and Luzier, because the allegations in the Complaint sufficiently allege that
they conspired to seize Dr. Barrett knowing that there was no probable cause to do
so.
The Court should also reverse the District Court’s grant of summary
judgment to Officer Hall, Office Luzier, and Mr. Galway. They had no probable
cause to seize and hold Dr. Barrett, and their actions violated clearly established
rights. They are not entitled to qualified immunity.
ARGUMENT
I.

Standard of review.
This Court’s review of the District Court’s rulings on Defendants’ Motions

to Dismiss is de novo. See Novell, Inc. v. Microsoft Corp., 505 F.3d 302, 307 (4th
Cir. 2007). In reviewing a motion to dismiss under Federal Rule of Civil
Procedure 12(b)(6), the Court must assume “the truth of all facts alleged in the
complaint and the existence of any fact that can be proved, consistent with the
complaint’s allegations.” E. ShoreMkts., Inc. v. J.D. Assocs. Ltd. P’ship, 213 F.3d
175, 180 (4th Cir. 2000). When considering a motion to dismiss, a court “accept[s]
as true all well-plead allegations and view[s] the complaint in the light most

aVI-105

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 37 of 68

favorable to the plaintiff.” Sec. ofState for Defence v. Trimble Navigation Ltd.,
484 F.3d 700, 705 (4th Cir. 2007). Dismissal is appropriate pursuant to Rule
12(b)(6) only if “it appears to be a certainty that the plaintiff would be entitled to
no relief under any state of facts which could be proven in support of its claim.”
Advanced Health-Care Servs., Inc. v. Radford Cmty. Hosp., 910 F.2d 139, 143-44
(4th Cir. 1990).
A complaint should not be dismissed unless it fails to allege “enough facts to
state a claim to relief that is plausible on is face,” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). Facial plausibility is established once the factual content of
a complaint “allows the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 663 (2009).
This Court reviews the district court’s disposition of motions for summary
judgment de novo, viewing all facts and inferences in the light most favorable to
the nonmoving party. Balbed v. Eden Park Guest House, LLC, 881 F.3d 285, 288
(4th Cir. 2018). In doing so, the Court is to refrain from weighing the evidence or
making credibility determinations. Lee v. Town of Seaboard, 863 F.3d 323, 327
(4th Cir. 2017).
Under Federal Rule of Civil Procedure 56(a), “[t]he court shall grant
summary judgment if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.” A dispute

aVI-106

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 38 of 68

is genuine “if a reasonable jury could return a verdict for the nonmoving party,”
and “[a] fact is material if it might affect the outcome of the suit under the
governing law.” Jacobs v. N.C. Admin. Office of the Courts, 780 F.3d 562, 568
(4th Cir. 2015).
“Where, as here, the district court articulates the facts as it viewed them in
determining that summary judgment was inappropriate, [the Court’s] task is
relatively straightforward. [The Court] must accept those facts and then determine
whether, based on those facts, a reasonable person in the defendant’s position
could have believed that he or she was acting in conformity with the clearly
established law at the time.” Bailey v. Kennedy, 349 F.3d 731, 738 (4th Cir. 2003)
(internal quotations and citations omitted).
II.

The District Court erred in dismissing the Joint Action and Conspiracy
claims.
Although liability under 42 U.S.C. § 1983 for violation of an individual’s

civil rights is typically limited to state actors, the allegations in the Complaint
support Section 1983 liability against Mr. Homer and Ms. Wilbom. They do so by
sufficiently alleging that Mr. Homer, Ms. Wilbom, and others conspired with
Officers Luzier and Hall to seize Dr. Barrett on mental health grounds when they
knew that they had no legal basis to do so.

aVI-107

USCA4 Appeal: 19-1394

A.

Doc: 15

Filed: 06/04/2019

Pg: 39 of 68

Law regarding conspiracy to violate Section 1983 and to falsely
imprison.

Civil commitment for any purpose constitutes a significant deprivation of
liberty that requires due process protection. See Addington v. Texas, 441 U.S. 418,
425 (1979). Thus, the Fourth Amendment’s protection against unreasonable
search and seizure requires probable cause before involuntary hospitalization, of
the sort that Dr. Barrett suffered, may be ordered. Bailey, 349 F.3d at 740. “The
law does not permit ‘random or baseless detention of citizens for psychological
evaluations.’” Id. (quoting Gooden v. Howard County, 954 F.2d 960, 968 (4th Cir.
1992)). Thus, an individual may be detained for an involuntary hospitalization
“only if there are reasonable grounds for believing that the person seized is subject
to seizure under the governing legal standard.” Villanova v. Abrams, 972 F.2d
792, 795 (7th Cir. 1992), quoted in Raub v. Campbell, 3 F. Supp. 3d 526, 532
(E.D. Va. 2014).
Section 1983 of Title 42 makes individuals liable for violating another’s
Constitutional rights. 42 U.S.C. § 1983. Ordinarily, liability under Section 1983 is
limited to state actors, such as police officers. However, “private persons who
willfully participate in joint action with a state official act under the color of law”
and thus face liability under Section 1983. Scott v. Greenville County, 716 F.2d
1409, 1422 (4th Cir. 1983) (citation omitted). To sustain such a claim of joint
action, the plaintiff must allege facts showing an agreement or meeting of the

aVI-108

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 40 of 68

minds between the state actor and the private actor to engage in a conspiracy to
deprive the plaintiff of a constitutional right. John Hancock Mut. Life Ins. Co. v.
Anderson, No. 90-1749,1991 U.S. App. LEXIS 11877, at *6 (4th Cir. June 12,
1991).
To establish a conspiracy under Section 1983, a plaintiff must present
evidence that the defendants acted jointly in concert and that some overt act was
done in furtherance of the conspiracy which resulted in the deprivation of a
plaintiffs constitutional right (in this case, the right to be free of an involuntary
hospitalization). See Hafner v. Brown, 983 F.2d 570, 577 (4th Cir. 1992). A
plaintiff need not “produce direct evidence of a meeting of the minds.” He need
only “come forward with specific circumstantial evidence that each member of the
alleged conspiracy shared the same conspiratorial objective.” Hinkle v.
Clarksburg, 81 F.3d 416,421 (4th Cir. 1996). So long as a plaintiff can show that
the conspirators shared the same objective with their conspiracy, “they need not
know all the details of the plan designed to achieve the objective or possess the
same motives for desiring the intended conspiratorial result.” Hampton v.
Hanrahan, 600 F.2d 600, 620-21 (7th Cir. 1979), rev’d in part, 446 U.S. 754
(1980); Roberts v. Ballard, No. 2:15-cv-15458, 2017 U.S. Dist. LEXIS 31858, at
*7-8 (S.D.W. Va. Mar. 7, 2017) (citing Hampton).

aVI-109

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 41 of 68

Under Virginia law, false arrest or false imprisonment is the “restraint of
one’s liberty without any sufficient legal excuse.” Montgomery Ward & Co. v.
Wickline, 188 Va. 485, 489 (1948). False imprisonment consists of imposing
restraint on a person’s freedom of movement by use of fear or force. Jordan v.
Shands, 255 Va. 492, 497 (1998).
Under Virginia law, civil conspiracy consists of (i) an agreement between
two or more persons (ii) to accomplish an unlawful purpose or to accomplish a
lawful purpose by unlawful means, which (iii) results in damage to plaintiff. Glass
v, Glass, 228 Va. 39, 47(1984).
B.

Dr. Barrett has alleged a plausible conspiracy between PAE and
Officers Hall and Luzier to violate Dr. Barrett’s civil rights and to
falsely imprison her.

Here, the Complaint alleges more than enough facts to plausibly allege a
conspiracy between PAE employees and Officers Hall and Luzier to seize Dr.
Barrett on mental health grounds without probable cause, thereby violating her
civil rights, subjecting her to false imprisonment, and allowing Section 1983
liability to flow against Mr. Homer and Ms. Wilbom. The District Court erred in
finding otherwise. JA119-20.

aVI-110

USCA4 Appeal: 19-1394

1.

Doc: 15

Filed: 06/04/2019

Pg: 42 of 68

The Court should reverse the District Court’s dismissal
of Counts 6 and 9, alleging conspiracies to violate Dr.
Barrett’s constitutional rights and to falsely imprison her.

The Court should dismiss the District Court’s denial, for failure to state a
claim, of Counts 6 and 9, alleging conspiracies between PAE and its employees
and Officers Hall and Luzier, to violate Dr. Barrett’s constitutional rights and to
falsely imprison her. The Complaint alleges that Officers Luzier and Hall met with
Mr. Homer, a security officer for PAE, on July 12, 2017, and discussed seizing Dr.
Barrett on mental health grounds and removing her from PAE regardless of how
she acted or what she said to the police. JA34 ^ 91. After realizing that their plan
could not be executed immediately because Dr. Barrett was not in the office that
morning, Officers Luzier and Hall further agreed with Mr. Homer to return the
next day to remove her from PAE’s offices. JA35 f 92. The Complaint also
alleges that when the officers returned to PAE’s offices on July 13, they met with
Mr. Homer, Ms. Wilbom, and Mr. Lietzau to further discuss the seizure of Dr.
Barrett and her removal from PAE’s offices regardless of whether probable cause
existed for them to do so. JA36 98. Those allegations contain the specific
circumstantial evidence that the officers and PAE employees discussed and agreed
upon the same conspiratorial objective: to seize Dr. Barrett and remove her from
her workplace regardless of whether she demonstrated any of the criteria for a
dangerous mentally ill person under Virginia law. See Hinkle, 81 F.3d at 421

aVI-111

USCA4 Appeal: 19-1394

Doc: 15

Filed; 06/04/2019

Pg; 43 of 68

(holding that plaintiff need not allege direct evidence of meeting of the minds but
specific circumstantial evidence showing that each member of alleged conspiracy
shared same conspiratorial objective); Bell v. City ofRoanoke Sheriff’s Office, No.
7:09-cv-00214, 2009 U.S. Dist. LEXIS 120153, at *11 (W.D. Va. Dec. 23, 2009)
(denying motion to dismiss because allegation that sheriffs personnel agreed to
alter surveillance tape provided sufficient circumstantial evidence of conspiracy to
violate plaintiffs rights); Va. Code Ann. 37.2-808(A).
The District Court erred in dismissing the joint action and conspiracy claims
in the Complaint by finding that
fatally missing from these allegations, and the rest of the
Second Amended Complaint, is that the officers knew that
she was not in fact a danger to others but nevertheless
agreed to remove Plaintiff from the workplace and detain
her. Even liberally read, Plaintiff simply alleges that the
officers, called to the scene, decided to remove her after
their discussions with Plaintiffs employers and without
regard to what she might say to them during their
discussion, not that they knew she was not a danger yet
still agreed to detain her.
JA120. But the Complaint contains the exact allegation that Officer Hall and
Officer Luzier knew that Dr. Barrett was not a danger and yet still agreed to detain
her. The Complaint alleges that Officer Hall and Officer Luzier seized Dr. Barrett
even though they knew they had no probable cause to detain her. JA14 f 1, JA 59
Tf 249; JA60 ^ 255. The officers knew that Dr. Barrett had never threatened danger
to herself or others when she spoke to them or to or any PAE employee. JA 30

aVI-112

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 44 of 68

U 70; JA32 U 77; JA33-34 K 85; JA39U 116; JA39-40 If 118. Yet they still detained
her. The Complaint thus alleges, contrary to the District Court’s ruling, that
Officers Hall and Luzier “knew she was not a danger yet still agreed to detain her.”
JA120. In doing so, they executed their agreement with the PAE Defendants to
falsely imprison Dr. Barrett. See Bailey, 349 F.3d at 740. That conspiracy with
Officers Hall and Luzier makes Mr. Homer and Ms. Wilbom liable, as private
parties, for violating Dr. Barrett’s person’s civil rights and subjects them to
liability under Section 1983, as alleged in Counts 3 and 4 of the Complaint. Scott,
716 F.2d at 1422. The agreement between the officers and Mr. Homer and Ms.
Wilbom to detain Dr. Barrett without any lawful authority to do so also makes
them liable for conspiracy to violate Dr. Barrett’s civil rights and for conspiring to
falsely imprison her, as alleged in Counts 6 and 9. See Hafner, 983 F.2d at 577;
Montgomery Ward & Co., 188 Va. at 489; Glass, 228 Va. at 47.
The Court should also reject the mling of the District Court that dismissal
was merited because it does not “allege any motive that Hall and Luzier might
have to engage with those PAE employees in such a concerted effort to cover up
the latter’s criminal conduct.” JA120. The District Court held that because
Officers Hall and Luzier are not alleged to have known about PAE’s attempt at
discrediting Dr. Barrett, they could not have conspired with PAE in seizing her.
JA119-20. But that argument errs on both the nature of the conspiracy being

aVI-113

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 45 of 68

alleged and the law regarding conspiracy under Section 1983. Dr. Barrett does not
claim that Officers Hall and Luzier sought to discredit her as a whistleblower, as
the PAE employees did. Instead, starting from the first numbered paragraph of her
Complaint, Dr. Barrett alleges that Officers Hall and Luzier conspired with PAE
employees to seize and remove her from her office without probable cause to do
so. JAM-15 11 (“Her employer, and three of its employees, planned and
conspired with the police officer to seize plaintiffand remove herfrom her
workplace, whether there were legitimate grounds to do so or not”) (emphasis
added); JA32 If 80; JA34 If 91; JA36198; JA59 If 249; JA60 If 255; JA64 If 281.
Officers Hall and Luzier need not have known about the motive of the PAE
defendants to discredit Dr. Barrett’s allegations of overbilling and security
breaches to agree to the conspiracy that violated her Fourth Amendment rights and
that is at issue now: seizing and involuntarily hospitalizing her without the
probable cause and legal authority to do so. See Everette-Oates v. Chapman, 2017
U.S. Dist. LEXIS 180038, at *15 (E.D.N.C. Oct. 31,2017); McDaniel v.
Maryland, No. RDB-10-00189, 2010 U.S. Dist. LEXIS 84784, at *35-36 (D. Md.
Aug. 18, 2010). In those cases, which post-date the Iqbal and Twombly standards
for plausibility in pleadings, the courts determined the existence of a conspiracy to
violate an individual’s civil rights without discussing a motive of the conspirators.
In Everette-Oates, the court rejected a motion to dismiss based on a claim that the

aVI-114

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 46 of 68

motive of the defendant to join the conspiracy was implausible. Motive, the
Everette-Oates court held, “is irrelevant to whether plaintiff has stated a claim for
§ 1983 conspiracy.” Everette-Oates, 2017 U.S. Dist. LEXIS 180038, at *14.
Continuing, the court held, “It is not an element of a § 1983 claim that plaintiff
must allege an additional underlying ‘motive’ for defendants’ common and
unlawful plan.” Id. at *15-16. In McDaniel, the court denied a motion to dismiss
claim of conspiracy to violate Section 1983 where police officers allegedly met on
roadside before confronting plaintiff to devise pretextual reason for baseless traffic
stop of plaintiff, analogous to the agreement in this case between the PAE
employees and Officers Luzier and Hall to seize Dr. Barrett without a lawful basis
to do, on the pretext that she was dangerous due to a mental illness. McDaniel,
2010 U.S. Dist. LEXIS 84784, at *35-36. The Court should reject any argument
that McDaniel is distinguishable because the plaintiff there alleged that the police
officers had pulled him over to racially profile him. In McDaniel, stopping a
motorist due to his race does not describe a motive; it describes the overt act of the
conspiracy to violate the motorist’s rights. Thus, McDaniel found the existence of
a conspiracy to violate Section 1983 without any discussion of motive. See id.
In holding that “motive” need not be alleged for a conspiracy under Section
1983, the Everette-Oates court also held that unlike other civil rights statutes, such
as 42 U.S.C. § 1985, no motive of a specific class-based animus is required under

aVI-115

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 47 of 68

Section 1983. Id. at *16 n.2. In this case, however, the District Court improperly
imputed just such a pleading requirement of a “motive” into a Section 1983 claim,
even though it contains no such requirement. The Court should, therefore, reverse
the District Court’s dismissal of the conspiracy claims in this case.
2.

The Court should reverse the District Court’s dismissal of
Counts 3 and 4.

The Court should also reverse the District Court’s dismissal of Counts 3 and
4, which allege that Mr. Homer and Ms. Wilbom are liable to Dr. Barrett under
Section 1983 because they conspired with Officers Hall and Luzier to deprive Dr.
Barrett of her constitutional right to be free from involuntary hospitalization. The
District Court dismissed these counts, JA124-25, after erroneously finding that Dr.
Barrett “does not allege that the governmental Defendants ... had any knowledge
of the PAE Defendants’ alleged conspiracy to have Plaintiff involuntarily
committed in order to cover up their alleged criminal activity.” JA125. But as
discussed in the immediately preceding section, the conspiracy between the PAE
employees and Officers Hall and Luzier was not generally to help PAE cover up
their wrongful acts. The conspiracy involved the agreement between PAE, its
employees, and Officers Hall and Luzier to seize Dr. Barrett without probable
cause to do so. And as described above, the Complaint sufficiently alleges that Mr.
Homer and Ms. Wilbom willfully participated in joint action with Officers Hall
and Luzier by conspiring with them to violate Dr. Barrett’s constitutional rights.

aVI-116

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 48 of 68

JA14-15 f 1; JA32 J 80; JA34 If 91; JA36 J 98; JA59 If 249; JA60 If 255; JA64
Tf 281. That makes them liable for violating Section 1983. See Scott, 716 F.2d at
1422; John HancockMut. Life Ins. Co., 1991 U.S. App. LEXIS 11877, at *6.
3.

The Court should reverse the District Court’s premature
and erroneous dismissal of Dr. Barrett’s claim for punitive
damages.

Finally, the Court should reverse the District Court’s dismissal of Dr.
Barrett’s claim for punitive damages. JA123. In dismissing Dr. Barrett’s claim for
punitive damages, the District Court failed to address the authority holding that a
demand for punitive damages is not properly considered on a motion to dismiss.
Federal Rule of Civil Procedure 12(b)(6) does not provide a vehicle to dismiss a
portion of relief sought or a specific remedy, but only to dismiss a claim in its
entirety. See Charles v. Front Royal Vol. Fire & Rescue Dep ’t, Inc., 21 F. Supp.
3d 620, 629, 631-32 (W.D. Va. 2014); see also Douglas v. Miller, 864 F. Supp. 2d
1205, 1220 (W.D. Okla. 2012) (prayer for relief not part of the cause of action so
punitive damages not subject to 12(b)(6) dismissal); Oppenheimer v. Sw. Airlines
Co., 2013 U.S. Dist. LEXIS 85633, 2013 WL 3149483, at *4 (S.D. Cal. June 17,
2013) (“requests for punitive damages provide no basis for dismissal under Fed. R.
Civ. P. 12(b)(6)” and collecting authority in support). Those cases are consistent
with the operation of the Federal Rules of Civil Procedure. Rule 8(a), which
defines the general rule for pleading, states, “[a] pleading that states a claim for

aVI-117

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 49 of 68

relief must contain” three separate elements: (1) the basis of jurisdiction; “(2) a
short and plain statement of the claim showing that the pleader is entitled to relief;
and (3) a demand for the relief sought..Fed. R. Civ. P. 8(a). Thus, under the
plain terms of Rule 8(a), a demand for relief is not part of the “statement of the
claim,” and is only one part of the “claim for relief.” Id.; see also Charles, 21 F.
Supp. 3d at 631 (a “demand for relief is not part of a plaintiffs statement of the
claim”). Because Rule 12(b)(6) “may be used only to dismiss a ‘claim’ in its
entirety[,]” id., it is not available to dismiss only a demand for relief.
Even if Defendants’ Motions to Dismiss were an appropriate vehicle to seek
dismissal of Dr. Barrett’s demand for punitive damages, such dismissal would still
be inappropriate. As the District Court noted, punitive damages can be awarded
when the defendant’s conduct is shown to be motivated by evil motive or intent or
when it involves reckless or callous indifference to the federally protected rights of
others. JA123 (citing Woods v. Mendez, 265 Va. 68, 76 (2003)). The nature of
Section 1983 violations, however, mean that the standards of proof for liability
under Section 1983 and punitive damages under section 1983 are “essentially the
same.” See Cooper v. Dyke, 814 F.2d 941, 948 & n.5 (4th Cir. 1987). Because the
District Court could not determine, as a matter of law on a Motion to Dismiss, that
no liability existed for the County Defendants under Section 1983, it had no basis
to dismiss Dr. Barrett’s claim for punitive damages. See id.; see also

aVI-118

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 50 of 68

North Carolina ex rel. Wellington v. Antonelli, No. 1:01CV01088, 2002 U.S. Dist.
LEXIS 24677, at *15 (M.D.N.C. Dec. 20, 2002) (rejecting motion to dismiss
punitive damages in Section 1983 case because “At this early stage of litigation,
the court cannot ascertain the nature of Defendants’ conduct as a matter of law”).
While the District Court did subsequently determine that the County Defendants
had not violated Dr. Barrett’s constitutional rights in violation of Section 1983, it
did so in error, as discussed further below. For those reasons, the Court should
reverse the District Court’s dismissal of Dr. Barrett’s claim for punitive damages.
V.

The District Court erred in awarding summary judgment to Officer
Hall, Officer Luzier, and Mr. Galway.
The Court should also reverse the District Court’s grant of summary

judgment to Officer Hall, Officer Luzier, and Mr. Galway on the counts against all
three of them alleging the violation of Dr. Barrett’s civil rights (Counts 1, 2 and
10) and against Officer Hall and Officer Luzier for false imprisonment (Counts 7
and 8). The District Court awarded summary judgment to the County Defendants
after extending qualified immunity to them against Dr. Barrett’s claims of civil
rights violations. But they are not entitled to qualified immunity because they
seized Dr. Barrett without probable cause and violated clearly established law in
doing so.

aVI-119

USCA4 Appeal: 19-1394

A.

Doc: 15

Filed: 06/04/2019

Pg: 51 of 68

Standard for qualified immunity.

Determining whether a state officer is entitled to qualified immunity is a
two-part inquiry. First, a court must decide whether a constitutional right would
have been violated on the facts alleged. Next, assuming that the violation of the
right is established, a court must consider whether the right was clearly established
at the time such that it would be clear to an objectively reasonable officer that his
conduct violated that right. Bailey, 349 F.3d at 739.
Considering first Dr. Barrett’s unlawful seizure claim, the Court must assess
whether the facts alleged, taken in the light most favorable to Dr. Barrett, indicate
that Officers Hall and Luzier had probable cause to seize Dr. Barrett for an
emergency mental health evaluation. See Bailey, 349 F.3d at 739. Probable cause
is a “practical, nontechnical conception” that addresses the “the factual and
practical considerations of everyday life on which reasonable and prudent men, not
legal technicians, act.” Illinois v. Gates, 462 U.S. 213, 231 (1993).
Because probable cause was lacking for her seizure and detention, Dr.
Barrett has successfully asserted the violation of a constitutional right
specifically her Fourth Amendment right against unreasonable seizure - and the
Court may move on to the other prong of its qualified immunity analysis. Bailey,
349 F.3d at 739. A right is “clearly established” if “‘the contours of the right [are]
sufficiently clear”’ so that a reasonable officer would have understood, under the

aVI-120

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 52 of 68

circumstances at hand, that his behavior violated the right. Wilson v. Layne, 526
U.S. 603, 615 (1999) (quoting Anderson v. Creighton, 483 U.S. 635, 640 (1987)).
The inquiry is an objective one, dependent not on the subjective beliefs of the
particular officer at the scene, but instead on what an objectively reasonable officer
would have understood in those circumstances. Bailey, 349 F.3d at 741.
In deciding whether the right alleged to have been violated was clearly established,
the Court must define the right “at a high level of particularity.” Bailey, 349 F.3d
at 741. The requisite level of particularly in this case means inquiring whether it
was clearly established that a police officer and county mental health assessor may
not detain someone for an emergency mental health evaluation based on a non­
emergency call to speak with an individual who never threatened harm to herself or
others, who spoke of violence against those stalking her only to disavow its use,
who welcomed police contact to help her with her stalking, and who never
confronted any of the persons she believed to be stalking her, even after she
believed she had recently discovered the location of a possible stalker. See id.
(defining requisite level of particularity in that case as whether “it was clearly
established that a police officer may not detain someone for an emergency mental
health evaluation based only on a 911 report that the person was suicidal, where
the officers were able to observe the person alleged to be suicidal and observed
nothing indicating that the person might have been a danger to himself’).

aVI-121

USCA4 Appeal: 19-1394

B.

Doc: 15

Filed: 06/04/2019

Pg: 53 of 68

The County Defendants lacked probable cause to seize and detain
Dr. Barrett.

Reversal is required because the District Court failed to properly examine
the evidence of what Dr. Barrett actually told Mr. Homer and Ms. Wilbom, as
reflected in their own testimony and the testimony of Mr. Lietzau. Dr. Barrett’s
statements to Mr. Homer and Ms. Wilbom determined what they told Officer Hall,
Officer Luzier, and Mr. Galway and determined whether probable cause existed.
The District Court correctly noted that “the liability of these Defendants turns on
whether, based on the information they had, their decisions were unreasonable
under the clearly established law.” JA775. But nothing that Dr. Barrett told Mr.
Homer or Ms. Wilbom created any probable cause for the County Defendants to
seize Dr. Barrett and lock her in a psychiatric unit for five days. Their actions
were unreasonable under clearly established law. There is no basis, therefore, to
extend qualified immunity to Officer Homer, Office Luzier, and Mr. Galway or to
excuse them from the false arrest of Dr. Barrett.
1.

Dr. Barrett told nothing to Mr. Horner or Ms. Wilborn that
indicated to Officer Hall or Officer Luzier that she was a
threat.

The evidence shows that Dr. Barrett said nothing to Mr. Homer or Ms.
Wilbom to make them think that she was a threat to herself or others. Thus,
nothing that Mr. Homer or Ms. Wilbom said about their conversations with Dr.

aVI-122

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 54 of 68

Barrett to Officer Hall or Officer Luzier gave them probable cause to detain Dr.
Barrett.
First, regarding Mr. Homer:
• When he telephoned the police, he was not doing so to alert the police
that Dr. Barrett posed a danger to herself or others but to inquire
whether they would be able to help her, including whether they could
investigate her stalking claims. JA435:4-436:5.
• When Dr. Barrett described to Mr. Homer the incident involving the
man outside of her office on July 6, she never told him that she had
traveled up to the eleventh floor. Rather than attempt to confront the
man, she told Mr. Homer that she had stayed in the lobby instead and
spoke to the guard. Mr. Homer’s notes of the conversation confirm
her statement. JA445:13-447:12.
• Mr. Homer never told Officer Luzier and Officer Hall that he was
concerned that Dr. Barrett would harm herself or others. JA607:6-9.
• Mr. Homer told Officer Hall and Officer Luzier that Dr. Barrett knew
she was not permitted to bring a gun inside PAE’s offices. JA699:1 -7.
Then, Ms. Wilbom testified to the following about her conversation with Dr.
Barrett on July 11, 2019:

aVI-123

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 55 of 68

• Dr. Barrett did not act violently, threaten anyone or indicate that she
intended or planned to undertake any violent act towards herself or
others. JA531:19-532:14; JA533:21-534:3; JA540:17-542:26.
• Dr. Barrett never said that she, herself, intended to take the phone
away from the man she had observed in the courtyard outside her
office building on July 6. JA419 f 8; JA529:18-530:4.
• Dr. Barrett said becoming a “hard target” involved passive acts such
as installing security cameras and taking different routes to work.
JA536:12-21.
• Dr. Barrett never said she intended to harm any Pakistani men, and
when discussing the treatment of stalkers in the Middle East, she was
merely recounting some advice that Afghan acquaintances had given
her about how Afghans - but not Dr. Barrett - would deal with
stalking in the Middle East - not in the United States. Dr. Barrett
never said she intended to follow the advice in this country. JA37:1217; JA527:9-18; JA541:16-542:20.
• Dr. Barrett, when discussing the comments that President Trump had
made about dropping bombs on Pakistan, was merely commenting on
a political statement, and Dr. Barrett’s comment did not lead Ms.

aVI-124

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 56 of 68

Wilbom to conclude that Dr. Barrett intended to hurt other people.
JA525:13-526:22.
• Ms. Wilbom testified that although she thought it was possible that
Dr. Barrett might mistake a PAE employee for one of her stalkers,
Ms. Wilbom did not conclude that Dr. Barrett would harm that
person. JA234:10-235:13; JA237:11-20. In addition, Mr. Lietzau
testified that Dr. Barrett never mistook any of her South Asian or
Middle Eastern co-workers for persons who were stalking her.
JA579:18-580:15.
In short, nothing that Dr. Barrett said to Mr. Homer or Ms. Wilbom
indicated that Dr. Barrett intended to harm herself or others, and so nothing they
would have told the police would have reasonably indicated probable cause that
Dr. Barrett was a threat to herself or others. The District Court, in reaching the
opposite conclusion, relied on a written report that Ms. Wilbom provided to
Officer Hall and Officer Luzier. JA776 (citing JA218-19). Some of the statements
in that report actually indicate Dr. Barrett’s disavowal of violence, such as Dr.
Barrett’s statement that if she had been stalked overseas, people there would have
been handled it differently from how Dr. Barrett had reacted in the United States.
JA776. But in any case, there is no evidence in the record that Ms. Wilbom ever
provided that statement to the police before they issued the ECO for Dr. Barrett.

aVI-125

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 57 of 68

JA539:l-6. In that case, the document is far less reliable as an accurate reflection
of what Ms. Wilbom told the police, and could just as easily be a document drafted
to justify the issuance of the ECO, after the fact.
2.

Dr. Barrett told nothing to Officer Hall or Officer Luzier
indicating that she was a threat.

Similarly, when speaking to Officer Hall and Officer Luzier, Dr. Barrett said
and did nothing that indicated her intent to harm herself or others:
• Dr. Barrett was dressed in business attire and appeared even-keeled
and not disheveled. JA618:5-14.
• She remained calm and did not exhibit any violent actions. JA708:1719.
• She never threatened herself or others. She never said that she wanted
to hurt others. JA707:5-10.
• She said she did not intend to harm herself or others. JA629:14-19.
• She hoped that if she had to, she would have the courage defend
herself, but nothing Dr. Barrett said made Officer Luzier think that
she was referring to using her gun when she referred to defending
herself. JA628:9-22.
• Officer Luzier telephoned the Arlington County DHS and learned that
they had no history of mental health encounters with Dr. Barrett.
JA637:16-638:9.

aVI-126

USCA4 Appeal: 19-1394

Doc: 15

'

Filed: 06/04/2019

Pg: 58 of 68

In her police report, Officer Hall wrote that Dr. Barrett “told me that she has
spoken to various law enforcement officers and that they told her to become a hard
target.” JA720. But Officer Hall also wrote that becoming a hard target merely
“meant for [Dr. Barrett] to be more vigilant and aware.” JA720. She also testified
that her understanding of becoming a hard target involved only Dr. Barrett
“purchasing or owning four large dogs, installing a dash cam in her car, as well as
a camera at the front door of her home.” JA713:10-17. Becoming a hard target
involved only passive measures and did not involve purchasing or owning a gun or
committing any act of violence.
Dr. Barrett’s involvement with the building adjacent to PAE’s offices does
not justify qualified immunity or summary judgment because of the substantial
questions of material fact about that episode, arising from the conflicting accounts
of Mr. Homer, Ms. Wilbom, Dr. Barrett, and the County Defendants about
whether Dr. Barrett took the elevator up the floor of that building where she
believed her stalker could be. JA424:16-18; JA445:13-447:12; JA615:5-20. Even
Officer Hall and Officer Luzier disagreed with each other on what Dr. Barrett told
them about that subject. JA625:7-18; JA711:11-712:3. This conflicting testimony,
at most, gives rise to genuine questions of material fact about Dr. Barrett’s actions
in the building across the courtyard from PAE, thus precluding summary judgment.

aVI-127

USCA4 Appeal: 19-1394

Doc: 15

3.

Filed: 06/04/2019

Pg: 59 of 68

Officers Hall and Luzier’s actions indicate that Dr. Barrett
was not a threat.

The actions of Officer Hall and Officer Luzier also demonstrate the lack of
urgency justifying probable cause. First, on July 12, 2017, Officer Hall and
Officer Luzier arrived at PAE’s offices in response to Mr. Homer’s non­
emergency call. JA427:2-7; JA428:4-14; JA429:22-430:3. Neither Officer Hall
nor Officer Luzier traveled to PAE’s offices with their emergency lights or sirens
activated in their police cars. JA602:17-603:1; JA696:4-7. Second, nothing Mr.
Homer told the officers about Dr. Barrett on July 12, 2017 actually motivated
Officer Hall or Officer Luzier to do anything that day; they left PAE’s offices on
July 12, 2017 without taking any further actions regarding Dr. Barrett that day.
JA701:22-702:5. When Officer Hall and Officer were dispatched to return to PAE
on July 13, the radio dispatch call did not indicate that the call was high priority.
JA612:7-20. As Officer Hall and Officer Luzier drove to PAE’s offices the second
time, they did not turn on their emergency lights or sirens. JA612:21-613:2;
JA706:16-22. Nothing about what Mr. Homer or Ms. Wilbom told the officers
created probable cause to seize Dr. Barrett; nothing about what Dr. Barrett said to
the officers created probable cause, and the officers’ own actions indicate the lack
of probable cause.

aVI-128

USCA4 Appeal: 19-1394

C.

Doc: 15

Filed: 06/04/2019

Pg: 60 of 68

Case law shows that Dr. Barrett’s seizure violated clearly
established law.

The issuance of a paperless ECO against Dr. Barrett, contrary to the finding
of the District Court, JA778, violated clearly established law, as shown from a
comparison of Dr. Barrett’s circumstances to existing cases in which the plaintiff
was also subject to involuntary hospitalization. Such law exists from the Fourth
Circuit’s examination of mental health detentions. See Raub v. Campbell, 785
F.3d 876 (4th Cir. 2015) (“our cases and the governing statutes provide some
guidance as to the standards for probable cause to seize someone for a mental
health evaluation”).
In Gooden v. Howard County, 954 F.2d 960 (4th Cir. 1992), police were
“hurriedly called to the scene of a disturbance” where they received eyewitness
reports of screaming and repeatedly heard screaming that indicated to them that
someone was being hurt. Id. at 962, 965. No urgent call was made in Dr. Barrett’s
case, JA JA427:2-7; JA439:5-11, and after the police arrived in response to a non­
emergency dispatch, the police witnessed only typical office place demeanor from
Dr. Barrett, JA708:17-19, not screaming typical of an injured person.
In S.P. v. City of Takoma Park, an emergency dispatcher sent police to a
man who said his wife might commit suicide. The distraught, crying woman made
statements including “I want to leave this earth.” 134 F.3d 260, 254, 273 (4th Cir.
1998). In Raub, the person seized had written Facebook messages threatening

aVI-129

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 61 of 68

“revenge” and “the start of you dying.” 785 F.3d at 878. He refused to say if he
intended to commit violence, and when asked if he intended to follow through on
his threats, he said “I certainly do.” Id. at 879. During questioning, the individual
wore only a pair of shorts and experienced rapid mood swings. Id. at 879-80. Dr.
Barrett, by contrast, remained calm in denying any desire to harm herself or others,
and when asked if she meant to threaten others, she disavowed violence as the path
of others elsewhere. JA527:9-18; JA541:16-542:20. In Cloaninger v. McDevitt,
555 F.3d 324 (4th Cir. 2009), the person seized allegedly threatened to kill himself
and police officers, and medical providers told the police that the man had a history
of threatening suicide. Id. at 328. The officers also believed he had a gun in his
home. Id. at 332. In contrast, Dr. Barrett made no threats against the police, and
the police learned that Dr. Barrett had no history of encounters with the Arlington
DHS. JA637:16-638:9.
While Dr. Barrett did own a gun, mere gun ownership could not constitute
probable cause to seize her; if it did, the Second Amendment right to bear arms
would be a dead letter. The Supreme Court, however, has made it clear that the
Second Amendment has both force and vitality to individuals such as Dr. Barrett.
See District of Columbia v. Heller, 554 U.S. 570, 592(2008), McDonald v. City of
Chicago, 561 U.S. 742, 749 (2010).

aVI-130

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 62 of 68

Dr. Barrett’s case is thus analogous to Bailey, where police seized a person
solely on the basis of a 911 call and in which the Fourth Circuit rejected a claim of
qualified immunity. Bailey, 349 F.3d at 741-42. It is also analogous to this
Court’s decision in Goines v. Valley Community Services Board, 822 F.3d 159 (4th
Cir. 2016), in which the allegations in the complaint led the Court to deny qualified
immunity to the police officers who had involuntarily committed an individual.
While Goines did own a gun, he offered to relinquish it, id. at 164, just as Dr.
Barrett had. JA657:12-15. Goines made no threats to himself or others and had,
like Dr. Barrett, initially approached the police thinking they were there to help.
Goines, 822 F.3d at 170. The police simply refused to listen to Goines, as Officer
Flail and Officer Luzier refused to do with Dr. Barrett. JA609:14-610:6;
JA701:22-702:5; JA703:19-704:8. The Goines Court also faulted the police for
refusing to conduct further investigation into Goines’ actual complaint: “Further
inquiry is useful in the sorts of situations where officers are not presented with
emergency circumstances or a ‘substantial likelihood’ of harmful behavior.” Id. at
170-71. In Dr. Barrett’s case, Officer Hall and Officer Luzier were not presented
with an emergency circumstance. Yet they, too, refused to investigate Dr.
Barrett’s claims of stalking and instead simply assumed that they were the wholly
the product of mental illness.

aVI-131

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 63 of 68

These cases show that Officer Hall and Officer Luzier seizure of Dr. Barrett
was unreasonable, lacked probable cause, and cannot support qualified immunity
for Officer Hall and Luzier. And, because the detention of an individual for a
mental health emergency without probable cause constitutes both a Fourth
Amendment violation and false imprisonment, Bailey, 349 F.3d at 742, Officer
Hall and Officer Luzier are liable for false imprisonment of Dr. Barrett as well.
D.

The District Court erred in extending qualified immunity to Mr.
Galway.

For reasons similar to Officer Hall and Officer Luzier, Mr. Galway is not
entitled to qualified immunity. The information he had did not permit him to
lawfully extend Dr. Barrett’s detention. After Mr. Galway told Mr. Lietzau that he
intended to release Dr. Barrett, JA581:2-21, Mr. Lietzau told Mr. Galway that he
knew what Mr. Homer and Ms. Wilbom had told the police but still believed that
Dr. Barrett was not a threat to herself or others. JA568:13-572:13; JA573:10574:16; JA575:11-21; JA583:7-11; JA102:8-17. Then, while Mr. Lietzau was
speaking to Mr. Galway, Dr. Barrett’s work colleague, Nick Zyznieuski, said out
loud for Mr. Galway to hear that he had zero concern that Dr. Barrett would pose a
threat to anyone at PAE. JA585:15-586:2.
Dr. Barrett also told Mr. Galway that she was willing to surrender her gun,
JA657:12-15, and she agreed with him to see a psychologist. JA658:11-16.
Crucially, because Dr. Barrett volunteered for treatment, she no longer met the

aVI-132

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 64 of 68

statutory criteria for a TDO. That statute permits a TDO only if an individual is
“unwilling to volunteer or incapable of volunteering for hospitalization or
treatment.” Va. Code Ann. § 37.2-809(B) (emphases added). Dr. Barrett was
willing to volunteer, and had volunteered, for treatment. At that point, Mr. Galway
had no basis to seek a TDO against her. Id.
The District Court cited Mr. Galway’s reliance on Ms. Mapes’ email
describing the phone call she had had with Mr. Homer, but that email contained
her interpretation of the second-hand and third-hand information about Dr.
Barrett’s statements. JA267. Reports about Dr. Barrett in that email were much
less reliable than the first-hand evaluation of a non-threatening Dr. Barrett, which
Mr. Galway should have relied upon to release her - indeed, there is evidence that
Mr. Galway came close to doing just that, as he told Mr. Lietzau. JA581:2-21.
The District Court gave credence to Mr. Galway’s claim that despite his
doubts and despite Dr. Barrett’s willingness to give up her gun and seek mental
health treatment, he needed to detain her to address a “perceived acute risk.”
JA785 (emphasis added). But it was unreasonable for Mr. Galway to perceive an
“acute” risk. Nothing had occurred in the preceding months and days that
established any such risk. By July 2017, Dr. Barrett had been observing stalking
behavior for fifteen months, without ever confronting any of her stalkers. JA548;
JA684-88. The events of July 6, 2017, involving the man from the adjacent office

aVI-133

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 65 of 68

building, had occurred a full week before Defendants encountered Dr. Barrett.
JA122:3-21; JA512. In that time, she took no action to confront the next-door
stalker herself. Instead, Dr. Barrett continued doing what first started doing when
she contacted the Fairfax County Police in July 2016, JA684: she turned to
individuals she thought she could trust to investigate her stalking through
nonviolent means. That included Mr. Lietzau, JA455:8-13; JA456:11-17; Mr.
Homer, JA423:5-12; JA425:14-21; Ms. Wilbom, JA419 Tf 8, and even the
Arlington County Police Department, whom both Mr. Homer and Dr. Barrett
believed, at least initially, could help Dr. Barrett investigate her stalking. JA438:522; JA483:21-484:2. The incident-free week after the events of July 6 should have
indicated to Mr. Galway (and earlier, to Officers Hall and Galway) that Dr. Barrett
was not substantially likely to harm herself or others in the near future. That
finding of a threat of immediate harm, as required by statute, Va. Code Ann.
§ 37.2-809(B), was missing from Mr. Galway’s conclusion. By petitioning to
confine her under a TDO anyway, Mr. Galway violated Dr. Barrett’s Fourth
Amendment rights and falsely imprisoned her.
CONCLUSION
For the reasons set forth above, the Court should reverse the District Court’s
dismissal of Counts 3, 4, 6, and 9 of the Complaint and remand the action for
further proceedings. The Court should further reverse the District Court’s grant of

aVI-134

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 66 of 68

summary judgment to the County Defendants on Counts 1, 2, 7, 8, and 10 and
remand the action for further proceedings.
Respectfully Submitted,
/s/ Hans H. Chen
Peter C. Cohen
Hans H. Chen
Charlson Bredehoft Cohen & Brown, P.C.
11260 Roger Bacon Drive, Suite 201
Reston, Virginia 20190
(703)318-6800
Counsel for Appellant

aVI-135

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 67 of 68

CERTIFICATE OF COMPLIANCE
1.

This brief complies with type-volume limits because, excluding the parts of
the document exempted by Fed. R. App. P. 32(f) (cover page, disclosure
statement, table of contents, table of citations, statement regarding oral
argument, signature block, certificates of counsel, addendum, attachments):
[ X ] this brief contains [12,872] words.
[ ] this brief uses a monospaced type and contains [state the number of\
lines of text.

2.

This brief document complies with the typeface and type style requirements
because:
[ X ] this brief has been prepared in a proportionally spaced typeface using
[Microsoft Word 2016] in [14pt Times New Roman]; or
[ ] this brief has been prepared in a monospaced typeface using [state
name and version of word processing program] with [state number of
characters per inch and name of type style].

Dated: June 4, 2019

/s/ Hans H. Chen
Counselfor Appellant

aVI-136

USCA4 Appeal: 19-1394

Doc: 15

Filed: 06/04/2019

Pg: 68 of 68

CERTIFICATE OF FILING AND SERVICE
I hereby certify that on this 4th day of June, 2019,1 caused this Brief of
Appellant and Joint Appendix to be filed electronically with the Clerk of the Court
using the CM/ECF System, which will send notice of such filing to all registered
CM/ECF users.
I further certify that on this 4th day of June, 2019,1 caused the required
copies of the Brief of Appellant and Joint Appendix to be hand filed with the Clerk
of the Court.
/s/ Hans H. Chen
Counselfor Appellant

aVI-137

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 1 of 68

Jn QHjf

Otnitcf) states CCrrurt of Appeals
War CEtfF iFmtrilj (Etrcutt

KERRIN BARRETT,
Plaintiff - Appellant,
v.

PAE GOVERNMENT SERVICES, INC.;
AREYAL HALL, Officer, Arlington County Police Department;
WILLIAM K. LIETZAU; SEAN HORNER;
SHANEDRIA WILBORN; BRIAN GALWAY;
JOSHUA LUZIER, Officer,
Defendants - Appellees.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
AT ALEXANDRIA
BRIEF OF APPELLEES
Charles M. Elmer
Jackson Lewis P.C.
10701 Parkridge Boulevard, Suite 300
Reston, Virginia 20191
(703) 483-8300

Ara L. Tramblian
Bancroft, McGavin,
Horvath & Judkins, P.C.
9990 Fairfax Boulevard, Suite 400
Fairfax, Virginia 22030
(703) 385-1000
Ryan Samuel
County Attorney’s Office
2100 Clarendon Boulevard, Suite 403
Arlington, Virginia 22201
703-228-3100

Crystal L. Tyler
Meredith F. Bergeson
Jackson Lewis P.C.
Post Office Box 85068
Richmond, Virginia 23285
(804) 649-0404

Counsel for Appellees
Areyal Hall, Brian Galway,
and Joshua Luzier

Counsel for Appellees PAE Government
Services, Inc., William Lietzau,
Sean Horner, and Shanedria Wilborn
aVI-138

USCA4 Appeal: 19-1394

Doc: 49

FMddO9M0S0fl!$9

Pggl2)f)£68

UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
DISCLOSURE OF CORPORATE AFFILIATIONS AND OTHER INTERESTS
Disclosures must be filed on behalf of aU parties to a civil, agency, bankruptcy or mandamus
case, except that a disclosure statement is not required from the United States, from an indigent
party, or from a state or local government in a pro se case. In mandamus cases arising from a
civil or bankruptcy action, all parties to the action in the district court are considered parties to
the mandamus case.
Corporate defendants in a criminal or post-conviction case and corporate amici curiae are
required to file disclosure statements.
If counsel is not a registered ECF filer and does not intend to file documents other than the
required disclosure statement, counsel may file the disclosure statement in paper rather than
electronic form. Counsel has a continuing duty to update this information.
No. 19-1394

Caption: Kerrin Barrett v. PAE Government Services, et al.

Pursuant to FRAP 26.1 and Local Rule 26.1,
Areyal Hall, Joshua Luzier, and Brian Galway

(name of party/amicus)

, makes the following disclosure:
(appellant/appellee/petitioner/respondent/amicus/intervenor)
who is

appellees

1.

Is party/amicus a publicly held corporation or other publicly held entity? □ YES f/lNO

2.

□ YES0NO
Does party/amicus have any parent corporations?
If yes, identify all parent corporations, including all generations of parent corporations:

3.

Is 10% or more of the stock of a party/amicus owned by a publicly held corporation or
other publicly held entity?
□ YES [71 NO
If yes, identify all such owners:

09/29/2016 SCC

- 1 -

aVI-139

USCA4 Appeal: 19-1394

4.

Doc: 49

FffaddO@M0S0fl)$9

P^g23)fc£68

Is there any other publicly held corporation or other publicly held entity that has a direct
financial interest in the outcome of the litigation (Local Rule 26.1(a)(2)(B))? □ YES (3 MO
If yes, identify entity and nature of interest:

5.

□yes E no
Is party a trade association? (amici curiae do not complete this question)
If yes, identify any publicly held member whose stock or equity value could be affected
substantially by the outcome of the proceeding or whose claims the trade association is
pursuing in a representative capacity, or state that there is no such member:

6.

Does this case arise out of a bankruptcy proceeding?
If yes, identify any trustee and the members of any creditors’ committee:

Date:

Signature:

□yesHno

April 17, 2019

7
Counsel for: Appellees Hall, Luzier, and Galway

CERTIFICATE OF SERVICE
Jr ★ * * Jr Jr * Jr Jr Jr Jr ★ * Jr Jr Jr Jr JrJr Jr * Jr Jfc Jr Jr ★

April 17, 2019
the foregoing document was served on ail parties or their
I certify that on__________
counsel of record through the CM/ECF system if they are registered users or, if they are not, by
serving a true and correct copy at the addresses listed below:
Charles M. Elmer, Meredith F. Bergeson, Crystal
Peter C. Cohen, Hans H. Chen
CHARLSON BREDEHOFT COHEN & BROWN, P.C. Tyler
JACKSON LEWIS P.C.
11260 Roger Bacon Drive, Suite 201
10701 Parkridge Boulevard, Suite 300
Reston, Virginia 20190
Reston, Virginia 20191

April 17, 2019
(date)
-2-

aVI-140

USCA4 Appeal: 19-1394

Doc: 19

Filed: 03/00/2019

Pg: 4 of 08

UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
DISCLOSURE OF CORPORATE AFFILIATIONS AND OTHER INTERESTS
Disclosures must be filed on behalf of aU parties to a civil, agency, bankruptcy or mandamus
case, except that a disclosure statement is not required from the United States, from an indigent
party, or from a state or local government in a pro se case. In mandamus cases arising from a
civil or bankruptcy action, all parties to the action in the district court are considered parties to
the mandamus case.
Corporate defendants in a criminal or post-conviction case and corporate amici curiae are
required to file disclosure statements.
If counsel is not a registered ECF filer and does not intend to file documents other than the
required disclosure statement, counsel may file the disclosure statement in paper rather than
electronic form. Counsel has a continuing duty to update this information.
No. 19-1394

Caption: Barrett v. PAE Government Services, Inc., et al.

Pursuant to FRAP 26.1 and Local Rule 26.1,
PAE Government Services, Inc., William K. Lietzau, Sean Horner, and Shanedria Wilbom

(name of party/amicus)

Appellees
, makes the following disclosure:
who is
(appellant/appellee/petitioner/respondent/amicus/intervenor)

1.

Is party/amicus a publicly held corporation or other publicly held entity? UK YES 0NO

2.

0 YES DNO
Does party/amicus have any parent corporations?
If yes, identify all parent corporations, including all generations of parent corporations:
PAE Government Services, Inc.'s parent corporation is Pacific Architects and Engineers, LLC,
whose ultimate parent corporation is Shay Holding Corporation.

3.

Is 10% or more of the stock of a party/amicus owned by a publicly held corporation or
□ YES0NO
other publicly held entity?
If yes, identify all such owners:

09/29/2016 SCC

-1aVI-141

USCA4 Appeal: 19-1394

4.

Doc: 18

Fiied: 05/00/2019

Pg: 3 of 08

Is there any other publicly held corporation or other publicly held entity that has a direct
financial interest in the outcome of the litigation (Local Rule 26.1(a)(2)(B))? 0YES| I NO
If yes, identify entity and nature of interest:
Chubb Insurance has a financial interest in the outcome of this litigation through its role as PAE
Government Services, Inc.'s insurer.

5.

□yes 0
Is party a trade association? (amici curiae do not complete this question)
If yes, identify any publicly held member whose stock or equity value could be affected
substantially by the outcome of the proceeding or whose claims the trade association is
pursuing in a representative capacity, or state that there is no such member:

6.

Does this case arise out of a bankruptcy proceeding?
If yes, identify any trustee and the members of any creditors’ committee:

Date:

Signature: /s/ Meredith F. Bergeson

NO

□YES 0 NO

April 30, 2019

Counsel for: Appellees PAE, Lietzau, Horner, and Wilborn

CERTIFICATE OF SERVICE
**************************
April 30, 2019
the foregoing document was served on all parties or their
I certify that on
counsel of record through the CM/ECF system if they are registered users or, if they are not, by
serving a true and correct copy at the addresses listed below:
Peter C. Cohen and Hans H. Chen
Charlson Bredehoft Cohen & Brown, P.C.
11260 Roger Bacon Drive, Suite 201
Reston, Virginia 20190
pcohen@cbcblaw.com; hchen@cbcblaw.com
Counsel for Appellant

Ara L. Tramblian; Bancroft, McGavin, Horvath &
Judkins, 9990 Fairfax Boulevard, Suite 400
Fairfax, Virginia 22030; atramblian@bmhjlaw.com
Ryan Samuel, Arlington County Attorney’s Office
2100 Clarendon Boulevard, #403
Arlington, Virginia 22201; rsamuel@arlingtonva.us
Counsel for Co-Appellees

April 30, 2019
(date)

/s/ Meredith F. Bergeson
(signature)
-2aVI-142

USCA4 Appeal: 19-1394

Filed: 07/05/2019

Doc: 19

Pg: 6 of 68

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES

IV

STATEMENT OF ISSUES

1

STATEMENT OF THE CASE

3

I.

II.

Barrett’s Appeal of Summary Judgment Order

3

A.

Barrett Meets with Sean Homer on July 10, 2017

4

B.

Barrett Meets with Shanedria Wilbom

6

C.

Homer Contacts Arlington County

9

D.

The Officers Meet with Barrett

E.

Galway Interviews Barrett

12

F.

Barrett is Evaluated by Drs. Liu and Lomax

15

.10

Barrett’s Appeal of Motion to Dismiss Order

16

A.

Barrett Reports Stalking Incidents to PAE Appellee

16

B.

PAE Appellees Allegedly Derive a “Plan” to Discredit
Barrett...................................................................................

17

The Officers and the PAE Appellees Allegedly Agree to
the “Plan”.............................................................................

18

The Officers Meet with Barrett and Issue the ECO

18

C.

D.

SUMMARY OF ARGUMENT

21

STANDARD OF REVIEW

23

aVI-143

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 7 of 68

25

ARGUMENT
I.

THE DISTRICT COURT’S GRANT OF SUMMARY
JUDGMENT TO HALL, LUZIER AND GALWAY WAS
PROPER...................................................................................
A.

Qualified Immunity Generally

25

B.

The District Court correctly concluded that the Officers
are entitled to Qualified Immunity...................................

29

Barrett has abandoned her Appeal of her State Law
Claims............................................................................

38

The Sole Remaining Claim against Galway Is Barred
Because the Magistrate’s Issuance of a TDO was an
Independent Intervening Act that Caused Barrett’s
Detention........................................................................

38

Galway is entitled to Qualified Immunity

40

C.
D.

E.
II.

25

THE DISTRICT COURT’S DISMISSAL OF BARRETT’S
“JOINT ACTION” AND CONSPIRACY CLAIMS WAS
PROPER..................................................................................

42

The Law Regarding “Joint Action” and Conspiracy to
Violate § 1983 and Falsely Imprison...............................

42

The Standard for Pleading “Joint Action” and Conspiracy
under Twombly/Iqbal......................................................

44

Barrett Failed to Allege a Plausible Claim of “Joint
Action” or a Conspiracy in Connection with the Issuance
of the ECO.....................................................................

45

The District Court properly dismissed Barrett’s Punitive
Damages Claim...............................................................

52

A.
B.
C.

D.

aVI-144

USCA4 Appeal: 19-1394

Doc: 19

Fiied: 07/05/2019

Pg: 8 of 68

52

CONCLUSION
CERTIFICATE OF COMPLIANCE
CERTIFICATE OF FILING AND SERVICE

aVI-145

USCA4 Appeal: 19-1394

Filed: 07/05/2019

Doc: 19

Pg: 9 of 68

TABLE OF AUTHORITIES
Paee(s)
CASES
42

Adickes v. S.H. Kress & Co.,
398 U.S. 144(1970)
A Soc ’y Without a Name, for People Without a Home,
Millenium Future-Present v. Virginia,
655 F.3d 342 (4th Cir. 2011)...........................

44,48

Bailey v. Kennedy,
349 F.3d 731 (4th Cir. 2003)

36,37

Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007).

24, 44,48

Brightwell v. Moultrie,
No. DKC-12-1520, 2013 U.S. Dist. LEXIS 116860
(D. Md. Aug. 19,2013).........................................

45

Chiles v. Crooks,
708 F. Supp. 127 (D.S.C. 1989)

43

City ofEscondido, California v. Emmons,
139 S. Ct. 500,202 L. Ed. 455 (2019)

26

Cloaninger v. McDevitt,
555 F.3d 324 (4th Cir. 2009)

29,36

Cooper v. Lippa,
No. 3:11-CV-712, 2012 U.S. Dist. LEXIS 56822
(E.D. Va. Apr. 23, 2012)...................................

45

Crews v. County of Nassau,
996 F. Supp. 2d 186 (E.D. N.Y. 2014)

33

aVI-146

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 10 of 68

Cunningham v. Southlake Ctr. for Mental Health, Inc.,
924 F.2d 106 (7th Cir. 1991)...............................
Curley v. Commonwealth,
295 Va. 516(2018)

47

34,35

Davis v. Wal-Mart Stores East, LP,
111 F. Supp. 3d 943 (E.D. Va. 2016)

43

Davis v. Walmart Stores East, L.P.,
687 Fed. Appx. 307 (4th Cir. 2017)

43

District of Columbia v. Wesby,
138 S. Ct. 577 (2018)....

25-26, 34, 35

Edwards v. City of Goldsboro,
178 F.3d 231 (4th Cir. 1999)

24

Evans v. Chalmers,
703 F.3d 636 (4th Cir. 2012)

39,40

Everette-Oates v Chapman,
No. 5:16-CV-623-FL, 2017 U.S. Dist. LEXIS 180038
(E.D.N.C. Oct. 31,2017).............................................

49, 50,51

Franks v. Delaware,
438 U.S. 154(1978)

40

Fyfe Co., LLC v. Structural Group, LLC,
2013 U.S. Dist. LEXIS 75685 (D. Md. May 30, 2013)

47

Glass v. Glass,
228 Va. 39 (1984)

43

Goines v. Valley Cmty. Servs. Bd.,
822 F.3d 159 (4th Cir. 2016)

27, 28, 37

Gooden v. Howard County,
954 F.2d 960 (4th Cir. 1992)

.passim

aVI-147

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 11 of 68

Harris v. City ofVa. Beach,
11 Fed. App’x 212 (4th Cir. 2001)

45

Hessami v. Corporation ofRanson,
170 F. Supp. 2d 626 (N.D. W. Va. 2001)

43

Hinkle v. City of Clarksburg,
81 F.3d416 (4th Cir. 1996)

45

Hope v. Pelzer,
536 U.S. 730 (2002)

25

Leibelson v. Cook,
761 Fed. Appx. 196 (4th Cir. 2019)

23

Loren Data Corp. v. GXS, Inc.,
501 Fed. Appx. 275 (4th Cir. 2012)

48-49

Lugar v. Edmondson Oil Co.,
457 U.S. 922(1982)...

42

McDaniel v. Maryland,
No. RDB-10-00189, 2010 U.S. Dist. LEXIS 84784
(D. Md. Aug. 18,2010).........................................

51

McKinney v. George,
726 F.2d 1183 (7th Cir. 1984)

33

Odom v. S. C. Dep ’t of Corr.,
349 F.3d 7659 (4th Cir. 2003)

23

Papasan v. Allain,
478 U.S. 265(1986)

45

Raub v. Campbell,
3 F. Supp. 3d 526 (E.D. Va. 2014), aff’d
785 F.3d 876 (4th Cir. 2015).................
Revene v. Charles County Comm ’rs,
882 F.2d 870 (4th Cir. 1989)..

25,27, 28, 37
45

aVI-148

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 12 of 68

Roberts v. Ballard,
No. 2:15-CV-15458,2017 U.S. Dist. LEXIS 31858
(S.D. W.Va. Mar. 7, 2017).......................................

47

Rowland v. Perry,
41 F.3d 167 (4th Cir. 1994)

33

Ruttenberg v. Jones,
283 Fed. Appx. 121 (4th Cir. 2008)
Safar v. Tingle,
859 F.3d 241 (4th Cir. 2017)

24, 44,45

36, 37

Smith v. Wade,
461 U.S. 30 (1983)

52

S.P. v. City of Takoma Park, Md.,
134 F.3d 260 (4th Cir. 1998)

24,27,29,41

United States Firefighters v. Hirst,
604 F.2d 844 (4th Cir. 1979)

45

West v. Atkins,
487 U.S. 42 (1988)

42

Wood v. Arnold,
915 F.3d 308 (4th Cir. 2019)

38

Worthington v. Palmer,
No. 3:15-CV-410, 2015 U.S. Dist. LEXIS 159441
(E.D. Va. Nov. 24, 2015)........................................
Yates v. Terry,
817 F.3d 877 (4th Cir. 2016)

45,47

26

CONSTITUTIONAL PROVISIONS
26, 36, 39

U.S. Const, amend. IV

42

U.S. Const, amend. XIV

aVI-149

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 13 of 68

STATUTES
.passim

42 U.S.C. § 1983

11,30,38

Va. Code § 37.2-808.G
Va. Code § 37.2-809

15

Va. Code § 37.2-809.A

12

Va. Code § 37.2-809.B

40

Va. Code § 37.2-813

15

RULE
24

Fed. R. Civ. P. 12(b)(6)

aVI-150

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 14 of 68

Appellees Arlington County Police Officers Areyal Hall and Joshua Luzier,
Arlington County mental health examiner Brian Galway (collectively “County
Appellees”), as well as Appellees PAE Government Services, William Lietzau, Sean
Homer and Shanedria Wilbom (collectively “PAE Appellees”), by counsel,
respectfully submit that the District Court’s January 25 and April 9,2019 Orders, by
which the Court granted Appellees’ motions to dismiss, and the County Appellees’
motion for summary judgment, are plainly correct and should be affirmed.
STATEMENT OF ISSUES
1. Whether the Court should affirm the District Court’s grant of summary
judgment in favor of Officers Hall and Luzier (“Officers”) on Counts 1 and 2,
unlawful seizure, based on qualified immunity, when 1) the Officers weighed all of
the information from numerous witnesses and acted reasonably, with probable cause,
and in accordance with Virginia law; 2) Barrett presented no evidence below that
the Officers violated clearly established law, while they presented expert testimony
that their actions were objectively reasonable; and 3) there is no applicable precedent
that put the Officers on notice that anything they did was unconstitutional.
2. Whether the Court should affirm the District Court’s grant of summary
judgment in favor of the Officers on Counts 7 and 8, state law false imprisonment,
because: 1) Plaintiff failed to address Counts 7 and 8 in her opening brief and thus
waived any argument the District Court erred; and 2) the Officers acted with a

aVI-151

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 15 of 68

good faith and reasonable belief in the validity of Barrett’s detention pursuant to an
Emergency Custody Order (“ECO”).
3. Whether the Court should affirm the District Court’s grant of summary
judgment in favor of Galway on Count 10, unlawful seizure, when: 1) Barrett was
detained pursuant to a Temporary Detention Order (“TDO”) issued by a magistrate
which was an intervening, superseding cause insulating Galway from liability; 2)
Galway interviewed Barrett and numerous witnesses over several hours and obtained
the consensus of numerous mental health professionals who uniformly believed that
he should petition a Virginia magistrate who issued a Temporary Detention Order;
3) Barrett presented no evidence below that Galway violated clearly established law,
while Galway presented expert testimony that his actions were objectively
reasonable; and 4) there is no applicable precedent that put Galway on notice that
anything he did was unconstitutional.
4. Whether the Court should affirm the District Court’s dismissal of Counts
3 and 4 for failure to state a claim under § 1983 against Homer and Wilbom when
the Complaint fails to plausibly allege that these “private actors” had a mutual
agreement or common plan with the Officers to issue the ECO and unlawfully detain
Barrett without probable cause.
5. Whether the Court should affirm the District Court’s dismissal of Counts
6 and 9 for failure to state a claim of conspiracy under § 1983 and a claim of

aVI-152

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 16 of 68

conspiracy to falsely imprison under Virginia law when the Complaint fails to
plausibly allege that the Officers had a mutual agreement or common plan with
Homer, Wilbom, Lietzau and PAE to issue the ECO and unlawfully detain Barrett
without probable cause.
6. Whether the Court should affirm the District Court’s dismissal of the claim
for punitive damages when Barrett does not allege facts to support a claim of
conspiracy or willful, wanton, or reckless conduct.
STATEMENT OF THE CASE
On January 25, 2019, the District Court granted PAE Appellees’ Motion to
Dismiss Plaintiffs Second Amended Complaint, and County Appellees’ Motion to
Dismiss Counts 6, 9, 12, 13, and 14 of the Second Amended Complaint and
Plaintiffs Request for Punitive Damages.
On April 9, 2019, the District Court granted County Appellees’ Motion for
Summary Judgment on the remaining counts in the Second Amended Complaint and
entered judgment against Barrett.
I.

Barrett’s Appeal of Summary Judgment Order
The following record evidence addresses Barrett’s appeal of the District

Court’s granting summary judgment in favor of the County Appellees on Counts 1,
2, 7, 8, and 10 of her Second Amended Complaint.

aVI-153

USCA4 Appeal: 19-1394

A.

Doc: 19

Filed: 07/05/2019

Pg: 17 of 68

Barrett Meets with Sean Horner on July 10, 2017

1. On July 10, 2017, Barrett, an employee of PAE, approached Sean Homer,
PAE’s Security Manager, about her belief that “Bangladeshi/Southeast Asian” men
had been stalking her around the world for the past two years. JA 134, 155-8, 161 167.
2. Barrett told Homer that while she was paranoid, she believed that a
complex, sophisticated network of stalkers, who were primarily Southeast Asian
males and never the same person, watched her at all times from every comer, never
using the same car. Barrett told Homer that the stalking had started in Dubai in 2015
and that it picked up immediately upon her return to the United States in 2016. JA
149-50, 159, 162-4. Homer kept detailed notes of his meeting. JA 175-9.
3. Barrett said that her house was bugged, that her emails were compromised
and that the stalkers were able to track her through her phone to the degree that they
knew what floor of a building she was on. She claimed that the stalkers would knock
on her door in the middle of the night and whistle at her dogs to make them bark.
JA 163-6.

Homer had previously been employed by the Central Intelligence

Agency, and during his employment developed knowledge of the various types of
intelligence networks that existed around the world, and knew of no “network that

aVI-154

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 18 of 68

had the means to effect and carryout the level of network that [Barrett] described.”
JA 159-61.
4. Barrett told Homer that on July 6, 2017, she had had a “breakthrough” in
identifying where the centralization of stalkers, or their “hive,” was located. JA 139.
She said that she was walking through a public courtyard outside the office and saw
a “Bangladeshi man” look at her and take out his cell phone. She had never seen this
man before but followed him into another office building and learned that he worked
on the 11th floor for the Federal Deposit Insurance Corporation (“FDIC”), where
she now believed the “hive” of stalkers was located. JA 135-9,164-7. Barrett stated
that “those types of people” are accountants so it makes sense for the stalkers to be
in the FDIC. JA 166-7.
5. Barrett asked Homer to accompany her to the FDIC offices to “confront”
the stalkers, but Homer refused and advised Barrett not to do so either. JA 158,178.
6. Homer asked Barrett if she owned a gun. Barrett said she did not own a
gun but was considering getting one. JA 140. She also told Homer that she had
hired a private investigator.1 JA 168-9.

1 Barrett did not tell Homer that the private investigator she hired, Andrew Rogers,
had found no evidence that she was being stalked. JA 183. He reviewed dash cam
video that Barrett had provided as proof that she was being stalked but concluded
that the video merely showed a man apparently meeting a girlfriend, not stalking
Barrett. JA 190-4. Rogers also followed Barrett to dinner and did not observe any
surveillance, despite Barrett’s claim that she was surveilled during that time. JA 195-

aVI-155

USCA4 Appeal: 19-1394

7.

Doc: 19

Filed: 07/05/2019

Pg: 19 of 68

In an email, Homer asked Barrett to provide a written statement

documenting the stalking and Barrett initially agreed. JA 201-02.

However, she

later wrote to Homer that she had changed her mind because he had referred to
Barrett’s claims as “possible stalking” and because “if we are starting with disbelief,
I can tell you from experience that there is no point in proceeding.” JA 204.
8. Barrett stated in a subsequent email to Homer that “there is absolutely
nothing that can be done about my situation legally,” that she has “finally determined
[the stalkers’] location on FI. 11 in the adjacent building,” and that she is “now folly
aware of the complexity and severity of the war we are fighting, because I live it
every day.” JA 208. With that, she ended the discussion with Homer. Id.
B.

Barrett Meets with Shanedria Wilborn

9. Homer asked Shanedria Wilborn, PAE’s Human Resources Manager, to
speak with Barrett because Barrett would not speak with Homer further. JA 141-4.
Wilborn spoke with Barrett on July 11, 2017, and documented her meeting in a
detailed statement provided to the Arlington County Police Department. JA 218-9.2
10. Barrett told Wilborn that her problems with stalking started when she was
living in Dubai and had engaged a Pakistani real estate agent to help a friend buy a

200. When Rogers told Barrett his finding that she was not being stalked, she asked
him if he was working for the stalkers. JA 200.
2 Wilborn not only provided this statement, but recounted the details to the Officers.
JA 260-262.

aVI-156

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 20 of 68

house. JA 218. She said that shortly after meeting with the real estate agent, she
believed that she was being followed and that a group of Southeast Asian men chased
her and her dogs into her home. Id. She said that this harassment continued for
several months and that she then decided to move back to the United States. Id; see
also JA 226-1.
11. Barrett told Wilbom that when she moved back to the United States, a
“hive” of Southeast Asian men followed her here. JA 218. She said that these men
follow her every move and that they had hacked and tracked her through her phone.
JA 219. She said that the stalking had been escalating and was becoming more
aggressive. JA 258-9.
12. Barrett told Wilbom that she has been surveilled in the courtyard outside
of the PAE office building and that there was a “nest” of stalkers working for the
FDIC on the 11th floor of the adjoining office building. JA 219, 238-9. She said
that she saw one of the men talking on his cell phone about her with the “hub” of the
stalking, located in Dubai, and that she needed to walk up to the man and take the
phone from him. JA 219.3

3 Barrett, at p. 45 of her brief, falsely claims that Wilbom testified in her deposition
that Barrett never stated that she needed to personally take that phone from the
stalker, but the cited portion of Wilbom’s testimony, JA 529, confirms Barrett stated
that “she just had to take [the phone].”

aVI-157

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 21 of 68

13. Barrett reported to Wilbom that, despite the highly restricted access to
PAE offices, a stalker had walked up to Barrett’s desk in the rear of the offices and
said “hello Kerrin.” JA 219. Wilbom said that given the high-level security in the
office it was unlikely that a stalker gained access and was able to find Barrett’s desk,
JA 248-50, but was concerned that Barrett would mistakenly identify as a “stalker”
one of the many men PAE employs who appear to be Middle Eastern or Southeast
Asian and take action against what she wrongly perceived as a threat. JA 224,2325, 250-2.

14. Barrett told Wilbom that nothing could be done legally to stop the
stalking. JA 227, 229-30. She said that “they are an uncivilized society and they
have to be killed.” JA 244. She said that she had been advised that these stalkers
never give up and that the only way to deal with them is to kill them. JA 228-9.4
15. Contrary to what she told Homer about not owning a gun, Barrett told
Wilbom that she has a Glock, that she goes to the range to fire it and that when she
does so, she keeps her phone with her so the stalkers, who are tracking her through
her phone, know that she is at a gun range. JA 219.

4 These statements speak for themselves and refute Barrett’s claim, at Appellant’s
Brief, p. 45, that she never gave any indication of a disposition towards violence
against others.

aVI-158

USCA4 Appeal: 19-1394

C.

Doc: 19

Filed: 07/05/2019

Pg: 22 of 68

Horner Contacts Arlington County

16. Homer and Wilbom became concerned that Barrett was a potential threat
to herself and others.5 JA 154-7,232-7,251 -4,256-7. On July 12, Homer contacted
the ACPD, and Arlington police dispatch records note that Homer called, requesting
to speak with officers regarding an employee who has become increasingly
delusional and believes she is being followed by people in an adjacent building.
JA 272. Homer also reported to the police that the employee has a firearm and
mentioned that the only way to get rid of people following her is to use the firearm.
Id6
The Officers were dispatched to respond to Homer’s call. Homer recited to
the Officers the complete details of his and Wilbom’s discussions with Barrett about
her stalking allegations. JA 145-6, 170-1. As Barrett was not at the office on July

5 Their concerns were warranted. Several months earlier, when Barrett had hired a
private investigator to look into her claims of stalking, she told the investigator
during a recorded interview, “I would have to get someone to stop it. I probably
shouldn’t say, I, mean it’s not really legal, but someone would have to go over there
and scare the living shit out of them at the easiest, if not practically beat them to
death, and then it would stop.” JA 266-7.
6 The information Homer provided to the police during this call speaks for itself and
refutes the claims in Appellant’s Brief, p. 44, that Homer did not call the police to
report the potential danger Barrett posed to herself and others and was otherwise not
concerned that Barrett posed such a threat.

aVI-159

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 23 of 68

12, the Officers suggested that Homer contact the Arlington County Department of
Human Services (“DHS”), and, if necessary, call the police department when Barrett
was at the office so that they could speak to her. JA 148-9, 151. Homer contacted
DHS the same day.
17. Homer advised Alexis Mapes, Emergency Services Supervisor, of what
Barrett had told him and Wilbom. JA 152-3. Mapes then sent an email to her staff,
including Galway, advising that Barrett was an employee who had been increasingly
paranoid while at work, including fears that she was being followed by Middle
Eastern men at work and at home, where they were whistling at her dog. JA 276.
18. Homer told DHS that Barrett had told him that she followed a man to a
nearby building to determine who he was and reported that she “found the nest.” He
told DHS that Barrett had reported to him that she did not have a weapon but told
Wilbom that she did have a weapon and that the “only way to solve this is to kill
them.” JA 276. Homer confirmed that Mapes’ email accurately summarized what
he had told her. JA 173-4.
D.

The Officers Meet with Barrett

19. On July 13,2017, Homer called the ACPD, and the Officers were again
dispatched to PAE’s offices. JA 274-5. Wilbom reiterated her concerns about
Barrett misidentifying a PAE employee as a stalker, about Barrett’s statements that

aVI-160

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 24 of 68

there was no legal way to solve the stalking, and that she had been told that the
only way to deal with the stalkers is to kill them. JA 240-1, 251-2, 261-2.
20. The Officers interviewed Barrett, who told Hall, like she told Homer,
that she is paranoid. JA 308-9. Barrett repeated her claims that she was under
constant surveillance, that men always following her in black SUVs and that the
men following are always different. JA 270-1, 308-9, 312-13. She told Hall that
she had been advised to become a “hard target,” that she owns a gun and intends
to apply for a permit to carry a concealed handgun and that “hopefully if something
happens I’ll have the courage to defend myself.” JA 270-1,311.7
21. Barrett falsely represented to the officers that she had never had mental
health treatment or been diagnosed with a mental illness.8 JA 315-6.
22. Based on the totality of the information provided by Homer, Wilbom
and Barrett, Hall issued a “paperless” ECO pursuant to Virginia Code § 37.2-

7 Barrett does not clearly recall what she told the Officers. JA 268-9.
8 In 2016, Barrett was diagnosed by her psychologist, Dr. Tilmer Engebretson, as
suffering from chronic post-traumatic stress disorder. JA 286. He diagnosed her
with this condition on her first visit to him, at which time he informed Barrett of his
diagnosis. JA 288,293-4. Barrett completed fourteen psychotherapy sessions with
Dr. Engebretson, JA 286, during which they discussed whether the stalking was real.
JA 290-1. In December 2016 she cancelled her upcoming appointment and never
returned to see Dr. Engebretson. JA 286.
Barrett also falsely denied having any prior mental health treatment to Galway, to a
doctor and other staff at Virginia Hospital Center, JA 295-6, and on an application
for a federal government clearance. JA 360.

aVI-161

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 25 of 68

808.G and transported Barrett to Virginia Hospital Center for further evaluation.
Luzier was Hall’s backup officer and did not issue the paperless ECO or detain
Barrett. JA 318, 324-5, 328.
E.

Galway Interviews Barrett

23. At the hospital, Barrett was interviewed by Brian Galway as a designee
of the Arlington County Community Services Board (“ACCSB”) pursuant to
Virginia Code § 37.2-809.A. JA 339. He has had 18 years’ experience as a designee
of ACCSB and has attended countless civil commitment hearings, serving as
petitioner for commitment. During 12 of the years with ACCSB, he served as the
main ACCSB representative. JA 336-8.
24. Before speaking with Barrett, Galway had read JA 276, spoken with
Wilbom and Dr. Peter Liu in the Emergency Room and reviewed the VHC record
concerning Barrett. JA 343, 345, 350, 352-3.
25.

He discussed Wilbom’s statement to the police with her, and she

reiterated the contents of the statement, confirming that Barrett had made the
statements directly to her. JA 245-6, 346-8.
26. Dr. Liu told Galway the information he had received from the police,
which included what Barrett had told PAE security. JA 350-1. Dr. Liu also told
Galway that he was concerned that Barrett was a threat to herself or others. JA 3501.

aVI-162

USCA4 Appeal: 19-1394

27.

Doc: 19

Filed: 07/05/2019

Pg: 26 of 68

William Lietzau, Barrett’s supervisor and PAE’s Vice President of

Government Services Division, told Galway that Barrett was “a bit off’ but that he
did not think she would be likely to hurt anyone. JA 17 (f 10), 360. However,
Lietzau also told Galway that he had not heard the statements Barrett had made to
Homer and Wilbom and could not comment on them. JA 377-8. Lietzau testified
in his deposition that he was surprised that Barrett had told a private investigator she
wanted to hire someone to beat the stalkers “almost to death” and that he did not
know Barrett very well. JA 379-80.9
28. Galway’s investigation took several hours. He interviewed Barrett, who
claimed that the stalking was real. JA 356-7. He weighed what he read in JA 276,
and had been told by Wilbom, Lietzau, Dr. Liu, and Barrett. JA 357-8. Galway
noted a significant chance that Barrett suffered from PTSD and possibly delusional
disorder. Id. Contrary to what Barrett told Homer, she admitted that she owned a
gun but claimed it was “locked away.” Id. at 151-2. And contrary to what Barrett
had told Wilbom, she told Galway that she had never used the gun. Id.
29. Barrett also falsely represented to Galway that she had never had mental
health treatment or been diagnosed with a mental illness. JA 354-5. Despite Barrett’s

9 In her Second Amended Complaint, Barrett alleges that Lietzau lied to Galway
about Barrett, alleging that Lietzau “should have told Mr. Galway the truth; that he
did not believe [Barrett] was capable of hurting others,” JA 48, Tf 176, but that
Lietzau instead sought her involuntary commitment on false pretenses. JA 49, 634, 66, 68,181, 275, 281,294, 295, 306-7.

aVI-163

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 27 of 68

denials, Galway’s evaluation was that she appeared to be suffering from PTSD, the
same diagnosis made by Barrett’s psychologist, Dr. Engebretson. JA 358.
30. Galway tried to get Barrett to agree to voluntarily sign herself into the
hospital, but she adamantly refused. JA 371-2. Barrett also resisted the suggestion
that she seek outpatient treatment. JA 367. While Barrett eventually agreed to see
a psychologist, she did not commit to a specific person or timeframe for doing so.
JA 367-8.
31. Galway returned to his office and discussed Barrett’s case with his
supervisor, who brought in other mental health workers to discuss the matter.
During this team meeting, Galway and others discussed whether there was a less
restrictive setting that would be appropriate, including whether Barrett would seek
treatment voluntarily. JA 362-3. The group discussed the conflicting information
about Barrett’s gun and the reported statements about killing others. JA 366.
32. Galway did not believe that Barrett understood the seriousness of the
situation and had concerns about her judgment. Her claims of stalking and wanting
to confront the stalkers, her statement that the only way to stop the stalkers was to
kill them, and her owning a gun were significant risk behaviors that led him to
conclude that Barrett was a risk to herself and others and that the matter should be
presented to a magistrate. The team agreed with Galway’s conclusion. JA 369-70.

aVI-164

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 28 of 68

33. Based on his interview and all of the additional information that had been
provided by Homer and Wilbom, Galway filed a Petition for Involuntary Admission
for Treatment, JA 381-2, and a magistrate issued a TDO JA 383-4, pursuant to
Virginia Code § 37.2-809.
F.

Barrett is Evaluated by Drs. Liu and Lomax

34. When Barrett was brought to the Virginia Hospital Center emergency
room, Dr. Liu evaluated her and agreed with the issuance of the TDO, noting in
Barrett’s chart, JA 386, “I believe further investigation is necessary to either mle in
delusional paranoia d/o vs actual being stalked by multiple Middle Eastern men. ”
Id. Dr. Peggy Lomax, a psychiatrist at the hospital also recommended in her report
that Barrett be admitted. JA 388, 390.
35. Dr. Lomax and Virginia Hospital Center had the statutory authority to
release Barrett before a civil commitment hearing, pursuant to Code of Virginia
§ 37.2-813, but they chose not to do so, affirming their view that Barrett met the
criteria for civil commitment.
36. At a civil commitment hearing on July 17, 2017, where neither Homer,
Wilbom, Hall, Luzier, nor Galway were present, a special justice dismissed
Barrett’s case. JA56-57 at

230, 237.

aVI-165

USCA4 Appeal: 19-1394

II.

Doc: 19

Filed: 07/05/2019

Pg: 29 of 68

Barrett’s Appeal of Motion to Dismiss Order
The following allegations from Barrett’s Second Amended Complaint relate

to Barrett’s appeal from the District Court’s dismissal of Counts 3, 4, 6, and 9 of the
Second Amended Complaint for failure to state a claim.
A.

Barrett Reports Stalking Incidents to PAE Appellees

Barrett alleges that the stalking that she experienced while living and working
in the Middle East followed her when she returned to the United States. JA 25
50). Barrett told PAE co-workers about the stalking. JA 28

60). Around the fall

of 2016, Barrett also spoke to Lietzau about this stalking. JA 25 flj 50).
On or around July 6, 2017, Barrett allegedly saw a South Asian man outside
her office building, who, as soon as he saw her, reached into his pocket, pulled out
his phone, and made a call (“July 6, 2017 Incident”). JA 30 (f 68). On or around
July 10, 2017, Barrett told Lietzau about the July 6, 2017 Incident and asked him
what she should do. JA 30 (f 69). Lietzau replied that it looked as if she had been
“bugged” and that someone had put something in her purse. JA 30 flj 69). He
suggested that Barrett speak with Homer. JA 30 (^J 69).
At the end of the day on July 10, 2017, Barrett met with Homer and told him
about the July 6, 2017 Incident and the stalking that she had been experiencing. JA
30 (*[{ 69). During their meeting, Homer asked Barrett if she owned a gun, and she
replied that she did. JA 30-31

71, 73).

aVI-166

USCA4 Appeal: 19-1394

B.

Doc: 19

Filed: 07/05/2019

Pg: 30 of 68

PAE Appellees Allegedly Derive a “Plan” to Discredit Barrett

Barrett alleges that on or around July 11, 2017, Lietzau, Homer and Wilbom
agreed on a plan to use Barrett’s reports of stalking at PAE’s offices to discredit her
by falsely claiming that she was a threat and danger to others and to require her
removal or commitment to a hospital for psychiatric examination. JA 25, 32 (fflf 49,
79). The purpose of this alleged plan was to avoid scrutiny and exposure of PAE’s
alleged fraudulent reporting under a contract and its alleged failure to maintain
security in its offices. JA 25, 32 (fflf 49, 79).
On July 11, 2017, Homer contacted the Arlington County Police Department
(“ACPD”) and spoke with the Officers about “coming to PAE’s offices to remove
Dr. Barrett from the workplace and having her sent to a hospital for examination
based on the pretense that she was a threat and danger to others.” JA 32-33 flj 80).
That same day, “someone from PAE (likely Mr. Homer or Ms. Wilbom)” contacted
Arlington County Department of Human Services (“DHS”) “to claim that Dr. Barrett
was a threat and to discuss committing her to a psychiatric facility for a mental
illness.” JA 32-33 flj 80).
Around 6:00 p.m. on July 11, 2017, Wilbom met with Barrett. JA 33 (^| 81).
During this meeting, Barrett described the July 6,2017 Incident and the background
of her concerns. JA 33 (f 81). During this meeting, Wilbom asked Barrett if she

aVI-167

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 31 of 68

would be willing to talk to the ACPD and have them investigate the July 6, 2017
Incident. JA 33
C.

83).

The Officers and the PAE Appellees Allegedly Agree to the “Plan”

According to Barrett, at Homer’s request, the Officers visited PAE’s
headquarters in Arlington on July 12,2017 and met with Homer “and possibly others
at PAE.” JA 34 (K 91). Barrett alleges that “[a]t that meeting, the officers agreed to
remove Dr. Barrett from the workplace, regardless of her answers to the police
officer’s questions, based on her ostensibly being a threat and danger to others.” JA
34 (| 91). Because Barrett was working from home on July 12,2017, Barrett alleges
that “Mr. Homer, Officer Hall and Officer Luzier agreed that the police would return
to PAE’s offices to remove Dr. Barrett from the workplace and have her sent to a
hospital for evaluation.” JA 35 (If 92).
D.

The Officers Meet with Barrett and Issue the ECO

On July 13, 2017, the Officers came to PAE’s offices to meet with Barrett. JA
36

98). Before meeting with Barrett, Barrett alleges that they spoke with Lietzau,

Homer, and Wilbom for at least 30 minutes “to discuss the plan of removing Dr.
Barrett from the workplace, regardless of her answers to the police officer’s
questions, based on the pretense that she was a danger and a threat to others and
needed to be sent to the hospital for a mental evaluation.” JA 36 fl| 98).

aVI-168

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 32 of 68

Wilbora asked Barrett to speak with the police who were waiting in a
conference room. JA 36

97). Barrett went to meet the police because she thought

that she was reporting the July 6, 2017 Incident. JA 36 fl} 97). Luzier told Barrett
that he wanted to ask her some questions, and she agreed. JA 36

101).

According to the Second Amended Complaint, Luzier asked Barrett what had
happened, and she described the July 6, 2017 Incident and “explained the
background of the stalking behavior and the related cultural issues.” JA 36-37 flj
103). Wilbom and Luzier then left the conference room together. JA 37

106).

Barrett alleges that “[w]hile outside the room, Officer Luzier continued to discuss
with Mr. Lietzau, Mr. Homer and Ms. Wilbom the plan of removing Dr. Barrett
from the workplace and sending her to the hospital for a mental evaluation,
regardless of how she answered Officer Luzier’s questions.” JA 37

106).

Luzier returned to the conference room with Ms. Wilbom and “began
questioning Dr. Barrett about her gun.” JA 37

107). She told him that she had

obtained a weapon, that she had attended a National Rifle Association (“NRA”) selfdefense training course for women, that she had not yet applied for a concealed carry
permit, that she was uncomfortable carrying a weapon and that she could not bring
~it into the workplace. JA 37 (f 107). - Luzier and Wilbom left the conference room together a second time while
Hall remained. JA 38 (1108). Barrett alleges that “[w]hile outside the room, Officer

aVI-169

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 33 of 68

Luzier continued to discuss with Mr. Lietzau, Mr. Homer and Ms. Wilbom the plan
of removing Dr. Barrett from the workplace and sending her for a mental evaluation,
regardless of her answers to Officer Luzier’s questions.” JA 38

109).

When Luzier and Wilbom returned to the conference room, Luzier asked
Barrett if she practiced with the gun and if she carried it. JA 38 (1 110). Barrett
replied that she did not carry the gun and had not practiced using it since the taking
the NRA course on May 14, 2017. JA 38

110).

Luzier and Ms. Wilbom left the conference room a third time. JA 38 fl| 108).
Barrett alleges that “[w]hile outside the room, Officer Luzier continued his
discussion with Mr. Lietzau, Mr. Homer and Ms. Wilbom about removing Dr.
Barrett from the building and sending her for a mental evaluation, regardless of her
answers to Officer Luzier’s questions.” JA 39

114).

Luzier then returned to the conference room without Wilbom and questioned
Barrett about the men following her, and she explained the cultural background of
these men and their practices of stalking and violent intimidation. JA 39 flflf 115116). She also explained her efforts to report the stalking to the Fairfax County
Police Department, which seemed to help keep the stalkers away from her home. JA
39 a 117).
Barrett alleges that during the meeting, Luzier said that he was going to take
Barrett to DHS who knew more about this ‘“surveillance thing than [he did].” JA 40

aVI-170

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 34 of 68

(1f 123). When Barrett said that she was not going anywhere, Luzier said that he was
“making an ECO” or Emergency Custody Order. JA 41

125). Eventually, Barrett

was subsequently escorted from the building and taken to the Emergency Room at
Virginia Hospital Center. JA 42 (fflf 136-139).
SUMMARY OF ARGUMENT
The District Court should be affirmed. Barrett’s bizarre and worrisome
behavior and statements led to two representatives of her employer, two police
officers, numerous mental health professionals, and a Virginia magistrate to all
uniformly conclude that she should be detained as a danger to herself or others.
This Court should affirm the District Court’s grant of summary judgment to
the Officers on Barrett’s unlawful seizure claims against them on qualified immunity
grounds.

The Officers acted with probable cause, after carefully weighing

information from multiple sources, in executing an emergency custody order
(“ECO”) to have Barrett evaluated by mental health professionals. And, eveii if the
Officers did not act with probable cause, there is no controlling precedent in this
Court that clearly establishes that reasonable officers should have been on notice that
they were violating Barrett’s constitutional rights.
Likewise, the Court should affirm the District Court’s grant of summary
judgment to Galway on Barrett’s unlawful seizure claim against him on qualified
immunity grounds. Galway carefully evaluated Barrett and consulted with her co-

aVI-171

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 35 of 68

workers and a team of mental health professionals to determine that probable cause
existed to petition a magistrate for a TDO for Barrett, which a magistrate granted.
Further, there are no Fourth Circuit cases that would have put Galway on notice that
his actions violated Barrett’s constitutional rights. Finally, the Virginia magistrate’s
issuance of the TDO was an independent intervening act that caused Barrett’s
detention, which is an alternative basis for affirming the District Court.
Barrett failed to brief her appeal of the District Court’s dismissal of her state
law false imprisonment claims against the Officers and therefore waived those
claims.
The Court should affirm the District Court’s dismissal of Barrett’s § 1983
“joint action” claims and her conspiracy claims under § 1983 and Virginia law
because her allegations, even when construed in the light most favorable to her, do
not plausibly allege a meeting of the minds of the co-conspirators or that County
Appellees were acting in concert with the other co-conspirators to unlawfully detain
Barrett. Other than rank speculation and conclusory assertion, Barrett’s complaint
offers nothing to plausibly suggest that there was such a meeting of the minds or that
the Officers knew that she was not a danger, but agreed with the PAE Appellees to
detain her anyway!------ ------------------- ———

— -

— ----------- ——

10 This Court has recognized the danger of litigants adding unfounded conspiracy
allegations to block summary judgment against weak claims. Gooden v. Howard
County, 954 F.2d 960, 970 (4th Cir. 1992).

aVI-172

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 36 of 68

Finally, the Court should affirm the District Court’s dismissal of Barrett’s
punitive damages claim because she did not allege facts to support her conspiracy
claims, that County Appellees acted in a willful or wanton manner, with reckless or
callous indifference to Barrett’s rights, or that they acted with an evil motive or intent
in detaining Barrett.
STANDARD OF REVIEW
This Court reviews de novo an award of summary judgment based on
qualified immunity. Odom v. S.C. Dep’t of Corr., 349 F.3d 765,769 (4th Cir. 2003).
Qualified immunity is a doctrine that balances two important interests—the need to
hold public officials accountable when they exercise power irresponsibly and the
need to shield officials from harassment, distraction, and liability when they perform
their duties reasonably. To establish entitlement to qualified immunity, an officer
must show (1) that the facts, taken in the light most favorable to the plaintiff, do not
establish a violation of a constitutional right, or (2) that the alleged right, even if
violated, was not “clearly established” at the time of the incident. Accordingly, even
when the facts in the record establish that the official’s conduct violated a plaintiff s
constitutional rights, the officer still is entitled to immunity from suit if a reasonable
person in the officer’s position could have failed to appreciate that his conduct would
violate those rights. Leibelson v. Cook, 761 Fed. Appx. 196, 201 (4th Cir. 2019).

aVI-173

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 37 of 68

When qualified immunity is raised as a defense, with the defendant
demonstrating that he acted within his discretionary authority, the plaintiff must
produce evidence that the defendant’s actions violated clearly established law. See
S.P. v. City of Takoma Park, Md., 134 F.3d 260, 265 (4th Cir. 1998) (affirming
district court’s dismissal based on qualified immunity because the plaintiff “failed
to allege facts demonstrating the violation of clearly established law”).
This Court reviews de novo the dismissal of a claim under Fed. R. Civ. P.
12(b)(6) for failure to state a claim. Ruttenberg v. Jones, 283 Fed. Appx. 121, 128
(4th Cir. 2008). “[A] Rule 12(b)(6) motion should only be granted if, after accepting
all well-pleaded allegations in the plaintiffs complaint as true and drawing all
reasonable factual inferences from those facts in the plaintiffs favor, it appears
certain that the plaintiff cannot prove any set of facts in support of his claim entitling
him to relief.” Edwards v. City of Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999).
Additionally, a complaint must be dismissed if it does not allege “enough facts to
state a claim to relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550
U.S. 544 (2007) (emphasis added). As the Twombly Court explained, “a plaintiffs
obligation to provide the ‘grounds’ of his ‘entitlement to relief requires more than
labels and conclusions, and a formulaic recitation of the elements of a cause of action
will not do.” Id. at 555.

aVI-174

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 38 of 68

ARGUMENT
I.

THE DISTRICT COURT’S GRANT OF SUMMARY JUDGMENT TO
HALL, LUZIER AND GALWAY WAS PROPER.
A.

Qualified Immunity Generally.

Qualified immunity protects law enforcement and other government officials
from civil damages liability for alleged constitutional violations stemming from their
discretionary functions. Raub v. Campbell, 785 F.3d 876, 880-81 (4th Cir. 2015)
(mental health examiner entitled to qualified immunity from claims relating to his
examination of appellant and petition for TDO). The protection is broad, extending
to “all but the plainly incompetent or those who knowingly violate the law, and
officials are not liable for bad guesses in gray areas; they are liable for transgressing
bright lines.” Id. “Mere mistakes in judgment, whether the mistake is one of fact or
one of law,” are protected. Hope v. Pelzer, 536 U.S. 730, 752 (2002). Officials are
immune from suit when their actions were objectively reasonable under the
circumstances. Raub, supra.
Determining whether qualified immunity applies is a two-pronged inquiry: (1)
whether the facts make out a violation of a constitutional right and (2) whether the
right at issue was clearly established at the time of Appellee’s alleged misconduct,
and a court may address either prong of the analysis first. Id. For a right to be clearly
established, the law must have been sufficiently clear that every reasonable official
would understand that what he is doing is unlawful. District of Columbia v. Wesby,

aVI-175

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 39 of 68

138 S. Ct. 577, 589-90 (2018) (legal principle must be settled law, dictated by
controlling authority or a robust consensus of cases; it is not enough that the rule is
suggested by then-existing precedent); City of Escondido, California v. Emmons,
139 S. Ct. 500, 202 L. Ed. 455, 459-60 (2019) (specificity in identifying clearly
established right especially important in Fourth Amendment context, where it is
sometimes difficult for an officer to determine how the relevant legal doctrine will
apply to factual situation).
Indeed, before concluding that an officer can be held liable for a Fourth
Amendment violation, a decision from the Supreme Court, Fourth Circuit or
Virginia Supreme Court must be identified where an officer acting under similar
circumstances was held to have violated the right in the same way. Yates v.
Terry, 817 F.3d 877, 887 (4th Cir. 2016) (in determining whether a reasonable
officer would know that his conduct was unlawful, the Court “need not look beyond
the decisions of the Supreme Court, this [Fourth Circuit] court of appeals, and
the highest court of the state in which the case arose.”).

And there are no

decisions within the Fourth Circuit that clearly establish that any reasonable
police officer or mental examiner would have been on notice in the circumstances

aVI-176

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 40 of 68

faced by the County Appellees that they were violating Barrett’s constitutional
rights.11
This is particularly important here, as cases applying the concept in the mental
health context are not easily reduced to bright-line rules. Goines v. Valley Cmty.
Servs. Bd., 822 F.3d 159, 170-71 (4th Cir. 2016) (upholding dismissal of claims
against mental health examiner who sought a TDO). In particular, civil commitment
involves a number of judgment calls, which can be especially difficult for officers
with little or no training in mental health issues. Id. See also Raub v. Campbell, 3 F.
Supp. 3d 526, 534 (E.D. Va. 2014), affd 785 F.3d 876 (4th Cir. 2015) (inexact
science of determining whether a person poses a serious threat of public danger is a
quintessential gray area); S.P. v. City ofTakoma Park, 14 F.3d 260, 272 (4th Cir.
1998) (“Unfortunately, the law governing seizures for psychiatric evaluations is not
nearly as well-defined as in the area of criminal law”); Gooden, supra, 954 F.2d at
967-8 (“We are aware of no cases that define ‘dangerousness’ with the requisite
particularity or explain what type or amount of evidence would be constitutionally
sufficient to establish probable cause of a dangerous condition.”).

11 Further, the County Appellees adduced expert testimony from a police officer, a
university professor who trains police officers in mental health detentions, and a
practicing mental health examiner, all of whom concluded that the County Appellees
acted as a reasonable police officer and mental health examiner in taking the actions
they did. Copies of their reports and affidavits are found at JA 396-415. Barrett
adduced no contrary expert testimony.

aVI-177

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 41 of 68

This Court has considered only two cases involving the detention of a person
on the belief that he may be a danger to others, and both involved mental health
examiners. In Raub, 785 F.3d at 883-4, this Court noted that while its prior decisions
outline the standard for probable cause to detain an individual on the belief that he
might be a danger to himself, those decisions provide less guidance on whether to
detain an individual on the belief that he might be a danger to others. Id. (mental
health evaluator entitled to qualified immunity for seeking TDO when he relied on
police officers’ initial observations, content of Facebook posts, information provided
by former colleagues and his own evaluation and observations). The Raub Court also
noted that no prior Fourth Circuit case delineated the appropriate standard for when
a mental health evaluator must decide whether to recommend a temporary detention
on the belief that an individual might be a danger to others; id:, those cases also did
not speak to the necessity, length and substance of a psychological evaluation, nor
to the evidence needed to support probable cause in such a circumstance. Id.
In Goines, the only other Fourth Circuit case involving a potential threat to
others, the Fourth Circuit held that a mental health examiner was entitled to qualified
immunity for seeking a TDO when, like Galway, he relied on information from
police officers and his observations of Barrett’s affect and statements. Goines, 822
F.3d 159, 170-71.

aVI-178

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 42 of 68

Cases within the Fourth Circuit involving police officers who detained
individuals on the belief that they might be a threat to self, while applying a different
standard, also support the actions of Hall. See Gooden, supra, 954 F.2d at 966-7 (en
banc reversal of denial of qualified immunity on summary judgment; noting the
potential dangers that officers’ actions prevented in detaining appellant based on
multiple complaints, personal observations and their own investigations.); S.P. v.
City of Takoma Park, 134 F.3d 260, 267-8 (4th Cir. 1998) (affirming grant of
summary judgment to officers who detained appellant based who, after their ample
opportunity to observe and interview her, did not detain her in haste and acted
pursuant to state law); Cloaninger v. McDevitt, 555 F.3d 324 (4th Cir. 2009)
(affirming grant of summary judgment to officers who detained appellant based on
a 911 call that appellant had threatened suicide).
B.

The District Court correctly concluded that the Officers are
entitled to Qualified Immunity.

Based on the undisputed material facts and the legal standards set forth above
and in this section, the Officers are plainly entitled to qualified immunity, as the
District Court held. JA 774-782.12

12 While the Court does not need to reach the issue of whether the Officers acted
with probable cause, due to their qualified immunity, the undisputed material facts
also clearly demonstrate that Officer Hall had probable cause to issue an ECO and
that Galway had probable cause to seek a TDO.

aVI-179

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 43 of 68

The Officers complied with Virginia Code § 37.2-808.G, which allows an
officer to issue an ECO when his observation or the reliable reports of others support
probable cause to believe that a person: (i) has a mental illness and that there exists
a substantial likelihood that, as a result of mental illness, the person will, in the near
future, (a) cause serious physical harm to himself or others as evidenced by recent
behavior causing, attempting, or threatening harm and other relevant information, if
any, or (b) suffer serious harm due to his lack of capacity to protect himself from
harm or to provide for his basic human needs; (ii) is in need of hospitalization or
treatment; and (iii) is unwilling to volunteer or incapable of volunteering for
hospitalization or treatment.
First, the undisputed material facts demonstrate copious support for the
Officers’ conclusion of probable cause to believe that Barrett suffered from a mental
illness. PAE’s Security Manager and Human Resources Manager, both highly
trained and experienced professionals, concluded that Barrett suffered from
paranoia, believed her to be a threat to others, and so advised the Arlington police.
Statement of the Case (“SC”) 2, 16.

Barrett also made several statements to the

Officers directly and to PAE employees that supported she was delusional. SC 2-4,
10-14, 20. Barrett believed that stalkers of Middle Eastern descent were always
watching her from every comer but that stalkers were never the same person and
never used the same car (which would require hundreds, if not thousands, of

aVI-180

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 44 of 68

individuals and vehicles), that her phone had been hacked and her house bugged,
that a man on his phone in the courtyard outside her office was talking to the stalking
“hub” in Dubai and that one of these individuals approached her at her desk at work
and stated, “Hello Kerrin.” Id. She further believed that there was a “nest” or “hive”
of stalkers in the FDIC offices next door. SC

4-12. These statements would

reasonably be construed by any officer as being delusional. JA 401-2.
Second, the undisputed facts also support the Officers’ reasonable belief that
Barrett posed a danger to others. Both Homer and Wilbom relayed such concerns,
including more specifically that Barrett might mistakenly believe that co-workers in
their office of Middle Eastern descent were part of the “stalkers.”13 SC

13, 16.

In addition, Barrett had previously told a private investigator that she wanted to hire
someone to “beat the [stalkers] almost to death.” SC ^[16, n.3. She told Homer and
Wilbom that there was nothing legally she could do to stop the stalkers and that she
was “fighting a war every day.” SC

8. Barrett stated that she perceived anyone

she describes as “Middle Eastern,” Pakistani, or “Southeast Asian” as a threat, which
was of particular seriousness given the diverse and multinational nature of the
Washington, D.C. metropolitan area. SC

1, 2, 14. Barrett told her co-workers

that the stalking was getting worse, that she had had a “breakthrough” and followed

13 Ten to fifteen percent of PAE employees fit Barrett’s description of the “stalkers.”
JA 250-1.

aVI-181

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 45 of 68

a “stalker” and wanted to confront him and forcibly take his cellphone. SC

4, 5,

11-12. She stated that she had a firearm and that the only way to solve the stalking
was to kill the stalkers. SC ^115. Any reasonable police officer would conclude that
probable cause existed to believe that Barrett would be likely to engage in actions
that may cause serious bodily harm to herself or others. JA 402-3.
Third, based on the same undisputed facts, a reasonable police officer would
conclude that Barrett needed mental health treatment. Given that Barrett refused the
Officers’ offer to seek treatment voluntarily, Officer Hall was justified in issuing an
ECO - or at the very least, no precedent exists that would lead her to believe that
doing so would be a violation of Barrett’s constitutional rights. JA 104,403.
Barrett therefore did not meet her burden in proving that the Officers violated
clearly established law, and they are protected from suit by qualified immunity.
Important for this appeal, while Barrett takes issue with some details of
Wilbom’s and Homer’s recollection of what she told them, she does not dispute,
because she cannot dispute, that Wilbom and Homer reported their recollections of
Barrett’s worrisome statements to the Officers, which reports they relied upon in
carrying out their official duties. An officer is reasonable in finding probable cause
as long as a reasonably credible witness or victim informs the police that someone has
committed a crime, even if the information later is determined not to be true. See
Gooden, supra, 954 F.2d at 966 (in a mental health detention case, police can hardly

aVI-182

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 46 of 68

be faulted for attaching credence to citizen complaint and cannot be held liable for a
violation of the Constitution merely because it later turns out the complaint was
unfounded and that “the police cannot invariably be held under § 1983 as the
guarantors of every such report”); McKinney v. George, 726 F.2d 1183,1187 (7th Cir.
1984) (if policemen arrest a person on the basis of a private citizen’s complaint that
if true would justify the arrest, and they reasonable believe it to be true, they cannot
be held liable for a violation of the Constitution merely because it later turns out the
complaint was unfounded). Often this conclusion is stated in terms of the officers’
qualified immunity from civil liability: if they reasonably believed the arrest lawful,
they cannot be made to pay damages merely because it turns out they were mistaken.
McKinney, 726 F.2d at 1187. The inquiry turns on the officer’s perception of the
facts at the time, which guards against second-guessing the reasonableness of his
actions with 20/20 hindsight. Rowland v. Perry, 41 F.3d 167, 173 (4th Cir. 1994).14
In flat disregard of this principle, and in an attempt to create a factual dispute
where none exists, Barrett claims that the District Court erred by not examining what
Barrett actually told Homer and Wilbom. Appellant’s Brief, pp. 43-46. As the
District Court properly held, there was no material dispute as to what Homer and
Wilbom told the Officers, there was no evidence that the Officers had any reason to

14 Furthermore, an officer may choose to rely on either of two conflicting statements
in determining probable cause. See Crews v. County ofNassau 996 F. Supp. 2d 186,
205-7 (E.D. N.Y. 2014) (citing cases).

aVI-183

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 47 of 68

believe that their statements were inaccurate, and that is what matters for summary
judgment purposes. JA 774-5.
Further, while Barrett raises a few minor quibbles about what she claims she
told Homer and Wilbom, she fails to note that she did not dispute the core facts set
out above. Instead, she attempts, unsuccessfully, to challenge just a few of the
overwhelming number of facts. For example, she falsely asserts that Homer did not
call the police because he believed Barrett was a danger to others, Appellant’s Brief,
p. 44, but the record evidence is that Homer called because Barrett was becoming
increasing delusional, believes she is being followed by people in an adjoining
building, has a firearm and has stated that the only way to solve the problem is by
using the firearm. JA 272.
Even if Barrett was correct as to Homer’s call to the police, which she is not,
Barrett erroneously seeks to view just a few of the facts the Officers had in isolation,
rather than properly considering the totality of the information presented to the
Officers. “Probable cause is not a high bar.” District of Columbia v. Wesby, 138 S.
Ct. 577, 586 (2018).'5 The proper inquiry focuses on what an objective officer could
reasonably believe, based on that totality of facts and circumstances, and includes
an officer’s common-sense conclusions about human behavior.

Curley v.

15 Probable cause is less demanding than a standard requiring a preponderance of the
evidence, and does not demand any showing that such a belief be correct or more
likely hue than false. Curley v. Commonwealth, 295 Va. 516, 622 (2018).

aVI-184

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 48 of 68

Commonwealth, 295 Va. 516, 622 (2018). Probable cause does not require officers
to rule out a suspect’s innocent explanation for suspicious facts. Wesby, supra, at
588. Barrett does not address the totality of that facts and circumstances presented
to the Officers, which more than establishes probable cause under the statute, but
rather focuses on only a few facts in isolation, which the U.S. Supreme Court has
held is an improper analysis. Id.
For example, Barrett asserts, at Appellant’s Brief, p. 51, that “mere gun
ownership could not constitute probable cause to seize her.” Of course, Barrett was
not detained based on “mere gun ownership,” but rather on the totality of information
available to the police. Each fact supporting probable cause should not be viewed
in isolation, rather than as a factor in the totality of the circumstances. Wesby, supra,
138 S. Ct. at 588. The totality of the circumstances requires courts to consider the
whole picture, as the whole is often greater than the sum of its parts, especially when
the parts are viewed in isolation. Id. (noting that a factor viewed in isolation is often
more readily susceptible to an innocent explanation than one viewed as part of a
totality); Curley, 295 Va. at 623 (rejecting “technical dissection” or “divide-andconquer” analysis of factors supporting probable cause).
Appellant’s Brief ignores the copious amount of information that provided
probable cause to believe Barrett posed a threat: that Barrett believes she is “fighting
a war,” that she stated that there is nothing she can legally do about the stalking, that

aVI-185

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 49 of 68

she had a “breakthrough” in locating the “hive” or “nest” of stalkers in a nearby
building, that she goes to the shooting range with her gun so the “stalkers” tracking
her through her phone know she uses her firearm regularly, that she wants to confront
the stalkers and forcibly take their cell phones, that she believes that a stalker evaded
office security and approached her at work, and that she stated that the stalkers never
give up and the only way to deal with them is to kill them.16 This behavior lead to
concerns by both Wilbom and Homer that Barrett was a potential threat to herself
and others. As the Officer’s expert witnesses noted without contradiction, any
reasonable police officer would construe this information as a basis to believe Barrett
posed a threat. JA 402-3, 412. See Gooden, supra, 954 F.2d at 967 (officers not
required to wait until they saw blood, bruises and splintered furniture); Cloaninger
v. McDevitt, 555 F.3d 324, 333 (4th Cir. 2009) (had the officers done nothing, the
consequences may have been irremediable).
Before concluding that an officer has breached a clearly established right, a
case must be identified where an officer acting under similar circumstances was held
to have violated the Fourth Amendment. Safar v. Tingle, 859 F.3d 241, 246 (4th
Cir. 2017). Barrett has identified no such case, because none exists, instead citing

16 In another attempt to create a dispute of fact where none exists, Barrett disputes
that she told Wilbom she wanted to take the stalkers’ phones, Appellant’s Brief, p.
452. However, she does not and cannot deny that Wilbom reported to the police that
Barrett made that statement, JA 218-9, and that is what matters for qualified
immunity purposes.

aVI-186

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 50 of 68

to numerous cases where the police were held to have been protected by qualified
immunity. Appellant’s Brief, pp. 50-1. Barrett relies on Bailey v. Kennedy, 349
F.3d 731 (4th Cir. 2003), but unlike this case, Bailey did not involve a determination
of whether a person posed a threat to others, “the quintessential gray area.” Raub v.
Campbell, 3 F. Supp. 3d 526, 534 (E.D. Va. 2014), affd 785 F.3d 876 (4th Cir.
2015). Further, even if Bailey did apply, it merely held that a police officer may not
rely solely on a 911 report that an individual was suicidal determining that he was a
danger to self. See Raub, supra, 785 F.3d at 883-4 (noting that while Bailey and
other cases provided guidance in situations involving danger to self, none delineated
the appropriate standard where a mental health evaluator must decide whether to
recommend a temporary detention on the belief that an individual might be a danger
to others, and did not speak to the necessity, length, and substance of a psychological
evaluation, nor to the evidence needed to support probable cause in such a
circumstance.)17 Unlike the officers in Bailey, the Officers did not rely solely on a
911 call, and Bailey in no way put the Officers on notice that anything they did was
unlawful. Safar, supra, 859 F.3d at 246 (animating principle of qualified immunity
is one of fair notice to officers that their conduct is unlawful). The District Court’s

17 Appellant’s Brief, atp. 52, asserts that Goines v. Valley Cmty. Servs. Bd., 822 F.3d
159 (4th Cir. 2016), is analogous to this case. However, the District Court’s
thorough analysis of Goines and its applicability here, which Barrett fails to address,
dispels her claim. JA 782, n. 2.

aVI-187

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 51 of 68

extensive analysis of the case law at JA pp. 778-782 confirms that the grant of
summary judgment was correct.18
The totality of the facts and circumstances entitled the Officers to qualified
immunity, as the District Court correctly found.
C.

Barrett has abandoned her Appeal of her State Law Claims

While Barrett purports to appeal the District Court’s grant of summary
judgment in favor of the Officers on Counts 7 and 8, which are claims for false
imprisonment arising under state law, Appellant’s Brief, p. 22, her brief makes no
argument regarding these claims. Accordingly, she has waived any argument that
the District Court improperly granted summary judgment in favor of the Officers on
Counts 7 and 8 and the Court should affirm the grant of summary judgment on these
counts. Wood v. Arnold, 915 F.3d 308, 318 fh. 5 (4th Cir. 2019).
D.

The Sole Remaining Claim against Galway Is Barred Because the
Magistrate’s Issuance of a TDO was an Independent Intervening
Act that Caused Barrett’s Detention.

In this appeal, Barrett has abandoned Counts 12 and 14 of her Second
Amended Complaint, which are claims that Galway conspired with Lietzau to

18 Barrett claims that because the Officers were dispatched to PAE offices as a non­
emergency call, did not drive with lights and sirens activated, and waited until they
could interview Barrett before taking any action, they “demonstrate[d] lack of
urgency justifying probable cause.” Appellant’s Brief, p. 49. But Virginia Code
§ 37.2-808.G does not require the existence of an “emergency,” and probable cause
does not require “urgency.”

aVI-188

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 52 of 68

deprive her of her Fourth Amendment rights and other rights, and has also
abandoned Count 13, that Galway falsely imprisoned her. Appellant’s Brief, pp. 245.

The sole remaining claim against Galway is Count 10 of the Second Amended
Complaint, that Galway violated Barrett’s Fourth Amendment rights “by petitioning
to confine her under a TDO.” Appellant’s Brief, p. 55. However, this claim fails
because the Magistrate’s issuance of a TDO was an independent intervening act
which caused Barrett’s confinement and Galway is thus not liable. While Galway
made this argument below, JA 738, 746, the District Court did not reach this issue
in granting the Galway’s motion for summary judgment.

Given Barrett’s

abandonment of claims as described above and below, Galway’s lack of liability can
be resolved due to the superseding actions of the Magistrate which caused Barrett’s
detention.
Subsequent acts of independent decision makers, like the Magistrate here,
may constitute intervening, superseding causes that break the chain between a
defendant’s purported misconduct and a plaintiffs unlawful seizure. Evans v.
Chalmers, 703 F.3d 636, 647 (4th Cir. 2012). In a criminal case, such intervening
acts of other participants in the criminal justice system insulate a police officer from
liability, id., and the rule should have equal applicability in the mental health context.
The rule is not absolute—a defendant is not liable for a plaintiffs unlawful seizure

aVI-189

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 53 of 68

unless the defendant misled or pressured the decision maker. Id at 648.19

To

establish that that Galway mislead the Magistrate, however, requires a “false
statement” made knowingly and intentionally, or with reckless disregard for the
truth. Franks v. Delaware, 438 U.S. 154(1978). While Barrett claimed below that
Galway made a material misrepresentation by inadvertently failing to check one of
a series of boxes on his TDO petition, the District Court considered and properly
rejected this claim, JA 783 n.3, and Barrett has abandoned this argument in this
appeal. As such, Galway is not liable for Barrett’s detention.
E.

Galway is entitled to Qualified Immunity.

The analysis for Galway’s qualified immunity is essentially the same as for
the Officers. However, he did not detain Barrett, but petitioned a magistrate pursuant
to Virginia Code § 37-2.809.B., which contains the same criteria for an ECO and
expressly authorizes consideration of information provided by the persons who
initiated the ECO. Galway had the same information provided to the Officers and
more. A doctor at Virginia Hospital Center, Dr. Liu, believed Barrett was a threat
to herself or others and so advised Galway. SC 26,34. Even though he was unaware
that Barrett had been previously diagnosed with a mental illness, as Barrett lied to
him about her mental health history, Galway nevertheless correctly concluded that
Barrett was likely suffering from post-traumatic stress disorder, as Barrett’s

19 There is no allegation that Galway pressured the Magistrate.

aVI-190

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 54 of 68

psychologist had also concluded. SC 29. Barrett fails to mention not only that Dr.
Liu believed that Barrett should have been detained and evaluated, but that a
psychiatrist at the hospital, Dr. Peggy Lomax, also recommended Barrett be
admitted, SC 34, as did an entire team of mental health evaluators. SC 32. Given
this, it cannot be maintained that Galway “was plainly incompetent or knowingly
violated the law,” as required to deny him qualified immunity, particularly as he did
not even detain Barrett but recommended it to a magistrate.
As in City ofTakoma Park, he had ample opportunity to observe and interview
Barrett, did not decide to seek a TDO in haste and acted pursuant to state law
authorizing mental health seizures. 134 F.3d at 267-8. And most important, no
precedent exists that would have given Galway reason to believe that he was acting
in violation of Barrett’s constitutional rights.
Barrett failed to meet her burden of proving that Galway violated clearly
established law, and the District Court corrected concluded that he is protected from
suit by qualified immunity.
Barrett further asserts because she “volunteered for treatment,” she did not
meet the criteria for a TDO.

Appellant’s Brief, pp. 54-5.

However, Barrett

adamantly refused inpatient treatment. JA 49. Galway discussed with a team of
mental health evaluators whether there were less restrictive settings available for
Barrett other than a TDO, but he and the team all felt that the risks were at a level

aVI-191

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 55 of 68

where detention was the only option, given that Barrett would not voluntarily sign
herself in for treatment, owned a firearm, and did not appear to be willing to
promptly seek treatment or have a plan for doing so. SC 30-2. As the District Court
concluded, Galway reasonably concluded that Barrett presented an acute risk of
harm and that the “treatment” for which Barrett volunteered would not address her
mental health in a timely fashion to allay those concerns. JA 785.
II.

THE DISTRICT COURT’S DISMISSAL OF BARRETT’S “JOINT
ACTION” AND CONSPIRACY CLAIMS WAS PROPER.
A.

The Law Regarding “Joint Action” and Conspiracy to Violate
§ 1983 and Falsely Imprison.

Private actors are generally not liable under 42 U.S.C. § 1983 because the
statute only provides relief for deprivations of constitutional rights by individuals
acting under color of state law. E.g., West v. Atkins, 487 U.S. 42, 48 (1988). ‘“Like
the state-action requirement of the Fourteenth Amendment, the under-color-of-statelaw element of § 1983 excludes from its reach “‘merely private conduct, no matter
how discriminatory or wrongful.’” vUzc&es v. S.H. Kress & Co., 398 U.S. 144, 150
(1970). The requirement of action under the color of state law “reflects judicial
recognition of the fact that ‘most rights secured by the Constitution are protected
only against infringement by governments.’” Lugar v. Edmondson Oil Co., 457 U.S.
922, 936 (1982).

aVI-192

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 56 of 68

A private party, however, can be liable under a “joint action” theory of
liability if “(1) a state official and private individual reached an understanding to
deprive the plaintiff of his constitutional rights and (2) the individual was a willful
participant in joint activity with the State or its agents.” E.g., Hessami v. Corporation
ofRanson, 170 F. Supp. 2d 626, 634 (N.D. W. Va. 2001); Chiles v. Crooks, 708 F.
Supp. 127, 130 (D.S.C. 1989).
“Establishing a civil conspiracy under 42 U.S.C. § 1983 requires a plaintiff
to show that Defendants ‘acted jointly in concert and that some overt act was done
in furtherance of the conspiracy which resulted in plaintiffs deprivation of a
constitutional right.’” Davis v. Walmart Stores East, L.P., 687 Fed. Appx. 307, 311
(4th Cir. 2017). A private party may be liable under § 1983 “if [he or she]
conspire[s] to commit, or [is] jointly engaged in, prohibited actions with state
officials.” Davis v. Wal-Mart Stores East, LP, 177 F. Supp. 3d 943, 956-57 (E.D.
Va. 2016).
Under Virginia law, the elements of a common law civil conspiracy claim are
(i) an agreement between two or more persons (ii) to accomplish an unlawful
purpose or to accomplish a lawful purpose by unlawful means, which (iii) results in
damage to plaintiff. Glass v. Glass, 228 Va. 39, 47 (1984).

aVI-193

USCA4 Appeal: 19-1394

B.

Doc: 19

Filed: 07/05/2019

Pg: 57 of 68

The Standard for Pleading “Joint Action” and Conspiracy under
Twombly/Iqbal.

To allege “joint action” and conspiracy under § 1983, a plaintiff must allege
facts showing an agreement or meeting of the minds to engage in a conspiracy to
deprive a plaintiff of a constitutional right. E.g., Ruttenberg v. Jones, 283 Fed. Appx.
121,130 (4th Cir. 2008). A plaintiff must allege facts establishing that the defendants
shared a “unity of purpose or a common design” to injure him. A Soc ’y Without a
Name, for People Without a Home, Millenium Future-Present v. Virginia, 655 F.3d
342, 346-47 (4th Cir. 2011). “Without an agreement, the independent acts of two or
more wrongdoers do not amount to a conspiracy.” A Soc ’y Without a Name, 639
F.2d at 1075-76.
A plaintiff must plead facts amounting to more than “parallel conduct and a
bare assertion of conspiracy.” Id. Without more, parallel conduct does not suggest
conspiracy, and a conclusory allegation of agreement does not supply facts adequate
to show illegality. Id. “The factual allegations must plausibly suggest agreement,
rather than being merely consistent with agreement.” Id.
“Under Twombly, [a plaintiff] is required to allege ‘enough facts to state a
claim to relief that is plausible on its face,’” and “[t]his requires a ‘plausible
suggestion of conspiracy.’” Ruttenberg, 283 Fed. Appx. at 131. A plaintiff “need[s]
to plead facts that would ‘reasonably lead to the inference that [defendants]

aVI-194

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 58 of 68

positively or tacitly came to a mutual understanding to try to accomplish a common
and unlawful plan.’” Ruttenberg, 283 Fed. Appx. at 131.
A court need not accept unsupported legal allegations, see Reverie v. Charles
County Comm ’rs, 882 F.2d 870, 873 (4th Cir. 1989), legal conclusions couched as
factual allegations, see Papasan v. Allain, 478 U.S. 265, 286, or conclusory factual
allegations, see Harris v. City of Va. Beach, 11 Fed. App’x 212, 215 (4th Cir. 2001);
United States Firefighters v. Hirst, 604 F.2d 844, 847 (4th Cir. 1979); Brightwell v.
Moultrie, No. DKC-12-1520, 2013 U.S. Dist. LEXIS 116860, at *10 (D. Md. Aug.
19, 2013); Cooper v. Lippa, No. 3:11-CV-712, 2012 U.S. Dist. LEXIS 56822, at
*18-19 (E.D. Va. Apr. 23, 2012).
A plaintiffs factual allegations must amount “to more than rank speculation
and conjecture” and must “give rise to an inference that each alleged conspirator
shared the same conspiratorial objective” Hinkle, 81 F.3d at 422; Worthington v.
Palmer, No. 3:15-CV-410,2015 U.S. Dist. LEXIS 159441, at *17-18 (E.D. Va.Nov.
24, 2015). “‘If the existence of a conspiracy can be found only through speculation
and inference, the claim will be dismissed.’” Lippa, 2012 U.S. Dist. LEXIS 56822,
at *18-19 (quoting Hinkle, 81 F.3d at 423).
C.

Barrett Failed to Allege a Plausible Claim of “Joint Action” or a
Conspiracy in Connection with the Issuance of the ECO.

The District Court properly dismissed Barrett’s § 1983 “joint action” and her
§ 1983 and common law conspiracy claims in Counts 3, 4, 6, and 9 because she

aVI-195

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 59 of 68

failed to plausibly allege a mutual agreement or common plan to issue the ECO and
remove her from the workplace based on the alleged false pretense that she was a
threat and a danger to others. JA 34, | 91. As the District Court correctly held,
Barrett’s Second Amended Complaint fails to plausibly allege an actionable mutual
agreement or common plan because she did not allege anywhere that the Officers
knew that Barrett was not a danger, but nonetheless agreed to issue the ECO and
detain her. JA 120-121. She also did not allege any facts to plausibly suggest why
the Officers would ever agree to such a plan.
Barrett’s claims are based on her allegation that the Officers met with Homer
at PAE’s offices on July 12, 2017, and that in that meeting they “agreed to remove
Dr. Barrett from the workplace, regardless of answers to the police officers’
questions, based on her ostensibly being a threat and danger to others.” JA 34, ^ 91.
Barrett, however, alleges no facts to support this conclusory assertion. She alleges
no facts to plausibly explain or suggest how or why these parties would ever reach
such an agreement in this meeting when they otherwise shared no interest, motive
or prior relationship. She just alleges an agreement and then goes on to repeat it
formulaically throughout the Second Amended Complaint.
Barrett’s allegation of an agreement and the repetition of it throughout the
Second Amended Complaint are completely insufficient. First and foremost, as
noted by the District Court, Barrett does not allege anywhere that the Officers knew

aVI-196

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 60 of 68

that she was not a threat or danger to others, but that they agreed to issue the ECO
and remove her anyway. Without such knowledge, there can be no agreement.
Worthington v. Palmer, No. 3:15-CV-410, 2015 U.S. Dist. LEXIS 159441, at *1718 (E.D. Va. Nov. 24, 2015) (private actor or state actor defendants did not share
knowledge of key facts underlying the alleged conspiracy); Roberts v. Ballard, No.
2:15-CV-15458, 2017 U.S. Dist. LEXIS 31858, at *11 (S.D. W.Va. Mar. 7, 2017)
(no facts alleged to show that certain co-conspirators knew of the conspiracy); c.f,
Fyfe Co., LLC v. Structural Group, LLC, 2013 U.S. Dist. LEXIS 75685, at *16 (D.
Md. May 30, 2013) (no allegation that the defendants had an understanding of key
elements of the alleged conspiracy).20
While Barrett insists in her brief that the Second Amended Complaint alleges
that the Officers knew that she was a danger and a threat, the District Court correctly
pointed out that, even when liberally construed, the Second Amended Complaint
only alleges that “the officers, called to the scene, decided to remove her after their
discussions with Plaintiffs employer [sic] and without regard to what she might say
to them during their discussion, not that they knew she was not a danger yet agreed
to detain her.” Barrett never alleges that the Officers knew that she was not a danger,

20 To the extent that Barrett alleges that Homer, Wilbom and Lietzau falsely told the
Officers that she was a threat and a danger, she still has no claim because providing
false information to police officers does not show mutual agreement. E.g.,
Cunningham v. Southlake Ctr. for Mental Health, Inc., 924 F.2d 106, 108 (7th Cir.
1991).
aVI-197

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 61 of 68

much less facts plausibly suggesting how or why they knew this fact. There is
nothing, just conclusory assertion.
Barrett also bases her claims on other, subsequent communications and
meetings involving Homer, Wilbom, Lietzau, and the Officers that allegedly took
place on July 13, 2017 before the ECO was issued. In recounting these alleged
meetings and discussions, however, she simply repeats the same formulaic,
conclusory allegation of a “plan” to “remove Dr. Barrett from the workplace,
regardless of her answers to the police officers’ questions, based on her ostensibly
being a threat and danger to others.” JA 36-39,41. As with the initial July 12, 2017,
meeting between Homer and the Officers, Barrett offers nothing to show a mutual
agreement or shared plan other than conclusory assertion and speculation.
Further, that the Officers allegedly met and communicated with Homer,
Wilbom and Lietzau multiple time does not itself suggest mutual agreement or a
common plan. As this Court has noted, the “factual allegations must plausibly
suggest agreement, rather than being merely consistent with agreement.” Soc’y
Without a Name, 655 F.3d at 346-47. This principle is central not only to the postIqbal/Twombly analysis but also to this case because the alleged meetings and
communications are completely consistent with the normal interaction between the
police and citizenry when a complaint is reported or investigated. C.f, Loren Data
Corp. v. GXS, Inc., 501 Fed. Appx. 275, 280-81 (4th Cir. 2012) (no inference of

aVI-198

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 62 of 68

conspiracy when co-conspirators had no motive to conspire and when their conduct
was consistent with other equally plausible explanations).
Second, Barrett alleges no facts to plausibly suggest why the Officers would
agree to issue an ECO and detain her knowing that she was not a danger or knowing
that the claim that she was a danger was false. Barrett does not allege that the
Officers had any prior relationship with PAE or its employees Homer, Wilbom and
Lietzau or that they shared any interest in removing her without probable cause.
Barrett insists in argument that the Officers had no knowledge involvement with the
PAE Appellees’ alleged conspiracy to silence Barrett’s whistleblowing.
Barrett argues that the District Court erred in dismissing her claims because,
she says, it concluded that the co-conspirators did not share the same motives in
pursuing the conspiracy. While the District Court observed the absence of any facts
suggesting a motive for the Officers to conspire with Homer, Wilbom and Lietzau
“to cover up [the PAE Appellees’] criminal conduct,” its mling was squarely based
on Barrett’s failure to allege any facts suggesting the Officers knew that Barrett was
not a threat or a danger, but nonetheless agreed to issue the ECO. (JA 120-121).
In support of this argument, Barrett relies heavily on the district court’s
decision in Everette-Oates v Chapman, No. 5:16-CV-623-FL, 2017 U.S. Dist.
LEXIS 180038 (E.D. N.C. Oct. 31, 2017). In Everette-Oates, the defendant moved
to dismiss a § 1983 conspiracy claim based on an alleged plan to prosecute the

aVI-199

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 63 of 68

plaintiff for embezzlement by concealing the existence of known documents in the
defendants’ possession that showed that the plaintiff was innocent. In moving to
dismiss, the defendants argued that this claim was implausible because the
defendants’ alleged motive for prosecuting her was to retaliate against her for
inquiring about the defendants’ use of FEMA funds and because this motive was
implausible when the defendants had no control over such funds. Id. at *13. The
court denied the motion to dismiss, holding that the plaintiff had stated a claim by
alleging that the defendants knew of documents exonerating the plaintiff but
nonetheless agreed to conceal them and criminally prosecute her. In doing so, the
court stated that the plaintiffs “flawed alleged motive” was irrelevant when she
otherwise stated a claim. Importantly, however, the court noted that while it did not
have to determine whether the defendants’ control of the FEMA funds was plausible,
the “plausibility of such allegation [had to] be considered at [that] stage [of the
litigation] in conjunction with the complaint as a whole.” Id. at *16.
The decision in Everette-Oates is completely distinguishable because the
plaintiff in that case alleged that the defendants knew that documents in their
possession proved the plaintiffs innocence, but that they agreed to conceal those
documents and prosecute her anyway. Unlike the plaintiff in Everette-Oates, Barrett
did not allege that the Officers knew that she was not a danger or a threat, but
nevertheless agreed with Homer, Wilbom and Lietzau to unlawfully issue the ECO

aVI-200

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 64 of 68

without probable cause. Importantly for Barrett’s argument, the court in EveretteOates noted that the plausibility of allegations bearing on the motives of alleged co­
conspirators had to be considered in conjunction with the complaint as a whole. To
the extent that the District Court in this case noted the implausibly of the Officers
conspiring with PAE employees to cover up their criminal conduct, it did so
permissibly as part of its obligation to assess the plausibility of this allegation in
conjunction with Barrett’s Second Amended Complaint as a whole.
Plaintiff also relies heavily on McDaniel v. Maryland, No. RDB-10-00189,
2010 U.S. Dist. LEXIS 84784, at *35-36 (D. Md. Aug. 18, 2010). In McDaniel, a
plaintiff alleged that three police officers conspired to pull him over for a traffic stop
without probable cause. McDaniel, 2010 U.S. Dist. LEXIS 84784, at *3. The court
held that the plaintiff sufficiently alleged a conspiracy among these officers because
the complaint specifically alleged that one officer had advised another officer to tell
the plaintiff that he “was following too closely or whatever you want to tell him.”
Id. Unlike McDaniel, Plaintiff alleges no such communications suggesting that the
Officers knew that Barrett was not a threat or a danger, but agreed to issue the ECO
and detain her anyway. Further, unlike this case, the conspiring police officers in
McDaniel knew each other and had a reasonably inferable motive, e.g. racial bias,
for entering into the conspiracy while nothing suggests that the Officers had any

a VI-201

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 65 of 68

reasonably inferable motive or interest in issuing the ECO when she was not a danger
or a threat.
D.

The District Court properly dismissed Barrett’s Punitive Damages
Claim.

Barrett takes issue with the District Court’s dismissal of her claim for punitive
damages against the County Appellees, erroneously claiming that “the standard of
proof for liability under Section 1983 and punitive damages under section 1983 are
‘essentially the same.’” Appellant’s Brief, p. 39. Of course, the standard is not the
same, as, punitive damages are only awarded “when the defendant’s conduct is
shown to be motivated by evil motive or intent, or when it involves reckless or
callous indifference to the federally protected rights of others.” Smith v. Wade, 461
U.S. 30, 56 (1983). Barrett’s punitive damages claim were inextricably tied to her
flimsy conspiracy claims, and were both correctly dismissed.
CONCLUSION
For the reasons argued above, the Court should affirm the District Court.
Respectfully Submitted,
/s/ Ara L. Tramblian
Ara L. Tramblian
Bancroft, Mcgavin, Horvath
& Judkins, P.C.
9990 Fairfax Boulevard, Suite 400
Fairfax, Virginia 22030
(703) 385-1000

aVI-202

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07705/2019

Pg: 66 of 68

Ryan C. Samuel
County Attorney’s Office
2100 Clarendon Boulevard, Suite 403
Arlington, Virginia 22201
(703) 228-3100
Counsel for Appellees
Hall, Luzier & Galway
Charles M. Elmer
Jackson Lewis P.C.
10701 Parkridge Boulevard, Suite 300
Reston, Virginia 20191
(703) 483-8300
Meredith F. Bergeson
Crystal L. Tyler
Jackson Lewis P.C.
Post Office Box 85068
Richmond, Virginia 23285
(804) 649-0404
Counsel for Appellees
PAE Government Services, Inc.
LietzaUi Horner & Wilborn

aVI-203

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 67 of 68

CERTIFICATE OF COMPLIANCE
1.

This brief complies with type-volume limits because, excluding the parts of
the document exempted by Fed. R. App. P. 32(f) (cover page, disclosure
statement, table of contents, table of citations, statement regarding oral
argument, signature block, certificates of counsel, addendum, attachments):
[ X ] this brief contains [12,893] words.
[ ] this brief uses a monospaced type and contains [state the number of\
lines of text.

2.

This brief document complies with the typeface and type style requirements
because:
[ X ] this brief has been prepared in a proportionally spaced typeface using
[Microsoft Word 2016] in [I4pt Times New Roman]; or
[ ] this brief has been prepared in a monospaced typeface using [state
name and version of word processing program] with [state number of
characters per inch and name of type style].

Dated: July 5, 2019

/s/ Ara L. Tramblian______ _
Counsel for Appellees
Areyal Hall, Brian Galway,
& Joshua Luzier

aVI-204

USCA4 Appeal: 19-1394

Doc: 19

Filed: 07/05/2019

Pg: 68 of 68

CERTIFICATE OF FILING AND SERVICE
I hereby certify that on this 5th day of July, 2019, I caused this Brief of
Appellees to be filed electronically with the Clerk of the Court using the CM/ECF
System, which will send notice of such filing to the following registered CM/ECF
users:
Peter C. Cohen
Hans H. Chen
Charlson Bredehoft Cohen & Brown, P.C.
11260 Roger Bacon Drive, Suite 201
Reston, Virginia 20190
(703)318-6800
Counsel for Appellant
I further certify that on this 5th day of July, 2019,1 caused the required copy
of the Brief of Appellees to be hand filed with the Clerk of the Court.

/s/ Ara L. Tramblian_______
Counsel for Appellees
Areyal Hall, Brian Galway,
& Joshua Luzier

aVI-205

Additional material
from this filing is
available in the
Clerk's Office.

